No. _______
IN THE

Supreme Court of the United States
_________
JAMES CALVERT,
Petitioner,
v.
TEXAS,
Respondent.
________
On Petition for a Writ of Certiorari
to the Texas Court of Criminal Appeals
________
PETITION FOR A WRIT OF CERTIORARI
________
DOUGLAS H. PARKS
321 Calm Water Lane
Holly Lake Ranch, TX 75765
(214) 799-3772
BINA M. PELTZ
JENNER & BLOCK LLP
919 Third Avenue
New York, NY 10022
(212) 891-1600

DAVID W. DEBRUIN
Counsel of Record
JULIAN P. SPEARCHIEF-MORRIS
ALLISON M. TJEMSLAND
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6015
ddebruin@jenner.com

i
_____________
CAPITAL CASE
QUESTIONS PRESENTED
This case presents important issues concerning the
right to counsel, the Eighth Amendment right to
individualized sentencing in a capital case, and the fair
administration of justice in Texas.
Petitioner
respectfully presents three issues for review, each of
which warrants the involvement of this Court:
1. Whether the Constitution prevents a State from
allowing a defendant to represent himself in a capital
case when the defendant is mentally competent to waive
counsel but is not mentally competent to conduct trial
proceedings in his capital trial.
2. Whether the Eighth Amendment prohibits the
State of Texas from sentencing Petitioner to death on a
finding of future dangerousness based in substantial
part on graphic testimony and evidence about an attack
on a prison official committed by another inmate in
another prison at another time, having no connection to
Petitioner.
3. Whether the constitutional violation resulting
from the trial court’s direction to administer a 50,000volt electric shock to Petitioner during his trial to
“enforce decorum” because Petitioner failed to stand
when responding to a question from the court
constitutes structural error.

ii
STATEMENT OF RELATED CASES

Texas Criminal Proceedings
State v. Calvert, Cause No. 241-1467-12 (241st Jud. Dist.,
Smith Cnty., Tex. Oct. 14, 2015) (state trial court
proceeding)
Calvert v. State, AP-77,063 (Tex. Crim. App. Oct. 9, 2019)
(Texas Court of Criminal Appeals decision on direct
appeal)
Calvert v. State, AP-77,063 (Tex. Crim. App. June 17,
2020) (order denying motion for rehearing)

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................... i
STATEMENT OF RELATED CASES ........................ ii
TABLE OF AUTHORITIES ......................................... vi
PETITION FOR A WRIT OF CERTIORARI ............ 1
OPINIONS BELOW ......................................................... 1
JURISDICTION ................................................................ 1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED ............................................ 1
INTRODUCTION ............................................................. 2
STATEMENT OF THE CASE ....................................... 4
A.

The Underlying Incident. .......................... 4

B.

Waiver of Counsel. ..................................... 5

C.

Electric Shock Incident. ............................ 8

D.

Evidence
Regarding
Future
Dangerousness. ......................................... 10

E.

Direct Appeal Rulings of the Texas
Court of Criminal Appeals. ..................... 12

REASONS FOR GRANTING THE PETITION....... 14
I.

The Court Should Grant Review To
Determine Whether A Defendant Who Is
Mentally Ill, And Whose Illness Renders
Him Not Competent To Conduct Trial
Proceedings, May Be Tried For A Capital
Offense Without A Lawyer................................. 14

iv
A.

The
Sixth
And
Fourteenth
Amendments Preclude Waiver Of
Counsel In A Death Penalty Case
When The Defendant Is Mentally
Ill And Not Competent To Conduct
Trial Proceedings...................................... 14

B.

This Court Should Grant Review
To Resolve A Conflict Among The
States Regarding The Meaning
And Implication Of Edwards. ................. 20

II.

The Court Should Grant Review To
Determine
Whether
The
Eighth
Amendment Allows A State To Seek A
Sentence Of Death Based On Horrific
Actions Of Someone Other Than The
Defendant, In A Wholly Unrelated
Incident. ................................................................. 23

III.

The Court Should Grant Review To
Determine Whether It Is Intolerable, And
Structural Error, To Electric-Shock A
Defendant For Failing To Remember To
Stand When Addressing The Court. ................. 27

CONCLUSION ................................................................ 32
Appendix A
Calvert v. State, No. AP-77,063, 2019 WL
5057268 (Tex. Crim. App. Oct. 9, 2019) ..................... 1a

v
Appendix B
Denial of Petition of Rehearing, Calvert v.
State, No. AP-77,063 (Tex. Crim. App. June 17,
2020) ........................................................................... 171a

vi
TABLE OF AUTHORITIES
CASES
In re Amendments to Florida Rule of
Criminal Procedure 3.111, 17 So. 3d 272
(Fla. 2009) ....................................................... 20, 22
Caperton v. A.T. Massey Coal Co., 556 U.S.
868 (2009) ........................................................ 29, 30
Faretta v. California, 422 U.S. 806 (1975) ............. 15
Gideon v. Wainwright, 372 U.S. 335 (1963) ............ 15
Gregg v. Georgia, 428 U.S. 153 (1976) ..................... 25
Hawkins v. Comparet-Cassani, 251 F.3d
1230 (9th Cir. 2001) .............................................. 27
Indiana v. Edwards, 554 U.S. 164 (2008) ...... passim
Jurek v. Texas, 428 U.S. 262 (1976)......................... 26
Kansas v. Marsh, 548 U.S. 163 (2006) .............. 25, 26
Martinez v. Court of Appeal of California,
528 U.S. 152 (2000) ............................. 16, 18, 19, 23
Martinez v. State, 327 S.W.3d 727 (Tex.
Crim. App. 2010) .................................................. 11
Mathis v. State, 271 P.3d 67 (Okla. Crim.
App. 2012) ............................................................. 23
McCleskey v. Kemp, 481 U.S. 279 (1987)................ 25
People v. Brooks, 809 N.W.2d 644 (Mich. Ct.
App. 2011), vacated on other grounds,
807 N.W.2d 303 (Mich. 2012) .............................. 20

vii
Powell v. Alabama, 287 U.S. 45 (1932) ................... 15
Rochin v. California, 342 U.S. 165 (1952) .............. 30
Shorthill v. State, 354 P.3d 1093 (Alaska Ct.
App. 2015) ............................................................. 20
State v. Barnes, 753 S.E.2d 545 (S.C. 2014) ........... 22
State v. Connor, 973 A.2d 627 (Conn. 2009) ..... 20, 21
State v. Cruz, 109 A.3d 381 (R.I. 2015) .............. 20-21
State v. Jason, 779 N.W.2d 66 (Iowa Ct.
App. 2009) ....................................................... 20, 22
State v. Klessig, 564 N.W.2d 716 (Wis.
1997) ....................................................................... 21
State v. Maestas, 299 P.3d 892 (Utah 2012) ........... 22
Stewart-Bey v. State, 96 A.3d 825 (Md. Ct.
Spec. App. 2014) ................................................... 23
Sullivan v. Louisiana, 508 U.S. 275 (1993) ...... 29, 30
Tuilaepa v. California, 512 U.S. 967 (1994)........... 25
United States v. Booker, 728 F.3d 535 (6th
Cir. 2013) ............................................................... 31
Weaver v. Massachusetts, 137 S. Ct. 1899
(2017) ......................................................... 28, 29, 30
Williams v. Pennsylvania, 136 S. Ct. 1899
(2016) ..................................................................... 29
Williams v. United States, 137 A.3d 154
(D.C. 2016) ............................................................ 20
Woodson v. North Carolina, 428 U.S. 280
(1976) ..................................................................... 25

viii
CONSTITUTIONAL PROVISIONS AND STATUTES
U.S. Const. amend. VI .......................................... 1, 16
U.S. Const. amend. VIII ............................................. 1
28 U.S.C. § 1257(a) ....................................................... 1
Tex. Code Crim. Proc., art. 37.071, § 2(b)(1) .......... 10
OTHER A UTHORITIES
Press Release, U.S. Attorney Office for the
District of Maryland, Former Charles
County Circuit Court Judge Pleads
Guilty to Civil Rights Violation (Feb. 1,
2016), https://www.justice.gov/usao-md/
pr/former-charles-county-circuit-court-j
udge-pleads-guilty-civil-rights-violation .......... 31
Jeff Wright, Capital Murder Suspect’s
Shock Belt Administered, Judge
Terminates Self-representation, KLTV
(Sept. 15, 2015), https://www.kltv.com/st
ory/30036181/judge-administers-calver
ts-shock-belt-terminates-self-represent
ation/ ............................................................. 9-10, 30

1
PETITION FOR A WRIT OF CERTIORARI
James Calvert petitions for a writ of certiorari to
review the judgment of the Texas Court of Criminal
Appeals on direct review of his conviction and sentence
of death.
OPINIONS BELOW
The decision of the Texas Court of Criminal Appeals
(Pet. App. A, 1a-170a) is unreported and available at
2019 WL 5057268. The decision of the Texas Court of
Criminal Appeals denying a petition for rehearing (Pet.
App. B, 171a) is also unreported.
JURISDICTION
The Texas Court of Criminal Appeals entered its
judgment on October 9, 2019, and denied a timely
petition for rehearing on June 17, 2020. This Court has
jurisdiction pursuant to 28 U.S.C. § 1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves the Sixth Amendment to the
Constitution, which states that “the accused shall enjoy
the right . . . to have the Assistance of Counsel for his
defence.”
This case also involves the Eighth Amendment to the
Constitution, which prohibits, in relevant part, the
infliction of “cruel and unusual punishment[].”
This case also involves the Due Process Clause of the
Fourteenth Amendment to the Constitution, which
states that “[n]o State shall . . . deprive any person of life,
liberty, or property, without due process of law[.]”

2
INTRODUCTION
This is a capital case riddled with constitutional
error. Petitioner was charged with capital murder for
shooting his ex-wife. He had no significant prior
criminal record, but had a long history of depression and
mental illness. He was convicted and sentenced to death
in a way the Constitution simply does not permit. He
had no lawyer for much of the trial: He represented
himself, even though he was not mentally competent to
do so. He had no fair sentencing hearing: He was
sentenced to death on the basis of a future
dangerousness finding premised on the horrific acts,
graphically presented to the jury, committed by another
prisoner with no relationship whatsoever to Petitioner.
And he had no trial that could be perceived as fair: In an
action the Texas Court of Criminal Appeals (“TCCA”)
found to violate due process, the judge presiding over his
trial directed courtroom deputies to administer a 50,000volt shock to Petitioner for 8 seconds in order to “enforce
decorum” simply because Petitioner did not stand while
addressing the court.
The deeply flawed proceedings below give rise to
three independent issues that warrant this Court’s
review.
First, this Court should hold that the Constitution
prevents a State from allowing a defendant to represent
himself in a capital case when the defendant is mentally
competent to waive counsel but is not mentally
competent to conduct trial proceedings. In Indiana v.
Edwards, 554 U.S. 164 (2008), this Court went most of
the way there, rejecting (in a non-capital case) the

3
defendant’s argument that a State was required to
permit him to represent himself when he was mentally
incompetent to do so, and explaining that permitting a
defendant to represent himself when he is incompetent
to do so undermines the powerful interest in ensuring a
fair trial. Predictably, Edwards has resulted in conflict
and confusion, with some courts invoking its holding to
give States flexibility, and others invoking its rationale
to hold that no flexibility is permitted. The TCCA joined
the former group, holding that a defendant can
represent himself in a capital case even when he is not
mentally competent to do so. This Court should grant
review and reverse.
Second, the Court should grant review to consider
whether the Eighth Amendment’s requirement of
individualized sentencing in the capital context permits
a defendant to be sentenced to death on the evidence of
horrific misconduct by others. Here, in order to prove
future dangerousness, the State offered the testimony of
a former prison guard who was stabbed in the eye with
a pencil by an inmate, and it offered as an exhibit a
gruesome X-ray showing the pencil still embedded four
inches into the prison guard’s brain. But that incident
was by another prisoner who had no connection
whatsoever to Petitioner. Allowing a defendant to be
sentenced to death because of graphic evidence of a
horrific attack committed by some other prisoner at
some prior time against some prison official makes a
mockery of the individualized sentencing the Eighth
Amendment requires.
Third, the Court should hold that the administration
of an electric shock under the circumstances here is

4
structural error that is not subject to harmless error
review. Here, the constitutional violation is clear: The
TCCA correctly found that the administration of a
50,000-volt shock for 8 seconds to “enforce decorum”
violated due process. Indeed, such behavior was
arguably criminal, as the Department of Justice
(“DOJ”) has indicted a state court judge for doing just
that. But the Texas court erred by concluding that the
error was subject to a harmlessness analysis. The
administration of a sustained and powerful electric shock
simply to enforce decorum calls into question the
fundamental fairness of a trial. It is structural error, and
the TCCA erred in refusing to treat it as such.
The Petition should be granted, and the decision
below should be reversed.
STATEMENT OF THE CASE
A. The Underlying Incident.
Petitioner James Calvert was convicted of shooting
his ex-wife Jelena Sriraman and departing her home
with the couple’s four-year-old son. Shortly before the
incident, Ms. Sriraman sought and obtained permission
from a family court to move up to 500 miles away with
the couple’s two children. Petitioner had no significant
prior criminal record. He did, however, have a history
of depression and mental illness.
After the shooting, the police posted a lookout, and
soon found Petitioner driving away with his son in the
back seat. One officer passed Petitioner and later
testified that Petitioner looked “dazed,” was “[j]ust
staring at us,” and that “[n]ormally when people run

5
from us, they don’t just stare at you.” RR-140:184. The
officer testified that when Petitioner was stopped and
arrested, he “made a very conscious statement of ‘[j]ust
don’t shoot my child.’” RR-140:186.
B. Waiver of Counsel.
The trial court appointed Jeff Haas as lead counsel
for Petitioner, assisted by Jason Cassel. CR-1:22, 63.
Haas promptly filed a motion to appoint a psychologist
or psychiatrist to assist in the defense. Supp. CR1/3:119. But not long after being appointed, Haas filed a
motion to withdraw, stating that he and Petitioner had
“difficulty communicating” and Petitioner had
requested that Haas file a motion to withdraw. CR-1:79.
The court conducted an ex parte hearing on the motion.
RR-5. Haas stated there might be grounds for a plea of
not guilty by reason of insanity, and that there were a
number of avenues Petitioner wanted to pursue that
Haas believed were premature. RR-5:9-12. The court
declined to appoint other counsel, and directed
Petitioner to continue to work with Haas.
Pretrial proceedings continued, and the State filed
notices of 449 lay and 236 expert witnesses it might call
at trial. CR-1:102-12, 120-25. The State produced
voluminous discovery, including extensive electronic
media. After several more months, however, Haas
advised the court that if the court would not appoint
other counsel, Petitioner wished to proceed pro se.
RR-12:3.
The court again declined to consider
appointing other counsel, and appointed psychiatrist
Mitchell Dunn to assess Petitioner’s competency to
waive counsel. Dunn conducted an examination of

6
Petitioner and reviewed voluminous psychiatric records,
including psychiatric treatment records dating back to
2009, a psychological examination completed in 1999, and
records from an admission to a psychiatric unit in 2011.
Supp. CR 2/3:120, 121-29. Dunn ultimately prepared a
report. Supp. CR 2/3:120. Dunn diagnosed Petitioner
with “Major Depressive Disorder, Recurrent, in Partial
Remission” and “Personality Disorder Not Otherwise
Specified, with Antisocial and Obsessive-Compulsive
Features.” Supp. CR 2/3:124. Dunn described that
Petitioner “has a history of rigid behaviors, consistent
with obsessive-compulsive personality features.” Supp.
CR 2/3:125. But Dunn concluded that Petitioner was
competent to waive his right to counsel. Supp. CR
2/3:128.
The trial court conducted a hearing on the issue.
Haas and Cassel did not oppose the request of their
client to proceed pro se. The State did not oppose.
Dunn’s report was introduced, but Dunn did not testify.
The extensive psychiatric records Dunn reviewed were
not introduced at the hearing, and those records were
never reviewed by anyone else. The trial court
conducted an inquiry of Petitioner and determined he
was legally competent to waive counsel. RR-13; RR-14.
The trial court did not consider whether, given
Petitioner’s mental illness, Petitioner was able to
conduct trial proceedings in a complex death penalty
case. The court gave no indication it understood it even
could consider that issue, having found Petitioner

7
competent to waive counsel. See, e.g., RR-13:23, 30-32,
47-48; RR-14:7, 44-45, 57, 64-65, 71.
From the moment Petitioner began to represent
himself, pretrial proceedings became enormously
protracted and difficult for everyone, and those
proceedings made clear that Petitioner could not
represent himself in a death penalty case and still
receive a fair trial. At an early hearing, the State
informed the court that Petitioner had been placed on a
suicide watch at the jail. RR-21:25. Consistent with
Dunn’s report that Petitioner had “a history of rigid
behaviors, consistent with obsessive-compulsive
personality features,” Petitioner filed a constant barrage
of pretrial motions – totaling in the hundreds. Supp. CR
2/3:125; RR-44:23-24. Many of the motions were bizarre
and incomprehensible, see, e.g., Supp. CR 3/3:145.
Petitioner’s incessant motions and objections led to
constant friction with the court and the State. Because
of these difficulties, the State urged that Petitioner be
“removed as his own lawyer.” RR-70:115. In one
hearing, the State became so angry it addressed
Petitioner as “butthead.” RR-44:113.
Predictably, while Petitioner was handling his own
defense, the trial was a farce. Petitioner objected to
everything at trial, attempting to preserve every
conceivable issue for review. At one point, the State
commented that Petitioner had made 41 objections in 15
minutes. RR-131:163. Many of Petitioner’s objections
and behaviors during trial were bizarre. He sought to
examine one witness, Shonda Emmert, regarding her
address and date of birth, claiming he had reason to

8
believe Emmert might not actually be the person she
claimed to be. RR-132:99-101. Similarly, with regard to
a police witness, Petitioner moved “to have the officer
show actual identity of himself and have it on the
record,” to establish “that he is actually the person that
he purports to be.” RR-140:174. Petitioner asked to
make certain objections by using the code word
“foxtrot,” RR-150:37, 40, and he objected “to hearsay in
total, as far as any things that would—any letters of the
alphabet that would compose words that would be
asserted to be truthful at any time,” RR-129:60-61. All
of this occurred before the jury, and these kinds of
statements and behaviors were constant.
C. Electric Shock Incident.
Apart from its frustrations with Petitioner’s conduct
as a pro se litigant, the trial court was also bothered that
Petitioner did not consistently follow the court’s rules of
courtroom decorum. The court had a rule that Petitioner
should sit when addressing witnesses or not addressing
the court, but stand when addressing the court or
whenever the jury entered or exited the courtroom. The
record shows, across hundreds of pages of trial
transcript, that Petitioner generally followed the
instructions without incident.
He also was not
belligerent, disrespectful, or disruptive of court
proceedings. In several instances during a long and
contentious death penalty trial, however, Petitioner
failed to stand promptly when addressing the court.
The court’s response was to threaten Petitioner that
the courtroom deputies would use an electric shock
device the court required Petitioner to wear—which

9
administered an 8-second, 50,000-volt electric shock—if
Petitioner failed to stand properly when he was
supposed to stand. The court specifically threatened
Petitioner that “[t]hese deputies are not going to put up
with you. You know the remedy they have got,” RR155:71, and the court then repeated that if Petitioner did
not behave “properly,” “[t]he deputy has got a shock
device in their hand. . . . [T]hey will use whatever means
they have to control you,” RR-155:75. And the court
made clear: “I’m not talking a security threat. I’m
talking about you listening to me. When the jury comes
in, stand up. When you object, stand up. When the
Court rules, sit down.” RR-155:77. A short time later,
the court directed the deputies, “Let’s get it over with.”
RR-155:178.
The deputies did as the court instructed. Shortly
after the court’s remarks, a trial day ended. As the jury
was walking out of the courtroom, for which Petitioner
stood as required, the trial judge directed Petitioner:
“Be seated. The jury is out of the courtroom.” RR155:221. The judge then immediately asked Petitioner a
question, and Petitioner responded while still seated.
While the court was talking, and without Petitioner
saying or doing anything else, two sheriff deputies told
Petitioner on the record to “stand up,” and the transcript
then reads: “Shock bracelet activated on defendant.”
RR-155:221 (all emphasis in original). Petitioner did not
present any security threat, and in fact, he was sitting
down. Petitioner screamed loudly in pain, as widely
reported in media reports covering the trial. See, e.g.,
Jeff Wright, Capital Murder Suspect’s Shock Belt
Administered, Judge Terminates Self-representation,

10
KLTV (Sept. 15, 2015), http://www.kltv.com/story/
30036181/judge-administers-calverts-shock-belt-termin
ates-self-representation.
The lead security officer later testified at the
sentencing phase of the trial that Petitioner was not
making a move toward the District Attorney, the court,
or any court personnel; he simply “was being
disrespectful” and “wasn’t standing up when he was
supposed to and wasn’t sitting down when he was
supposed to.” RR-163:27-28. Although the jury had just
been excused, the trial court acknowledged on the
record that “[t]his Court, of course, cannot say how far
up the hall or—how far up the hall the jury went. . . .”
RR-157:24. Standby counsel Haas, who was present in
the courtroom, later argued: “God knows, if the jury,
which I highly suspect, did hear the screams that Mr.
Calvert let out after he was zapped.” RR-157:16-17.
After the electric shock incident, but with the bulk of
the guilt phase already completed, the trial court finally
terminated Petitioner’s pro se status and reinstalled
Haas and Cassel as counsel. There were no incidents
with Petitioner through the remainder of the trial.
D. Evidence Regarding Future Dangerousness.
In Texas, for a defendant to be sentenced to death,
the jury must find that there is a probability the
defendant would commit criminal acts of violence
constituting a continuing threat to society. Tex. Code
Crim. Proc., art. 37.071, § 2(b)(1).
The “future
dangerousness” special issue asks “whether a defendant
would be a continuing threat ‘whether in or out of prison’
without regard to how long the defendant would actually

11
spend in prison if sentenced to life.” Martinez v. State,
327 S.W.3d 727, 735 (Tex. Crim. App. 2010) (citation
omitted).
At the sentencing phase of the trial, the State called
as a witness David Logan, a decorated military veteran.
While working at a Texas correctional facility, Logan
was stabbed in the eye with a pencil by an inmate,
leaving Logan blind in that eye. RR-164:8-61. Logan
was paid to testify. RR-164:9. The incident had nothing
to do with Petitioner. The State also offered as an
exhibit a gruesome X-ray showing the pencil still
embedded four inches into Logan’s brain. RR-164:18.
Defense counsel objected “to this entire testimony,”
RR-164:19-20, on the grounds that (1) the evidence was
irrelevant, (2) any relevance was outweighed by its
prejudicial effect, and (3) the evidence “is violative of the
Eighth Amendment requirement, individualized
sentencing.” RR-164:19-20. The State asserted the
evidence was relevant to show “an inmate’s opportunity
for violence within the penitentiary,” RR-164:20, and
that “[b]ecause of what happened to [Logan],
[Petitioner] should get the death penalty.” RR-164:19.
The trial court overruled the objections, allowed Logan
to testify, and admitted the exhibit. RR-164:20-22.
The State argued the Logan testimony extensively
in its closing argument. The State urged: “Would
[Petitioner] probably commit criminal acts of violence
that would be a threat to society? Do you think they can
be controlled in the pen, these inmates? Then you tell
me why David Logan got a pencil stabbed into his brain.”
RR-171:127-28. See also RR-171:37 (“Do you know how

12
scary that is in the penitentiary? Do you remember
David Logan?”); RR-171:132 (“Remember the testimony
from David Logan, who said it might be 20 minutes until
somebody comes. You think that’s not dangerous?”).
There was extensive evidence that Petitioner
himself had no record of assault or other violent
incidents while incarcerated. The State’s witnesses
repeatedly acknowledged that Petitioner was never
physically assaultive. RR-162:114 (“he never physically
assaulted anybody”); RR-163:18 (“[n]o incidents
whatsoever of Mr. Calvert ever assaulting an inmate or
assaulting a guard”); RR-163:114 (did not know
Petitioner to be violent to anybody at the jail); RR163:160; RR-164:146 (witness not aware of Petitioner
ever punching, hitting, kicking a guard, or anything like
that, or inciting others).
Nevertheless, the jury
answered the “future dangerousness” special
interrogatory in the affirmative and sentenced
Petitioner to death, notwithstanding that he could be
held in prison without parole.
E. Direct Appeal Rulings of the Texas Court of
Criminal Appeals.
As pertinent here, the TCCA ruled as follows on the
three questions presented:
1. The TCCA ruled that a mentally ill defendant can
proceed pro se in a death penalty case so long as he is
legally competent to waive counsel; there is no obligation
for the trial court to consider anything more. Pet. App.
45a. The court ruled, without extended discussion:
“[T]he issue is not whether Appellant was competent to
represent himself. Instead, the issue is whether he was

13
competent to choose to represent himself.”
(emphasis in original).

Id.

2. With regard to the Logan testimony, the TCCA
held there was no violation of the Eighth Amendment (it
found an evidentiary violation, which it deemed
harmless). Id. at 153a. Significantly, the TCCA
acknowledged that “there was no evidence that
[Appellant] had attempted to attack or physically injure
anyone,” and that “the State’s evidence, focusing on a
horrific injury inflicted by an inmate who had no
connection to Appellant, was likely to impress the jury
in some irrational, yet indelible way.” Id. at 151a. But
the court dismissed Petitioner’s Eighth Amendment
argument on the ground that “[t]he individualized
sentencing requirement [of the Eighth Amendment] is
satisfied when the jury is able to consider and give full
effect to a defendant’s mitigating evidence.” Id. at 152a.
3. With regard to the electric shock incident, the
TCCA found that activation of “[Appellant’s] shock
cuff”—a 50,000-volt electric shock lasting 8 seconds—
during trial “as a means to enforce decorum” “violated
due process.” Id. at 16a, 21a n.19. The TCCA, however,
rejected Petitioner’s argument that the error
constituted “structural error.” Id. at 16a-17a. The
TCCA then found the error harmless and denied relief.
Id. at 22a.

14
REASONS FOR GRANTING THE PETITION
I.

The Court Should Grant Review To Determine
Whether A Defendant Who Is Mentally Ill, And
Whose Illness Renders Him Not Competent To
Conduct Trial Proceedings, May Be Tried For A
Capital Offense Without A Lawyer.

Petitioner is mentally ill and was unable, because of
his illness, to conduct trial proceedings in a complex
capital case. Yet for most of his trial he had no lawyer,
because he was found legally competent to waive
counsel. As a result, instead of the trial properly
focusing on whether Petitioner was guilty of a capital
offense, the trial largely was a continual demonstration
of Petitioner’s mental illness and bizarre behavior before
the jury. The TCCA nonetheless held, in conflict with
rulings in other States, that the trial court was required
only to determine “whether [Petitioner] was competent
to choose to represent himself.” Pet. App. 45a (emphasis
omitted). This Court should grant review.
A. The Sixth And Fourteenth Amendments
Preclude Waiver Of Counsel In A Death
Penalty Case When The Defendant Is
Mentally Ill And Not Competent To Conduct
Trial Proceedings.
The Sixth Amendment provides, “[i]n all criminal
prosecutions, the accused shall enjoy the right . . . to
have the Assistance of Counsel for his defence.” This
Court has repeatedly emphasized this right, holding that
“in our adversary system of criminal justice, any person
haled into court, who is too poor to hire a lawyer, cannot
be assured a fair trial unless counsel is provided for him.

15
This seems to us to be an obvious truth.” Gideon v.
Wainwright, 372 U.S. 335, 344 (1963). And further
stating:
Even the intelligent and educated
layman has small and sometimes no skill
in the science of law. If charged with
crime, he is incapable, generally, of
determining for himself whether the
indictment is good or bad.
He is
unfamiliar with the rules of evidence.
Left without the aid of counsel he may be
put on trial without a proper charge, and
convicted upon incompetent evidence, or
evidence irrelevant to the issue or
otherwise inadmissible. He lacks both
the skill and knowledge adequately to
prepare his defense, even though he have
a perfect one. Without it, though he be
not guilty, he faces the danger of
conviction because he does not know how
to establish his innocence.
Powell v. Alabama, 287 U.S. 45, 69 (1932). Despite this
repeated emphasis on the essential nature of
representation in criminal cases, in Faretta v.
California, 422 U.S. 806 (1975), this Court held that a
criminal defendant has a constitutional right to waive
the assistance of counsel and proceed pro se. The case
was decided over vigorous dissents. See id. at 839
(Burger, C.J., dissenting) (“[T]he integrity of and public
confidence in the system are undermined when an easy
conviction is obtained due to the defendant’s ill-advised
decision to waive counsel.”); id. at 849 (Blackmun, J.,

16
dissenting) (“I do not believe that any amount of pro se
pleading can cure the injury to society of an unjust
result.”). The doctrine has evoked strong criticism, and
it imposes significant burdens on trial courts.
Even after Faretta, the right to proceed pro se has
never been absolute. A criminal defendant has no
Faretta right to represent himself in a case granted for
review by this Court, or on appeal generally. In
Martinez v. Court of Appeal of California, 528 U.S. 152
(2000), this Court held that a criminal defendant does not
have a constitutional right to waive the assistance of
counsel on appeal and to proceed pro se. The Court
noted that “[n]o one, including Martinez and the Faretta
majority, attempts to argue that as a rule pro se
representation is wise, desirable, or efficient.”
Martinez, 528 U.S. at 161. Reviewing Faretta and its
progeny, the Court concluded that “[e]ven at the trial
level . . . the government’s interest in ensuring the
integrity and efficiency of the trial at times outweighs
the defendant’s interest in acting as his own lawyer.” Id.
at 162. The Court held that “the overriding state
interest in the fair and efficient administration of
justice” outweighs a criminal defendant’s interest in selfrepresentation on appeal. Id. at 163.
An additional, critical limitation on Faretta was
recognized in Edwards. There, the Court held that “the
Constitution permits States to insist upon
representation by counsel for those competent enough
to stand trial under Dusky [v. United States, 362 U.S.
402 (1960) (per curiam)] but who still suffer from severe
mental illness to the point where they are not competent
to conduct trial proceedings by themselves.” 554 U.S. at

17
178. And the Court underscored that competence to
stand trial is the same standard as competence to plead
guilty or to waive the right to counsel. Id. at 172. Thus,
Edwards makes clear that even a defendant competent
to waive counsel may be restricted from doing so.
To be sure, Edwards itself did not hold that the
Constitution precludes waiver of counsel in a death
penalty case when the defendant is mentally ill and not
competent to represent himself at trial; instead, it held
only that a state may deny a request for selfrepresentation when the defendant, although competent
to choose, is mentally ill and not competent to conduct
trial proceedings by himself. 554 U.S. at 178. But the
same considerations that led the Court to hold that a
state may curtail a defendant’s right to represent
himself when he is mentally ill and not competent to
proceed pro se likewise make clear that a state must do
so, especially in the context of a capital trial.
First, the Court explained that “insofar as a
defendant’s lack of capacity threatens an improper
conviction or sentence, self-representation in that
exceptional context undercuts the most basic of the
Constitution’s criminal law objectives, providing a fair
trial.” Id. at 176-77.
Second, the Court noted that “proceedings must not
only be fair, they must ‘appear fair to all who observe
them.’” Id. at 177 (quoting Wheat v. United States, 486
U.S. 153, 160 (1988)). But that basic requirement is
simply not met when the defendant “suffer[s] from
severe mental illness to the point where they are not

18
competent to conduct trial proceedings by themselves.”
Edwards, 554 U.S. at 178.
Third, the Court observed that the application of the
baseline “mental competence standard” set forth in
Dusky can “help in part to avoid this result.” Id. at 177.
The Court made clear though that one might be
competent to stand trial “and yet lack the capacity to
stand trial without benefit of counsel.” Id. at 173
(quoting Massey v. Moore, 348 U.S. 105, 108 (1954)).
Critically, the Court stated that, “given the different
capacities needed to proceed to trial without counsel,
there is little reason to believe that Dusky alone is
sufficient.” Id. at 177.
The clear import of these statements is that the
Constitution does not permit the imposition of the death
penalty when the defendant’s lawyer is not competent
because of mental illness to conduct trial proceedings,
even if that lawyer is the defendant himself, and even if
the defendant is otherwise competent to stand trial and
to make decisions such as to waive counsel or plead
guilty. It cannot be that a trial court simply has
“discretion” to disregard the constitutional right
underlying Faretta. Rather, the point of Edwards (and
Martinez) is that there is a right even more fundamental
than the Faretta right that cannot be waived, and that
is “the most basic of the Constitution’s criminal law
objectives, providing a fair trial.” Edwards, 554 U.S. at
176-77; see also Martinez, 528 U.S. at 163 (“the
overriding state interest in the fair and efficient
administration of justice”).

19
In the instant case, there was no consideration
whatsoever of that “most basic” of constitutional
imperatives: whether waiver of counsel by a mentally
ill, but competent, defendant would impair “a fair trial”
or “the fair and efficient administration of justice.”
Martinez, 528 U.S. at 163. The trial court not only failed
to consider the issue, but treated Faretta as foreclosing
it, both at the time Petitioner was allowed to waive
counsel, see, e.g., RR-13:23, 30-32, 47-48; RR-14:7, 44-45,
57, 64-65, 71, and even thereafter, as it became clear that
Petitioner could not represent himself at a capital trial
without impairing the fairness and integrity of the
proceedings. Only when Petitioner “acted out”—by
failing to stand when he was supposed to—did the trial
court rule that Petitioner had lost his Faretta right to
proceed pro se. And on appeal, the TCCA entirely
endorsed this approach, ruling that “the issue is not
whether Appellant was competent to represent himself.
Instead, the issue is whether he was competent to choose
to represent himself.” Pet App. 45a (emphasis in
original). Yet Edwards makes clear that it is relevant
whether a defendant in a death penalty case who is
mentally ill is “competent to conduct trial proceedings
by themselves.” 554 U.S. at 178.
This Court should grant review of the fundamental
issue not expressly addressed in Edwards: whether a
trial court not only may, but must, consider in a death
penalty case whether a mentally-ill defendant is
competent to conduct trial proceedings, before allowing
the defendant to waive counsel and proceed alone at
trial.

20
B. This Court Should Grant Review To Resolve
A Conflict Among The States Regarding The
Meaning And Implication Of Edwards.
Unsurprisingly, this Court’s decision in Edwards has
left the lower courts in square conflict and hopeless
disarray.
This Court held in Edwards that the
Constitution permits States “to insist upon
representation by counsel” for those who are “not
competent to conduct trial proceedings by themselves.”
554 U.S. at 178. Some courts have correctly understood
the underlying rationales in Edwards and,
notwithstanding the Court’s permissive language, now
require a separate determination concerning the
defendant’s competence to conduct trial proceedings
prior to permitting self-representation. Courts in other
states, like Texas, have held that competency to waive
counsel is the only determination that must be made
before allowing a defendant to proceed pro se. The
Court should grant review to resolve this conflict.
States that require a separate determination of
competence to conduct trial proceedings include Alaska,
Connecticut, Florida, Iowa, Michigan, Rhode Island,
Wisconsin, and the District of Columbia. See Shorthill v.
State, 354 P.3d 1093, 1109 (Alaska Ct. App. 2015); State
v. Connor, 973 A.2d 627, 633 (Conn. 2009); Williams v.
United States, 137 A.3d 154, 160 (D.C. 2016); In re
Amendments to Fla. Rule of Crim. Pro. 3.111, 17 So. 3d
272, 275 (Fla. 2009); State v. Jason, 779 N.W.2d 66, 77-78
(Iowa Ct. App. 2009); People v. Brooks, 809 N.W.2d 644,
654-55 (Mich. Ct. App. 2011), vacated on other grounds,
807 N.W.2d 303 (Mich. 2012); State v. Cruz, 109 A.3d 381,

21
391 & n.5 (R.I. 2015); State v. Klessig, 564 N.W.2d 716,
724 (Wis. 1997).
For example, in State v. Connor, the Connecticut
Supreme Court ruled that “when a trial court is
presented with a mentally ill or mentally incapacitated
defendant who, having been found competent to stand
trial, elects to represent himself, the trial court also must
ascertain whether the defendant is, in fact, competent to
conduct the trial proceedings without the assistance of
counsel. 973 A.2d at 655. In so doing, the court
“acknowledge[d] that the right of self-representation
exists primarily ‘to affirm the dignity and autonomy of
the accused.’” Id. (quoting State v. Brown, 772 A.2d
1107, 1116 (Conn. 2001), cert. denied, 534 U.S. 1068
(2001)). It noted, however, that the exercise of that right
comes with a significant cost “when a mentally ill or
incapacitated defendant is permitted to represent
himself at trial despite his or her lack of competence to
do so, the reliability of the adversarial process, and thus
the fairness of the trial itself, inevitably is cast in doubt.”
Id. The court thus concluded that the defendant’s
interest in self-representation “is outweighed by the
interest of the state, the defendant and the public in a
fair trial when, due to mental illness, the defendant is
incompetent to conduct trial proceedings without the
assistance of counsel.” Id.
In State v. Jason, the Iowa Court of Appeal likewise
noted that the defendant’s “competency to stand trial
does not equate to competency to represent himself at
trial in light of [mental illness],” and it remanded the
case to the trial court “for a hearing which may include
the presentation of evidence, to determine if [the

22
defendant] was competent to represent himself under
the standards established in Edwards.” 779 N.W.2d at
77–78.
Similarly, in response to Edwards, the Florida
Supreme Court sua sponte adopted amendments to the
Florida Rules of Criminal Procedure that prohibit a trial
court from allowing a defendant to waive the right to
counsel unless, among other things, “the court makes a
determination of record that the defendant . . . does not
suffer from severe mental illness to the point where the
defendant is not competent to conduct trial proceedings
by himself or herself.” In re Amendments to Fla. Rule
of Criminal Procedure 3.111, 17 So. 3d at 274.
Contrary to these and the other States cited above,
Edwards is applied differently in States such as
Maryland, Oklahoma, South Carolina, Texas and Utah,
and criminal defendants are treated differently in those
States. Just as the TCCA ruled in the instant case, Pet.
App. at 45a, these States maintain that in considering a
defendant’s request to proceed pro se, a trial court need
only consider whether the defendant is competent to
waive counsel under the same standard as competence
to stand trial under Dusky. See, e.g., State v. Barnes, 753
S.E.2d 545, 550 (S.C. 2014) (ruling that Edwards does
not require consideration of competence to conduct trial
proceedings and reversing trial court decision to deny
defendant’s request to proceed pro se on account of his
mental illness and inability to conduct trial proceedings);
State v. Maestas, 299 P.3d 892, 962 n.330 (Utah 2012)
(“Edwards allows, but does not require, states to have
heightened standards for determining competency to
waive the right to counsel. The standard that we impose

23
in Utah is that the defendant must (1) be competent and
(2) intelligently and knowingly waive the right to
assistance of counsel.” (internal quotation marks
omitted)); Stewart-Bey v. State, 96 A.3d 825, 839 (Md. Ct.
Spec. App. 2014); Mathis v. State, 271 P.3d 67, 74 n.21
(Okla. Crim. App. 2012).
In essence, “the most basic of the Constitution’s
criminal law objectives, providing a fair trial,” Edwards,
554 U.S. at 176-77, and “the overriding state interest in
the fair and efficient administration of justice,”
Martinez, 528 U.S. at 163, apply differently in Texas and
these other States. In Texas and other States (but not
in Florida, Connecticut, and the other States cited
above), a defendant competent to waive counsel may do
so, even if that defendant, because of mental illness, is
not “competent to conduct trial proceedings by
themselves.” Edwards, 554 U.S. at 178. This divergence
is particularly prejudicial in cases, like the instant case,
in which the State is seeking the ultimate punishment of
death. This Court should grant review to resolve the
conflict among the States concerning this fundamental
issue of the Sixth Amendment right to counsel.
II. The Court Should Grant Review To Determine
Whether The Eighth Amendment Allows A State
To Seek A Sentence Of Death Based On Horrific
Actions Of Someone Other Than The Defendant,
In A Wholly Unrelated Incident.
There is a second, stark issue that warrants review
in this case: as set forth above, the State introduced at
Petitioner’s trial, over objection, evidence of a graphic
incident in which another inmate, with no connection to

24
Petitioner whatsoever, stabbed a prison guard named
Logan in the eye with a pencil, leaving the pencil
embedded in Logan’s brain. The State expressly argued
that the evidence was relevant to show “an inmate’s
opportunity for violence within the penitentiary,” RR164:20, and that “[b]ecause of what happened to [Logan],
[Petitioner] should get the death penalty.” RR-164:19.
In addition, as quoted above, supra at 11-12, the State
repeatedly emphasized the evidence in closing
argument. The trial court found the evidence to be
proper and overruled all objections. The TCCA found
evidentiary but harmless error,
even while
acknowledging that “there was no evidence that
Appellant had attempted to attack or physically injure
anyone,” and that “the State’s evidence, focusing on a
horrific injury inflicted by an inmate who had no
connection to Appellant, was likely to impress the jury
in some irrational, yet indelible way.” Pet. App. at 151a.
The TCCA found no violation of the Eighth Amendment,
ruling that “[t]he individualized sentencing requirement
[of the Eighth Amendment] is satisfied when the jury is
able to consider and give full effect to a defendant’s
mitigating evidence.” Pet. App. at 152a. The court
accordingly did not apply a constitutional harmless error
standard.
The TCCA’s narrow Eighth Amendment ruling
directly conflicts with decisions of this Court and other
state courts, and this Court should grant review. This
Court has held that “a state capital sentencing system
must: (1) rationally narrow the class of death-eligible
defendants; and (2) permit a jury to render a reasoned,
individualized sentencing determination based on a

25
death-eligible
defendant’s
record,
personal
characteristics, and the circumstances of his crime.”
Kansas v. Marsh, 548 U.S. 163, 173-74 (2006); see also
Woodson v. North Carolina, 428 U.S. 280, 304 (1976)
(“[I]n capital cases the fundamental respect for
humanity underlying the Eighth Amendment requires
consideration of the character and record of the
individual offender and the circumstances of the
particular offense as a constitutionally indispensable
part of the process inflicting the penalty of death.”);
Tuilaepa v. California, 512 U.S. 967, 972-73 (1994) (in
determining whether a defendant eligible for the death
penalty should in fact receive that sentence, “[w]hat is
important . . . is an individualized determination on the
basis of the character of the individual and the
circumstances of the crime” (internal quotation marks
omitted)).
In finding that admission of the Logan evidence did
not violate the Eighth Amendment, the TCCA ignored
the second, essential requirement of a state capital
sentencing system: ensuring that the jury is able to
render an individualized sentencing determination.
This Court’s contemporary death penalty
jurisprudence rests entirely on the importance of
individualized inquiry focused on the defendant and his
conduct. See McCleskey v. Kemp, 481 U.S. 279, 302
(1987) (citing approvingly procedures that “require a
particularized inquiry into the circumstances of the
offense together with the character and propensities of
the offender”); Gregg v. Georgia, 428 U.S. 153, 198 (1976)
(citing approvingly procedures that “require as a
prerequisite to the imposition of the death penalty,

26
specific jury findings as to the circumstances of the
crime or the character of the defendant” (internal
quotation marks omitted)); Jurek v. Texas, 428 U.S. 262,
273-74 (1976) (proper capital-sentencing procedures
must focus the jury’s consideration on “the
particularized circumstances of the individual offense
and the individual offender before it can impose a
sentence of death”).
This Eighth Amendment requirement to focus on the
defendant is not satisfied merely by allowing the
defendant to present mitigating evidence. In Marsh,
this Court emphasized that individualized sentencing
requires both (1) the opportunity to present all
mitigation evidence, and (2) consideration of the
defendant’s record and the specific circumstances of his
crime. 548 U.S. at 174. This second requirement was
entirely absent in the TCCA’s analysis of the admission
of the Logan evidence. If the paid Logan testimony
were relevant to the punishment Petitioner should
receive—and it clearly was not—the testimony would be
equally “relevant” in every capital case. Use of this sort
of testimony, without any link to the defendant’s
particular crimes and circumstances, is wholly at odds
with the individualized sentencing determination
required since Gregg. The Court should grant review of
this important issue, which is central to the foundation
upon which proper administration of the death penalty
lies.

27
III. The Court Should Grant Review To Determine
Whether It Is Intolerable, And Structural Error,
To Electric-Shock A Defendant For Failing To
Remember To Stand When Addressing The
Court.
The administration of a 50,000-volt electric shock on
Petitioner presents the third issue for review. Although
Petitioner largely followed the court’s rule that he stand
when addressing the court, but sit when examining
witnesses or not addressing the court, Petitioner
occasionally did not stand immediately, or failed to sit
down fast enough. The court threatened to use
Petitioner’s electric shock restraint to enforce its rule.
As the jury was leaving the courtroom, the court
directed Petitioner to “[b]e seated,” then asked
Petitioner a question, and Petitioner responded while
seated. RR-155:221. In response, the courtroom
deputies activated a 50,000-volt electric shock device
lasting eight seconds, and Petitioner screamed in pain.1
As the TCCA expressly stated: “Nothing in the record
suggests the trial judge did not condone the shock as a
means to enforce the stand up/sit down rules. Quite the
opposite.” Pet. App. 21a n.19.
The TCCA found constitutional error, but not
“harmful” error. Thus, in Texas, if a defendant cannot
1

See RR-164:181. Cases have described that such a shock device
“delivers a 50,000-volt, three to four milliampere shock lasting eight
seconds” and that “[o]nce the belt is activated, the electro-shock
cannot be shortened.” Hawkins v. Comparet-Cassani, 251 F.3d
1230, 1234 (9th Cir. 2001). The device “causes incapacitation in the
first few seconds and severe pain during the entire period.” Id.

28
show that the outcome of his case was affected, there is
no consequence if a trial judge enforces rules of
courtroom decorum on a pro se criminal defendant
through use of an electric shock device administering
50,000 volts of electric current.
The proper
administration of justice in America demands more,
however. This Court should grant review or summarily
reverse.
What occurred in this case stands squarely and
comfortably within the doctrine of “structural” error as
defined by this Court, requiring reversal without regard
to a “harmless error” analysis.
In Weaver v.
Massachusetts, 137 S. Ct. 1899 (2017), this Court
analyzed the rationales underlying the structural error
concept. The Court explained that “[t]he purpose of the
structural error doctrine is to ensure insistence on
certain basic, constitutional guarantees that should
define the framework of any criminal trial.” Id. at 1907.
And it underscored that “one point is critical: An error
can count as structural even if the error does not lead to
fundamental unfairness in every case.” Id. at 1908.
Certain errors are deemed structural even if “the right
at issue is not designed to protect the defendant from
erroneous conviction but instead protects some other
interest.” Id.
The Court identified three broad rationales used to
determine whether errors are structural. In particular,
the Court explained that “certain errors are deemed
structural and require reversal because they cause
fundamental unfairness, either to the defendant in the
specific case or by pervasive undermining of the
systemic requirements of a fair and open judicial

29
process.” Id. at 1911. This same point has been
emphasized in other cases. Errors that undermine a fair
judicial process and the public perception of the
administration of justice are structural errors. See
Sullivan v. Louisiana, 508 U.S. 275, 281-82 (1993)
(holding that improper jury instruction regarding
reasonable doubt “unquestionably qualifies as
‘structural error’” because it undermines a “‘basic
protectio[n]’ whose precise effects are unmeasurable,
but without which a criminal trial cannot reliably serve
its function”). In Williams v. Pennsylvania, 136 S. Ct.
1899 (2016), this Court found a state supreme court
justice’s unconstitutional failure to recuse to be
structural error, even though his vote was not
dispositive. The Court emphasized that even “the
appearance of bias demeans the reputation and integrity
not just of one jurist, but of the larger institution of
which he or she is a part.” Id. at 1909; see also Caperton
v. A.T. Massey Coal Co., 556 U.S. 868, 889 (2009).2
There is perhaps no stronger case for an error that
undermines respect for the administration of justice, and
both the appearance and the reality of impartial justice,
than what occurred in this case. The court used the
electric shock device during public proceedings, and its

2

In Caperton, this Court explained: “The power and the prerogative
of a court to perform [its] function rest, in the end, upon the respect
accorded to its judgments. The citizen’s respect for judgments
depends in turn upon the issuing court’s absolute probity. Judicial
integrity is, in consequence, a state interest of the highest order.”
556 U.S. at 889 (quoting Republican Party of Minn. v. White, 536
U.S. 765, 793 (2002) (Kennedy, J., concurring)).

30
use was immediately reported in the press.3 Although
the TCCA necessarily found a constitutional violation,
the outcome and message of this case cannot be that such
judicial conduct is tolerated if it does not clearly affect
the outcome of the case. Rather, the rule must be that
such willful conduct by a judge is never tolerated
because it is fundamentally incompatible with the proper
administration of justice. Weaver, 137 S. Ct. at 1907. It
is imperative to insist that any criminal trial not include
the use of electric shock devices to enforce rules of
decorum.4
Just as trial by a biased judge “will always invalidate
[a] conviction,” Sullivan, 508 U.S. at 279; Caperton, 556
U.S. at 876, trial by a judge who deems it permissible
and appropriate to discipline a defendant for violating a
non-security based, courtroom rule of decorum with a
50,000-volt electric shock should be recognized as a
comparable structural error. The trial court’s conduct in
this case “shocks the conscience,” and errors of that kind
are not subject to harmless error analysis. Rochin v.
California, 342 U.S. 165, 172 (1952); see id. at 174-75
3

See, e.g., Jeff Wright, Capital Murder Suspect’s Shock Belt
Administered, Judge Terminates Self-representation, KLTV (Sept.
15, 2015), http://www.kltv.com/story/30036181/judge-administerscalverts-shock-belt-terminates-self-representation.
4

Another rationale in Weaver is that “an error has been deemed
structural if the effects of the error are simply too hard to measure.”
137 S. Ct. at 1908. That too applies here. Standby counsel Haas,
who was present in the courtroom when the incident occurred, later
argued to the court: “God knows, if the jury, which I highly suspect,
did hear the screams that Mr. Calvert let out after he was zapped.”
RR-157:16-17.

31
(reversing conviction based on manner illegal drugs
were extracted from the defendant’s body, without
questioning reliability of drug analysis); United States v.
Booker, 728 F.3d 535 (6th Cir. 2013).
The idea that the conduct here is appropriately
characterized as structural error is particularly
powerful because DOJ has established that such conduct
is criminal. DOJ recently prosecuted and a federal court
convicted a state court judge in Maryland for using a
shock device against a defendant under circumstances
similar to those in this case.5 As DOJ pronounced in a
statement: “Disruptive defendants may be excluded
from the courtroom and prosecuted for obstruction of
justice and contempt of court, but force may not be used
in the absence of danger.”6
The circumstances of this case call for a clear
pronouncement: it is incompatible with the fair
administration of justice for a pro se criminal defendant
to be subjected to an electric shock device simply
because he forgot to stand when addressing the court,
and remained seated posing no security threat. To the
extent any discipline, reproach, or sanction was
warranted, it certainly was not permissible for the court
to choose to administer a 50,000-volt electric shock, and
such conduct in a public criminal trial can never be
5

See Press Release, U.S. Att’y Office for the Dist. of Md., Former
Charles County Circuit Court Judge Pleads Guilty to Civil Rights
Violation (Feb. 1, 2016), https://www.justice.gov/usao-md/pr/
former-charles-county-circuit-court-judge-pleads-guilty-civil-right
s-violation.
6

Id.

32
dismissed as “harmless.” It undermines the integrity
and respect of the courts, whether it occurs in Texas or
elsewhere.
This Court should grant review or
summarily reverse.
CONCLUSION
The petition for a writ of certiorari should be granted
or the decision below should be summarily reversed.
Respectfully submitted,
DOUGLAS H. PARKS
321 Calm Water Lane
Holly Lake Ranch, TX 75765
(214) 799-3772
BINA M. PELTZ
JENNER & BLOCK LLP
919 Third Avenue
New York, NY 10022
(212) 891-1600

DAVID W. DEBRUIN
Counsel of Record
JULIAN P. SPEARCHIEF-MORRIS
ALLISON M. TJEMSLAND
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001
(202) 639-6015
ddebruin@jenner.com

APPENDIX

1a
Appendix A
Court of Criminal Appeals of Texas.
James CALVERT, Appellant
v.
The STATE of Texas
NO. AP-77,063
|
Delivered: October 9, 2019
ON DIRECT APPEAL FROM CAUSE
NO. 241-1467-12, IN THE 241ST DISTRICT COURT,
SMITH COUNTY
Newell, J., delivered the unanimous opinion of the
Court.
OPINION
In October 2015, a jury convicted Appellant of
murder in the course of committing or attempting to
commit burglary or kidnapping.1 Based upon the jury’s
answers to the special issues set forth in Texas Code of
Criminal Procedure Article 37.071, Sections 2(b) and
2(e), the trial judge sentenced Appellant to death.2
Direct appeal to this Court is automatic.3 After
reviewing Appellant’s twenty-nine points of error, we
1

Tex. Penal Code § 19.03(a)(2).

2

Tex. Code Crim. Proc. art. 37.071, § 2(g). Unless otherwise indicated, all references to Articles refer to the Code of Criminal Procedure.
3

Tex. Code Crim. Proc. art. 37.071, § 2(h).

2a
find them to be without merit. Consequently, we affirm
the trial court’s judgment and sentence of death.
STATEMENT OF FACTS
While visiting Croatia, Appellant met the victim,
Jelena. She accompanied him on his return to Tyler, and
they married in 2004. Jelena became increasingly fearful
of Appellant over the course of their marriage.
Appellant and Jelena’s first child, E.C., was born in
2006. Their second child, L.C., was born in 2008.
Appellant and Jelena separated in 2009 and divorced in
2010. Jelena obtained a restraining order that barred
Appellant from going to her new home. According to
their divorce decree, Jelena had primary possession of
the children. She could not move with the children more
than 125 miles from the Smith County Courthouse.
Appellant had visitation rights on alternate weekends
and Thursdays. The order specified that Jelena and
Appellant would exchange the children at Jason’s Deli.
In January 2012, Jelena married Arvind Sriraman.
Jelena wanted to move with the children to Houston,
where Sriraman had taken an engineering job, but
Appellant refused to agree to modify the terms of the
child custody order. He was also uncooperative during
mediation. Eventually, Jelena and Sriraman took the
matter to trial. On October 19, 2012, a jury determined
that the custody order should be modified so that Jelena
and the children could move up to 500 miles away from
the Smith County Courthouse.
About twelve days later, on October 31st, Jelena was
packing to move to Houston. L.C., age four, was home

3a
with her. E.C., age seven, was at school. Although
Appellant did not have visitation that day, Jelena had
agreed that Appellant could take the children to dinner
and then trick-or-treating.
Shortly before the scheduled visit, Appellant told
Jelena that they needed to exchange the children at her
house instead of the deli. Jelena did not know it but
Appellant had been avoiding service of a motion by
Deidre Adams, his first wife. Adams and Appellant had
a child together, J.C., and Adams had filed a motion to
enforce court-ordered child support. Appellant
suspected that Adams was planning to serve him with
that motion at the deli. Jelena would not agree to
exchange the children at her house. Appellant angrily
canceled the visit. Jelena was upset about this incident,
which she relayed to multiple friends.
Less than three hours later, Appellant broke into
Jelena’s house and, in front of L.C., shot her multiple
times. Appellant took L.C. and fled to Louisiana. That
evening, following a high-speed chase in West Monroe,
Louisiana, police officers arrested Appellant and
discovered L.C. physically unharmed in the back seat of
Appellant’s car.
Appellant was indicted for capital murder. Counsel
(Jeffery Haas and Jason Cassel) were appointed to
represent him. However, in February 2014, Appellant
requested and was granted the right to represent
himself. He represented himself through approximately
fifty pretrial hearings, voir dire, and roughly three
weeks of the jury trial. Appellant’s attorneys, in standby
status, were present and available to assist him. On
September 15, 2015, during the guilt phase, the trial

4a
court revoked Appellant’s pro se status and reinstated
counsel to represent him.
At trial, Shonda Emmert testified that she was in the
parking lot across the street from Jelena’s house around
noon on the day of the offense. She heard, “[B]ang, bang,
bang,” which she initially thought was a nail gun “going
off.” About a minute later she saw a man walking out of
the house, carrying a small child wrapped in a blue
blanket. He went to a car parked down the street, put
the child in the back seat of the car, and drove away.
Emmert drove to the house to see if things were
okay. Another woman, Robin Dickerson, pulled up at the
same time, ran into the carport, and screamed at
Emmert to call 911. Emmert walked toward the house
to get a better look at the house number. She saw a body
in the carport; the door between the kitchen and carport
was “splintered” and looked like it had been kicked in.
When the prosecutor showed Emmert photographs of
L.C., Appellant, and Appellant’s car, she stated that the
photos were consistent with the appearance of the child,
the man, and the car she saw on the day of the offense.
Dickerson testified that she worked at the same
church as Jelena. On the day of the offense, around noon,
she was in a parking lot near Jelena’s house when she
heard four or five shots. She looked toward Jelena’s
house and saw a man carrying a child from the carport
to a car parked on the street. The man got into the car
and left. Dickerson believed that the child she saw was
L.C. and the man, Appellant. Dickerson drove up,
walked into the carport and saw Jelena lying in the
doorway, dead. When Emmert drove up, Dickerson told
her, “Call 911. He shot her.”

5a
Tyler Police Detective Craig Shine, the lead
detective in this case, responded to the 911 call. He
testified that it was apparent from the number and
locations of Jelena’s gunshot wounds that the shooter
knew her and wanted her dead. Based on his
observations and interviews at the crime scene, Shine
obtained a capital murder warrant for Appellant. The
Tyler Police Department broadcasted a BOLO (“be on
the lookout”) Alert and an Amber Alert.
Texas Ranger Brent Davis testified that he went to
the crime scene and saw numerous cartridge casings on
the kitchen floor. All of the casings were from a .40caliber semi-automatic pistol and were marked “.40 S &
W.” From the location of the casings, it appeared that
the rounds were fired at Jelena from inside the house.
Davis observed bullet strikes on the door, the door
frame, the car, and the concrete floor of the carport. It
appeared that the door between the kitchen and the
carport had been kicked in; the strike plate and pieces of
wood from the door frame were on the floor. The door
was standing open. Tyler police officers advised Davis
that L.C. was missing and that they believed he had been
kidnapped. It appeared to Davis that Jelena had been
trying to leave the house to escape from the shooter
when she was shot multiple times.
Dr. Elizabeth Ventura, a medical examiner at the
Southwestern Institute of Forensic Sciences, conducted
the autopsy. She testified that Jelena was intentionally
killed. Specifically, Jelena sustained six gunshot wounds,
five of which damaged vital organs in her head and torso.
The number, direction, and location of the gunshot
wounds indicated that Jelena was changing her position

6a
in relation to the gun when she was shot. The fact that
she had sustained several fatal shots while moving
around was evidence of an intentional killing in which
the shooter wanted her dead. Ventura said that it was
likely, but not certain, that the fatal shot to Jelena’s head
was the last shot.
Howard Ryan, a forensic investigation consultant
and crime scene reconstructionist, testified about the
bloodstain evidence at the crime scene. He noted that a
contact transfer stain on the carport door indicated that
Jelena was shot in the back while she was upright, and
then she slid down the door. After she was seated and
leaning against the door, she was shot through the
abdomen. Another shot through her arm and side caused
her to fall onto the door mat in the carport. Finally,
Jelena sustained a shot to the back of the head while her
head was face down and several inches off the carport
floor. A spent shell casing in the carport indicated that
the shooter was likely standing over her when he fired
that shot. Ryan averred that this pattern indicated that
the shooter was proficient, in control, and “not frantic”
while he was shooting.
Tim McLemee, an expert in forensic digital data and
media, discussed a data report showing the WiFi
connections that Appellant’s iPad had made on the day
of the offense, starting at 1:32 p.m. and ending at 9:46
p.m. These connections started in Tyler, Texas, and
ended near West Monroe in Ruston, Louisiana.
Appellant’s iPad had connected to WiFi networks in
several McDonald’s restaurants along the route. Most of

7a
the searches on the iPad were for news stories about the
instant offense and Amber Alerts.4
West Monroe Police Officer Raymond Spoon
testified that he had volunteered to “take a call” before
his shift started on the evening of the day of the offense.
As a result, he was not in the police station when officers
were briefed on the alerts from Tyler, Texas, and was
unaware of those alerts when he first encountered
Appellant.
Spoon was parked on the grassy median of the
highway, “working drug interdiction,” when Appellant’s
vehicle passed him at 11:05 p.m. Spoon began following
the vehicle after he saw “some indicators” that it might
be transporting drugs.5 Upon observing a traffic
violation, Spoon activated his lights and attempted to
stop the vehicle. Initially, Appellant pulled over and
stopped, but as Spoon exited his patrol car, Appellant
drove away. Appellant thereafter passed three parking
lot entrances where he could have pulled in and stopped
safely. He drove slowly and then stopped a second time.
After Spoon exited the patrol car and ordered Appellant
out of his vehicle, Appellant drove away again.
4

FBI Special Agent Mark Sedwick testified that the historical call
detail records from Appellant’s phone provided no cell tower information after 10:18 a.m., which meant that his phone was turned off,
out of the coverage area, or in airplane mode.
5

Spoon testified that the indicators included: the vehicle was traveling in the far right lane; the driver’s hands were at “10:00 and 2:00”
on the steering wheel; the driver looked straight ahead and never
looked toward Spoon; and the vehicle appeared to have a single occupant who was driving on the interstate highway a little after 11:00
p.m. on Halloween.

8a
Concerned that this pattern of stopping and starting was
consistent with “baiting” and ambushing a police officer,
Spoon called for assistance. Officer Justin Cummings,
Sergeant Matthew Downhour, and Corporal Marie
Knight testified that they responded to Spoon’s call for
assistance.
Initially, Appellant led a “slow-rolling chase,” but he
picked up speed as other patrol cars joined the pursuit.
He ran red lights and almost caused several collisions.
Appellant eventually drove into a dead-end street in a
residential area, made a U-turn, drove across a front
yard, and was finally forced to stop when his car was
blocked in by police vehicles. As officers were
approaching Appellant’s vehicle with their guns drawn,
Cummings heard Appellant say, “Just don’t shoot my
child.” Appellant would not open his car door. Officers
broke the window to reach him. Cummings removed a
gun from between Appellant’s legs and threw it away
from the car. Appellant fought with officers after they
pulled him from the car. During the struggle, Appellant
said, “You don’t know what I’ve done.”
Appellant resisted arrest and continued to be
uncooperative when officers placed him into a patrol car.
Downhour stated that Appellant was wearing a
concealed waistband designed to hold a gun and
magazines. It contained an empty magazine fitting the
Sig Sauer pistol that was on the back-seat floor.
Although there was a different license plate on
Appellant’s vehicle than that in the BOLO Alert and
Amber Alert, Knight identified Appellant and the child
as the subjects of those alerts.

9a
Detective Shine testified that after the West Monroe
Police Department notified him that they had arrested
Appellant, he drove from Tyler to West Monroe and
interviewed Appellant. During that interview,
Appellant identified himself as the driver and owner of
the impounded vehicle and admitted to having a Sig
Sauer pistol that he “always” kept in the glove
compartment and the weapon that officers had removed
from his lap. Appellant told Shine that if his son L.C. had
not been in the car with him, he “would have shot those
idiots”—meaning the West Monroe police officers—
when they pointed their guns at him.
In the audiovisual recording of Appellant’s
statement to police, Appellant acknowledged that he had
taken about $200 in cash from his mother before he left
her house on the morning of the offense. He clearly
described his activities shortly before Jelena’s murder,
including having breakfast at a Whataburger and
picking up a copy of Adams’s motion for enforcement of
child support at the courthouse. However, he stated that
he did not remember anything after that until he was
driving away from Tyler. Appellant suggested that he
might have been fixing a client’s computer during that
time, but he could not identify the client.6 He avoided
describing the murder or specifying where or how he
picked up L.C. But he admitted that he “must have”
taken L.C. from Jelena and that he “might” have had
Jelena’s phone in his car.

6

The record shows that, at the time of the offense, Appellant
worked as a freelance computer consultant.

10a
Appellant repeatedly stated that he did not
remember—or that he did not know—if he and Jelena
had agreed that he would have the children that day or
if Jelena had wanted him to go to her house to pick them
up. When an investigator asked him if it made him mad
when Jelena told him not to pick up the children from her
house, he responded that he “didn’t see the logic in it.”
When asked where he went after he picked up L.C.,
Appellant told investigators that he did not recall
driving toward any particular destination, but he
remembered “having a good day with [L.C.].” Appellant
stated that he took L.C. to a Halloween festival at a
church or school somewhere between Tyler and West
Monroe.
Appellant described Jelena, Adams (his first wife),
and Debbie Campbell (his sister) as unintelligent,
vindictive, and dishonest. He acknowledged that Jelena
had told him that she was afraid of him. When
investigators informed him that there were witnesses to
the offense, he remarked that Jelena’s neighbors would
not recognize him.
When asked if he knew why he was in the police
station, Appellant responded by asking if he was being
charged with speeding. He stated that he had evaded
arrest because he did not like getting speeding tickets.
Detectives told him that he was being held on a capital
murder warrant, and he challenged them to show it to
him. When they did, he emphasized that the warrant was
from Texas and stated that he needed to know what the
Louisiana charges were.
After speaking with Appellant, Shine viewed
Appellant’s vehicle in the impound lot. A West Monroe

11a
officer told Shine that Appellant had boasted following
his arrest that “they were looking for the wrong license
plate.” Looking through the windows, Shine saw two
firearms and two cell phones, one of which matched the
description of Jelena’s phone.
Tyler Police Department Detective Craig Williams
testified that he processed Appellant’s vehicle after it
was returned to Tyler. He found Jelena’s cell phone on
the back seat and its black-and-pink case in the driver’s
door pocket. He also identified a Springfield XD
handgun recovered from the driver’s floorboard, where
West Monroe police officers had placed it after they
arrested Appellant.7 It had an attached magazine of
twelve rounds and one round in the chamber. All rounds
recovered from that gun were Winchester .40 caliber
Smith & Wesson, the “same caliber and same brand of
the casings that were at the crime scene.” Additionally,
Williams identified license plates found under the front
passenger floor mat as the current plates for Appellant’s
vehicle. The license plates that were on the vehicle when
it was stopped were expired. Williams testified that the
vehicle’s trunk contained numerous loaded rifles, several
handguns, and a large stock of ammunition. Appellant
had approximately 200 rounds, ready to fire, in the rifles.

7

This firearm was the weapon that Cummings had thrown out of
the car. Wade Thomas, a forensic scientist with the Texas Department of Public Safety lab in Tyler, conducted a toolmark analysis on
the Springfield XD to determine whether it was the weapon used in
the offense. By comparing recovered projectiles with test-fired projectiles, Thomas determined that the recovered projectiles were
fired by the Springfield XD.

12a
Williams also reviewed photographs of items taken
from the car. He identified: a knife; a Don Hume holster;
an Apple phone in a gray-and-white case; a Sig Sauer
.380 pistol with a loaded magazine and a chambered
round; two additional loaded magazines; a McDonald’s
receipt from Arcadia, Louisiana, printed at 9:07 p.m. on
the date of the offense; an iPad; a computer bag
containing copies of a modified order for possession and
access to J.C., the 2010 agreed final decree of divorce
between Appellant and Jelena, a box of “Winchester .40caliber Smith & Wesson bullets” (which was missing ten
bullets), 9-millimeter ammunition that would fit a KelTec firearm, such as the Kel-Tec 9-millimeter pistol
found in the vehicle’s trunk, three shotgun rounds, and a
box containing three Hornaday Critical Defense .380caliber cartridges; Appellant’s wallet; a blue-and-black
holster designed to be concealed under clothing; a SKS
magazine loaded with five rounds; “[o]ne case of Federal
Premium Personal Defense .380 Auto, 90-grain HydraShok, with 17 live rounds inside”; “[o]ne box of
Remington 12-gauge buckshot 00BK”; a receipt for
buckshot from Gander Mountain in Tyler, printed at
10:38 a.m. on the date of the offense; a Whataburger
receipt printed at 10:05 a.m. on the date of the offense;
and an envelope with a copy of Adams’s motion for
enforcement of child support order and order to appear
in the interest of J.C., file-marked October 26 (five days
prior to the offense).
SUFFICIENCY OF THE EVIDENCE
Appellant does not challenge the sufficiency of the
evidence to prove that he intentionally killed Jelena.

13a
Rather, he argues that the evidence was insufficient to
prove that he did so in the course of committing or
attempting to commit the offense of kidnapping (point of
error twenty-one) or in the course of committing or
attempting to commit burglary (point of error twentytwo). Appellant asserts that there was “evidence to
defeat” the underlying offense of burglary—L.C.’s
statement that “there was a knock at the door” before
Appellant entered the house and killed Jelena.
In assessing the legal sufficiency of the evidence to
support a conviction, we consider all of the record
evidence, whether admissible or inadmissible, in the
light most favorable to the verdict.8 We determine
whether, based on that evidence and reasonable
inferences therefrom, any rational trier of fact could
have found the defendant guilty of the essential
elements of the offense beyond a reasonable doubt.9
Here, the jury returned a general verdict finding
Appellant “guilty of the offense of capital murder as
charged in the indictment.” We will uphold the verdict
of guilt if the evidence was sufficient on either the
kidnapping or the burglary theory.10
A person commits capital murder when he
intentionally causes the death of an individual in the
course of committing or attempting to commit

8

Powell v. State, 194 S.W.3d 503, 507 (Tex. Crim. App. 2006).

9

Musacchio v. United States, 136 S. Ct. 709, 715 (2016) (citing Jackson v. Virginia, 443 U.S. 307, 319 (1979)).
10

See Sorto v. State, 173 S.W.3d 469, 472 (Tex. Crim. App. 2005).

14a
burglary.11 A person commits burglary if, without the
effective consent of the owner, he enters a habitation
with the intent to commit a felony, theft, or assault; or if,
without the effective consent of the owner, he enters a
habitation and commits or attempts to commit a felony,
theft, or an assault.12 “An unlawful entry into a
habitation with the intent to commit murder will satisfy
the burglary element of a capital murder charge.”13
When Appellant informed Jelena that he wanted to
exchange the children at her house, she expressly
refused, telling him that they would exchange the
children in the deli parking lot as originally planned.
Appellant then canceled the exchange. During and after
these discussions, Jelena communicated to Sriraman and
to her friends that she was afraid of Appellant and did
not want him in her house.
Moreover, several witnesses at the crime scene
observed that the door frame was splintered and the
strike plate was on the floor, indicating a forced entry.
Evidence that Jelena did not want Appellant in her home
and that the door had been forced open sufficiently
established that Appellant entered Jelena’s home
without her effective consent. Thus, the first
requirement of burglary is satisfied.

11

See Tex. Penal Code § 19.03(a)(2); Whitaker v. State, 977 S.W.2d
595, 598 (Tex. Crim. App. 1998).
12
13

Tex. Penal Code § 30.02(a)(1), (3).

Balderas v. State, 517 S.W.3d 756, 766 (Tex. Crim. App. 2016)
(quoting Whitaker, 977 S.W.2d at 598-99).

15a
The evidence also established that Appellant entered
Jelena’s home with the intent to commit the felony of
murder. Appellant aimed his gun at Jelena and shot her
repeatedly as she attempted to escape, and he shot her
again after she was sitting and then lying on the floor.
Appellant’s use of a firearm, as well as the number and
locations of Jelena’s gunshot wounds, demonstrated his
intent to murder Jelena.14 A rational jury could have
determined from this evidence that Appellant entered
Jelena’s house without her effective consent, intending
to commit a felony, and intentionally murdered Jelena.
Accordingly, the evidence was sufficient to prove that
Appellant was guilty of capital murder. Because we find
the evidence sufficient to prove the offense of burglary
of a habitation, we need not consider whether the State
proved the underlying felony of kidnapping.15 Points of
error twenty-one and twenty-two are overruled.
SHOCK CUFF ACTIVATION
Appellant wore a shock cuff on his ankle, which
deputies activated outside the jury’s presence. In point
14

See, e.g., Ex parte Thompson, 179 S.W.3d 549, 555 (Tex. Crim.
App. 2005) (finding that evidence of the Appellant’s intent to kill
was overwhelming when, among other things, he intentionally shot
the victim in the abdomen and then intentionally shot him three
more times as he lay on the ground).
15

See Tex. Penal Code § 19.03(a)(2); see also Vega v. State, 267
S.W.3d 912, 913 (Tex. Crim. App. 2008) (“If the hypothetically correct jury charge for the case would authorize the jury to convict on
alternative theories of liability, then the appellate court must deem
the evidence sufficient if it is sufficient under any of the theories of
liability.”).

16a
of error one, Appellant alleges that the trial judge
violated his rights to substantive and procedural due
process by allowing him to be subjected to an electric
shock during trial for conduct that did not warrant such
treatment, particularly when the judge had far less
drastic alternatives. Appellant asserts that he did not
pose a security threat while representing himself but
instead was shocked for being disrespectful. Appellant
notes that his counsel later moved for a mistrial on the
ground that he “highly suspect[ed]” that the jury—
which had just been excused for the day—heard
Appellant scream.16 Appellant argues that activating the
shock cuff constituted “egregious official conduct” or
conduct that “shocks the conscience,” in violation of the
Fourteenth Amendment guarantee of substantive due
process. He contends that this conduct was structural
error requiring reversal.17 We agree with Appellant
that, under the circumstances here, activation of the
shock cuff violated due process because there was no
16

After this incident, the trial judge re-appointed standby counsel,
who represented Appellant for the rest of the trial.
17

Appellant also claims that the shock cuff’s activation violated the
Eighth Amendment of the United States Constitution, as well as
Article I, Sections 13 and 19 of the Texas Constitution. “Eighth
Amendment scrutiny is appropriate only after the State has complied with the constitutional guarantees traditionally associated
with criminal prosecutions.... Where the State seeks to impose punishment without such an adjudication, the pertinent constitutional
guarantee is the Due Process Clause of the Fourteenth Amendment.” Ingraham v. Wright, 430 U.S. 651, 671 n.40 (1977). Further,
Appellant has not briefed this or any other of his Texas constitutional claims separately from his federal constitutional claims.
Therefore, we will address only his federal constitutional claims. See
Welch v. State, 93 S.W.3d 50, 52 & n.5 (Tex. Crim. App. 2002).

17a
immediate security concern. We disagree with
Appellant, however, that the constitutional error in this
case was structural or harmful, because the activation
was not in front of the jury and it only momentarily
incapacitated Appellant.
Appellant requested before trial that he be allowed
to wear a shock belt instead of a leg brace in proceedings
before the jury. He argued that a shock belt would be
less noticeable than a leg brace; therefore, it would not
“lower” his presumption of innocence. For reasons not
explained in the record, Appellant wore both a shock cuff
on his ankle and a leg brace during the trial. Deputies
activated the shock cuff two times. The first shock came
nearly a year before a jury was picked. The second shock
came during trial, just after the jury had left the
courtroom for the day.
While Appellant complains only of the second
incident, a brief summary of the first is relevant to our
harm analysis. The first occurred after a pretrial hearing
on October 9, 2014, when Appellant refused to be
handcuffed for transport to the jail. He grabbed the
counsel table with both hands and stiffened his arms.
Unable to move Appellant’s arms, transport officers
activated the shock cuff for one second. Appellant yelled
and immediately broke his hold on the table. However,
he continued resisting and fighting while they
handcuffed him. It took four officers to restrain and
handcuff him.
When Appellant returned to the jail after this
incident, the officers who accompanied him expressed
their intent to take him to the medical clinic to make sure
that he was alright after being shocked. But Appellant

18a
stated, “I’m okay,” and, “I don’t think I need to.” As they
walked across the parking lot toward the jail, officers
asked Appellant several times if he needed to go to the
clinic. He repeatedly stated that he did not. When they
reached Appellant’s cell, Appellant cooperated as
officers uncuffed him and unloaded his paperwork.
The second incident, the one at issue here, took place
after the close of testimony on September 15, 2015,
during the guilt phase. After the jury had been excused
for the day, the trial judge conducted a hearing
concerning Appellant’s cross-examination of Detective
Shine. The judge asked Appellant, “Where were you
going with that[?]” Without standing up, Appellant
responded:
[APPELLANT]:
Your
Honor,
I
understand Detective Shine doesn’t
remember everything that’s before him.
Obviously that would be next to
impossible.
THE COURT: Next to impossible to
what?
[APPELLANT]: For him to be able to -THE COURT: Stand up when you talk to
the Court. All they need you to do is stand
up when you talk to the Court. That’s what
lawyers do. They stand up.
Mr. Haas, he’s -CAPTAIN CARAWAY: Stand up.
SERGEANT SHOEMAKER: I told you
to stand up.

19a
CAPTAIN CARAWAY: Stand up.
(Shock bracelet activated on defendant.)
[APPELLANT]: I’m sure the Court very
much enjoyed that.
At that point, the judge terminated Appellant’s pro se
status, explaining:
[F]or all the reasons this Court’s gone
over, all the admonishments I’ve given
you.... I have warned you and warned
you.... [Y]our right to represent yourself is
not just terminated on that type [of]
disrespect for this Court, it’s terminated
on everything I’ve put up with from you
right up through the last set of
admonishments I’ve given you.... [Y]our
right to represent yourself, based on all
your conduct, all the admonishments I’ve
given you, right up to right now, your right
to represent yourself is terminated.
***
I should have done this a lot earlier, but I
kept giving you chance after chance after
chance.
The judge re-appointed defense counsel to represent
Appellant.
The next morning, September 16th, the trial judge
continued the case until September 28th in order to give
defense counsel time to prepare for trial. When the
judge informed the jury of the new schedule and
explained that defense counsel would be representing

20a
Appellant when the trial resumed, Appellant
interjected, “And the jury should know that was not
voluntary.” The judge told him to be quiet and sit down,
but Appellant interrupted him two more times to
reiterate that he did not agree to defense counsels’
representation.
When the trial resumed twelve days later, defense
counsel moved for a mistrial outside the jury’s presence
on the ground that he “highly suspect[ed]” that the jury
heard “the screams that [Appellant] let out after he was
zapped.” In response to this motion, the judge clarified
that, when deputies activated the shock cuff, the jury
was out of the courtroom and the door was “shut behind
them.” He acknowledged that he did not know “how far
up the hall the jury went,” but he added that there was
no evidence in the record that any juror heard anything
“regarding any response of [Appellant] to being
shocked.” The judge also stated that, even if a juror had
heard something, there was no evidence that the juror
would have had “any earthly idea who it was coming
from.” Additionally, he concluded, “if they did hear
anything,” there was no evidence that it would affect
their ability “to fairly and impartially carry out their
duty as jurors in the case.” The judge denied the motion
for mistrial.
We note that deputies had not shocked Appellant on
previous occasions when he had been significantly more
combative and disrespectful than he was when they
shocked him for failing to stand on September 15th.
Further, Appellant’s failure to stand did not pose an
immediate threat to courtroom security. The trial
judge’s admonishment to Appellant immediately after

21a
the shock made no mention of a threat to security but
instead expressed exasperation over Appellant’s
continuing failure to follow the deputies’ and the judge’s
instructions as well as his defiant and disrespectful
attitude toward the judge.18
We agree with Appellant that activating the shock
cuff as a means to get Appellant to stand up when
addressing the trial court violates due process. As the El
Paso Court of Appeals recently put it, immediate
security concerns or flight risk can justify the activation
of a stun belt; decorum concerns cannot.19 Use of a stun
belt “as a method to enforce decorum or as a punishment
for
a
defendant’s obstreperous
conduct,
is
constitutionally prohibited and falls outside the wide

18

Cf. Morris v. State, 554 S.W.3d 98, 118 (Tex. App.—El Paso 2018,
pet. ref’d).
19

Id. Unlike in Morris, the trial judge in this case did not instruct
deputies to shock the defendant; rather, the deputies activated the
shock cuff on their own volition after appellant disobeyed their instructions. Cf. 554 S.W.3d at 104-05. But the trial court made clear
on the record that the deputies had the freedom to activate it as
means to enforce decorum. At one point the trial court reminded
Appellant that “the deputy has got a shock device in their hand ....
[T]hey will use whatever means they have to control you.” Shortly
thereafter, when Appellant had responded to a State’s objection before standing up, [the deputy] said, “If you’re going to speak to the
Court, stand up. Last chance.” The trial court added, “Stand up, Mr.
Calvert. It won’t work out good if you don’t stand up, believe me.”
Nothing in the record suggests the trial judge did not condone the
shock as a means to enforce the stand up/sit down rules. Quite the
opposite

22a
discretionary penumbra for courtroom management set
by [Illinois v. Allen, 397 U.S. 337, 346 (1970)].”20
However, contrary to Appellant’s contention, the
error was not structural. Structural errors are a very
limited class of errors that affect the framework within
which the trial proceeds such as the total deprivation of
counsel, the lack of an impartial trial judge, the violation
of the right to self-representation at trial, the violation
of the right to a public trial, or the giving of a
constitutionally deficient reasonable-doubt instruction.21
Like the El Paso Court of Appeals, we cannot conclude
that the error here, which again, occurred outside the
presence of the jury, falls within that category. But the
error in improperly activating the shock cuff was of
constitutional dimension.22 Accordingly, we will apply
the harm standard for constitutional error: this Court
must reverse unless we determine beyond a reasonable
doubt that the error did not contribute to the conviction
or punishment.23
There are two primary ways in which a shock cuff’s
activation may adversely affect the fairness of a trial.
20

Id.

21

United States v. Marcus, 560 U.S. 258, 263 (2010).

22

See Morris, 554 S.W.3d at 124; Deck v. Missouri, 544 U.S. 622, 629,
630, 635 (2005) (“[A]bsent a trial court determination, in the exercise of its discretion,” that their use is “justified by a state interest
specific to a particular trial,” the use of visible physical restraints
during the guilt phase of a criminal trial violates due process because it “undermines the presumption of innocence and the related
fairness of the factfinding process.”).
23

See Tex. R. App. P. 44.2.

23a
The first way is the negative effect on jurors’
impartiality and the presumption of innocence—
implicating the Fifth Amendment.24 The second is the
negative effect on the defendant’s ability to confer with
counsel and otherwise participate in his defense—
implicating the Sixth Amendment.25 Neither applies
here.
There is no evidence that the shock cuff’s activation
had a negative effect on the jurors’ impartiality or the
presumption of innocence. The jurors were not present.26
Absent evidence in the record that jurors heard
Appellant scream, we will not speculate that they did.27

24

See, e.g., Chavez v. Cockrell, 310 F.3d 805, 807, 809 (5th Cir. 2002);
Morris, 554 S.W.3d at 112.
25

See, e.g., United States v. Durham, 287 F.3d 1297, 1306 (11th Cir.
2002) (“[A] stun belt imposes a substantial burden on the ability of
a defendant to participate in his own defense and confer with his
attorney during a trial.”); Morris, 554 S.W.3d at 112.
26

Cf. Hollaway v. State, 6 P.3d 987, 994 (Nev. 2000), overruled on
other grounds by Lisle v. State, 351 P.3d 725 (Nev. 2015) (finding
reversible error when defendant’s shock belt was accidentally activated during prosecutor’s final closing argument asking “how deep,
deep into this man’s being does this violence run”). The “accidental”
activation in Hollaway is no anomaly; purposeful activations are
comparatively rare.
27

See Word v. State, 206 S.W.3d 646, 651-52 (Tex. Crim. App. 2006)
(“It is usually the appealing party’s burden to present a record
showing properly preserved, reversible error.”); Weaver v. State,
894 So. 2d 178, 196 (Fla. 2004) (holding that accidental activation of
stun belt did not prejudice defendant where the activation occurred
outside the presence of the jury); State v. Wachholtz, 952 P.2d 396,
399 (Idaho Ct. App. 1998) (affirming denial of motion for mistrial
based on the accidental discharge of stun belt that occurred while

24a
Further, the record contains no evidence that the
shock cuff’s activation affected Appellant’s ability to
confer with counsel and participate in his defense.
Conversely, in State v. Belcher, there was evidence that
after the activation of the defendant’s shock belt, the
defendant “was not able to confer with his counsel in
deciding how to exercise his peremptory strikes.”28 And
in Morris v. State, there was evidence that the activation
caused the defendant’s absence from most of the trial
proceedings because he was afraid to be in the
courtroom.29
Unlike Belcher and Morris, Appellant was no more
than momentarily incapacitated by the activations of the
shock belt. And the record of this case does not indicate
that Appellant was anxious or distracted by the
possibility of another shock.30 After the first, pretrial
activation, Appellant continued to resist and fight the
transport guards, and then repeatedly refused offers for
potential jurors were assembled before voir dire, where the defendant had offered no evidence that potential jurors actually heard the
defendant scream after the belt’s discharge); Harrison v. Yarborough, No. 103CV05005-AWI-SMSHC, 2006 WL 735986, at *1
(E.D. Cal. Mar. 22, 2006), aff’d sub nom. Harrison v. Yarbourogh,
211 F. App’x 653 (9th Cir. 2006) (holding that there was no prejudice
where, “although the stun-belt was activated while the jury was deliberating and Petitioner screamed, Petitioner ha[d] adduced no evidence that the jurors heard or attributed the scream to Petitioner,
or were in any way influenced by the activation”).
28

State v. Belcher, 183 S.W.3d 443, 449 (Tex. App.—Houston [14th
Dist.] 2005, no pet.) (finding reversible error).
29

Morris, 554 S.W.3d at 117-21, 124-26 (finding reversible error).

30

See Durham, 278 F.3d at 1306.

25a
medical treatment, stating that he was “okay.”
Thereafter, he very actively and consistently
participated in his defense. And after the second,
midtrial activation, coming nearly a year later,
Appellant continued arguing with the judge. Before the
jury, Appellant interrupted the judge several times to
express his disagreement with the reinstatement of
defense counsel. In addition, the trial judge continued
the proceedings for twelve days to give defense counsel
time to get up to speed.
On this record, we conclude that the shock cuff’s
activation outside the jury’s presence did not affect the
jurors’ impartiality, nor Appellant’s presumption of
innocence, nor Appellant’s ability to be present at trial
and participate in his own defense. We are confident
beyond a reasonable doubt that the error did not
contribute to the conviction or punishment.31 Point of
error one is overruled.
DENIAL OF MISTRIAL
In point of error two, Appellant makes two
arguments in support of his assertion that the trial judge
erred by refusing to grant a mistrial following the shock
cuff’s activation. First, he argues that this incident
biased the jury against him. We rejected Appellant’s
first argument in our discussion of point of error one.
Second, he contends that it was unreasonable to force
defense counsel to assume responsibility for a trial in
which so much had transpired because there was no way
for counsel to develop and implement an effective trial
31

See Tex. R. App. P. 44.2(a).

26a
strategy. Appellant asserts that “there effectively was
nothing counsel could do.” He argues that, if the judge
felt compelled so late in the trial to require Appellant to
proceed with counsel, then the judge was also compelled
to grant a new trial in which counsel could perform
effectively. Appellant’s second argument is not
preserved because defense counsel did not timely move
for a mistrial on this basis.32 Point of error two is
overruled.
CONFLICT OF INTEREST
In point of error three, Appellant argues that the
trial judge erred by re-appointing his standby counsel,
Jeffrey Haas and Jason Cassel, to represent him as
defense counsel when the judge revoked his pro se
status because Appellant and defense counsel “clearly”
had a conflict of interest. Specifically, Appellant
contends that because he had accused counsel of
“unethical conduct, ineffective assistance, and other
wrongdoing,” it was unreasonable for the trial judge to
conclude that counsel could zealously represent him.33
He argues that counsel had a disqualifying conflict of
interest as a matter of law because he had filed
“grievances with the State Bar on Mr. Haas.”
The Sixth Amendment guarantees the right to
reasonably effective assistance of counsel, which
32

See Tex. R. App. P. 33.1; Griggs v. State, 213 S.W.3d 923, 927 (Tex.
Crim. App. 2007).
33

After the trial court denied Haas’s first motion to withdraw, defense counsel did not move to withdraw again. See our discussion of
points of error five through seven, below.

27a
includes the right to “conflict-free” representation.34 In
the case of a conflict of interest, trial counsel renders
ineffective assistance if the defendant can demonstrate
that (1) counsel was burdened by an actual conflict of
interest; and (2) the conflict actually affected the
adequacy of counsel’s representation.35 The mere
possibility of a conflict, without more, will not justify
reversal.36
Regarding the first prong, “an ‘actual conflict of
interest’ exists if counsel is required to make a choice
between advancing his client’s interest in a fair trial or
advancing other interests (perhaps counsel’s own) to the
detriment of his client’s interest.”37 “The appellant bears
the burden of proof by a preponderance of the evidence
on a claim of conflict-of-interest ineffective
assistance....”38 Therefore, if a defendant fails to present
any evidence regarding the issue, or if the evidence
relevant to the issue “is in perfect equipoise,” his “claim
will fail.”39
Regarding the second prong, a defendant’s allegation
alone that counsel has not been zealous in his
34

See Strickland v. Washington, 466 U.S. 668, 692 (1984); Cuyler v.
Sullivan, 446 U.S. 335, 348-50 (1980).
35

Cuyler, 446 U.S. at 349-50.

36

Id. at 350; see also Pollan v. State, 612 S.W.2d 594, 596 (Tex. Crim.
App. 1981) (panel op.).
37

Acosta v. State, 233 S.W.3d 349, 355 (Tex. Crim. App. 2007) (quoting Monreal v. State, 947 S.W.2d 559, 564 (Tex. Crim. App. 1997)).
38

Odelugo v. State, 443 S.W.3d 131, 136 (Tex. Crim. App. 2014).

39

Id. at 136-37.

28a
representation does not establish an actual conflict of
interest.40 Nor does a defendant’s refusal to cooperate
with counsel and desire to no longer be represented by
his appointed counsel.41 Further, a criminal defendant’s
filing of a grievance or other legal proceeding against his
court-appointed counsel does not necessarily give rise to
a conflict of interest.42
Here, when the trial judge initially allowed
Appellant to proceed pro se, the judge also directed
standby counsel to continue investigating and preparing
a defense so that they would be ready to represent
Appellant if necessary. Appellant filed pleadings
complaining about standby counsel’s investigation and
repeatedly threatened to sue or file grievances against
counsel for alleged misconduct. For example, in
“Defendant’s Motion for Court to Change the Selection
of Assignment of ‘Standby Counsel,’” Appellant argued
that he was entitled to new standby counsel for the
following reasons: “bad communication and lack of
zealous drive”; counsel “hampered” Appellant’s defense
and failed to assist him in “furthering” his defense;
unspecified “[o]bjections, problems, questionable actions
are all well documented within ex parte proceedings to
which Defendant cannot disclose herein yet give rise to
40

Cf. Acosta, 233 S.W.3d at 355.

41

See Viges v. State, 508 S.W.2d 76, 76-77 (Tex. Crim. App. 1974).

42

See Dunn v. State, 819 S.W.2d 510, 519 (Tex. Crim. App. 1991)
(rejecting a defendant’s conflict of interest claim that relied on his
malpractice action against his attorneys); Perry v. State, 464 S.W.2d
660, 664 (Tex. Crim. App. 1971) (holding that a defendant’s civil
rights action against his attorney did not establish an actual conflict
of interest).

29a
challenge the Court in its motives to a level giving
Defendant ... good cause for alarm if true. (See Ex parte
filings, etc.)”; counsel “betrayed” him by disclosing
privileged information to the State, which was “legally
unethical”; and counsel’s testimony at a hearing on
Appellant’s motion to recuse the trial judge was
“surprisingly” unfavorable.
At the hearing on this motion, Appellant accused the
trial judge of ordering counsel to reveal privileged
information to the State. Standby counsel Cassel denied
any intent to provide privileged information to the State.
He explained the process he intended to use to copy
information from a computer that was in evidence so
that he could give that information to Appellant.
Appellant argued that simply copying the data would
alter it, so even if counsel acted in good faith, “the
relationship has been destroyed between me and Mr.
Cassel.” The judge denied Appellant’s request for
different standby counsel. Cassel stated that he would
not copy the hard drive if Appellant did not want him to.
Appellant confirmed that he did not want Cassel to copy
it. He added that most of his “work product” was on USB
drives, and he did not want counsel to copy those drives,
either.
This process of a complaint, a hearing, and a
resolution repeated itself several times. Appellant’s
complaints may have been “very personal” but there is
no indication in the record that counsel took them as
such. Instead, counsel followed the trial court’s repeated
instructions to continue preparing a parallel defense in
the event that they were reinstated to represent
Appellant, as they eventually were. Appellant does not

30a
identify any instance in which counsel was required to
make a choice between advancing their own interests or
advancing Appellant’s interests.43 Instead, he argues
that counsel was conflicted as a matter of law because of
the grievance that he had filed. Appellant cites Garner
v. State44 for the proposition that the existence of a
grievance constitutes a conflict of interest as a matter of
law. But that is not what Garner says. In that case, as
here, the nature of the grievance was unclear from the
record. The court held that Garner “ha[d] on appeal
shown the mere possibility of a conflict of interest. That
mere possibility, without more, [wa]s not sufficient to
impugn a criminal conviction.”45 The same is true here.
Appellant at most has shown only the “mere
possibility of a conflict of interest.” Appellant attached
to one of his pleadings a letter from the State Bar, dated
January 29, 2014, responding to a grievance Appellant
filed against Mr. Haas. That letter stated that the
grievance committee had determined that the
information alleged “d[id] not demonstrate professional
misconduct or an attorney disability;” thus, the
committee classified the grievance as an inquiry and
dismissed it. This dismissal came at least twenty-one
months before Mr. Haas was placed back in as counsel.
Further, our own review of the record has not
uncovered any instance in which counsel advanced their
own interests over Appellant’s. Appellant consulted
43

See Acosta, 233 S.W.3d at 355.

44

864 S.W.2d 92 (Tex. App.—Houston [1st Dist] pet. ref’d).

45

Id. at 99.

31a
standby counsel on several occasions. Standby counsel
provided Appellant with the legal materials he
requested. After Appellant complained that he could not
find investigators and experts who were willing to work
with a pro se defendant, standby counsel located
investigators and experts for him. Counsel took
discovery materials to the jail for Appellant’s review,
but Appellant often refused to meet with counsel. As the
State notes, Haas and Cassel were present for the
multiple pretrial hearings and the trial, they were
familiar with the thousands of pages of discovery, and
they had no objections to stepping back in.
Because Appellant has not met his burden to prove,
by a preponderance of the evidence, that counsel made a
choice between advancing Appellant’s interest in a fair
trial and advancing other interests to Appellant’s
detriment, he has not proved a constitutional conflict of
interest. The trial judge did not err by reinstating
standby counsel, Haas and Cassel, to represent him as
defense counsel. Point of error three is overruled.
THE FARETTA RULE
In point of error four, Appellant argues that this
Court should limit the Faretta rule by holding that a
defendant in a case in which the State is seeking the
death penalty cannot waive his constitutional right to
counsel. In Faretta v. California, the Supreme Court
held that the Sixth Amendment guarantees a defendant
in a state criminal trial the right to represent himself at
trial.46 We have previously held that the Sixth and
46

Faretta v. California, 422 U.S. 806, 818-20 (1975).

32a
Fourteenth Amendments guarantee that a person
brought to trial, even in a capital murder case in which
the State seeks the death penalty, may dispense with
counsel and make his own defense.47 We decline to revisit
the matter in this case. Point of error four is overruled.
PRO SE REPRESENTATION
In intertwined points of error (five through eight),
Appellant asserts that the trial court erred in permitting
him to represent himself. Appellant’s arguments rest
upon a four-prong attack. First, Appellant should not
have been allowed to proceed pro se because he was not
competent to represent himself. Second, Appellant could
not have knowingly and voluntarily waived his right to
counsel because of his mental health issues. Third, the
trial judge should have conducted an adversarial hearing
with independent counsel to ensure that Appellant was
competent to waive counsel and represent himself
despite his mental heath issues. And fourth, Appellant
did not voluntarily waive his right to counsel because his
waiver was equivocal. After addressing the relevant
facts, we will discuss each of these points of error on the
merits.
Relevant Facts
Haas was appointed to represent Appellant in
November 2012. About two months later, he filed a
motion to withdraw. At the hearing on this motion, Haas
described Appellant’s interest in pursuing an insanity
47

See, e.g., Moore v. State, 999 S.W.2d 385, 396 (Tex. Crim. App.
1999) (citing Faretta, 422 U.S. at 818-20).

33a
defense and their strategic disagreement over whether
to file a motion for change of venue. Haas informed the
court that, based solely on that disagreement, Appellant
told him, “[W]e’re not able to communicate. I want you
to withdraw.” Appellant told the judge, “I just feel he’s
going to sell me out, and he’s already decided on what
my fate is going to be.” Appellant added that he felt “so
strongly against this that I’d rather represent myself
pro se than continue on with Mr. Haas.”
The judge stated that he had “heard nothing in this
hearing ... to cause the Court to discharge Mr. Haas as
[Appellant’s] lead attorney.” The trial judge denied the
motion to withdraw. Appellant stated that he would
represent himself pro se if the judge did not appoint a
different attorney. The judge advised Appellant that
representing himself in a capital murder case “would be
the absolute worst-case scenario looking at what you can
be facing.” After the hearing, Haas remained as lead
counsel.
A year later, Haas advised the judge that Appellant
wished to proceed pro se. At a hearing, Appellant
confirmed this. The judge explained to Appellant that he
would appoint a mental health expert to conduct an
examination and determine whether Appellant had the
ability to knowingly, intelligently, and competently
waive his right to counsel. Appellant repeatedly
objected to the appointment of a mental health expert,
arguing, “[T]here’s been no submission of any inquiry or
anything to raise an inquiry of competency,” and,
“There’s nothing in the Code of Criminal Procedure that
provides any power to the Court ... to assign me to have
a competency hearing[.]”

34a
The trial judge acknowledged that no statute
mandated a competency evaluation, and that there was
“no evidence in this case whatsoever ... that you are not
competent to stand trial.” However, it was “of great
concern to the Court at every step that the Court takes
every precaution it can ... before the Court approves the
waiver.”
The trial judge appointed Dr. Mitchell Dunn to
evaluate Appellant’s competency to waive his right to
counsel. Dr. Dunn reviewed Appellant’s mental health
records, including: a 1999 psychological examination;
psychiatric treatment beginning in 2009; and an
admission to a psychiatric unit in 2011. He reported that
Appellant had been diagnosed with, and prescribed
psychotropic medications and ongoing therapy for,
several “disorders.” Specifically, Appellant had been
diagnosed with obsessive-compulsive disorder; “Major
Depressive Disorder, Recurrent, in Partial Remission”;
and “Personality Disorder Not Otherwise Specified,
with Antisocial and Obsessive-Compulsive Features.”
Additionally, Dr. Dunn interviewed Appellant for
two hours and forty-five minutes. He opined “to a
reasonable degree of psychiatric certainty that
[Appellant] is competent to waive his right to counsel
and to represent himself in a case where he’s indicted for
capital murder and the State is seeking the death
penalty.” After discussing with Appellant the
advantages and disadvantages of self-representation,
Dr. Dunn concluded that Appellant was “capable of
knowingly and intelligently waiving the traditional
benefits associated with a right to counsel” and
Appellant could “describe in a reasoned manner the

35a
potential benefits for him in pursuing such a course as
well as the potential risks.” Dr. Dunn reported that
Appellant stated that he wanted to represent himself to
“have more flexibility of doing what [he wants] to do.”
Appellant had acknowledged that he “wants to control
the situation, [and] is frustrated when he can’t [control
it].”
During a pretrial hearing regarding Appellant’s
request to proceed pro se, both Appellant and defense
counsel agreed with this assessment. The judge asked
Appellant if he still wanted to represent himself.
Appellant responded that he did not “wish to necessarily
represent [himself] as a matter of free choice.” He
expressed his dissatisfaction with defense counsel’s
performance—specifically,
counsel’s
failure
to
investigate, obtain materials that Appellant had
requested, and take other actions.48 He stated that he
wanted effective counsel but did not feel he had effective
counsel. He asserted that, because the trial judge had
denied his motion to substitute counsel, his “only
recourse” was to represent himself.
The judge reiterated that he had no indication that
defense counsel had been ineffective or that there were
valid grounds for counsel’s withdrawal. The judge stated
that, if he allowed Appellant to represent himself, he
48

More specifically, Appellant complained that counsel did not: request a reduced bail; provide him the grand jury transcript, and in
fact denied its existence; “perform[ ] process” on the defense’s investigator and mitigation expert; talk with Appellant’s family law
attorneys; obtain certified copies of the family court proceedings;
and contact the State about discovery materials that Appellant believed should have already been provided.

36a
would appoint defense counsel as standby counsel. When
Appellant asked the judge to direct him to case law
describing the responsibilities of standby counsel, the
judge admonished him that he would have to do his own
legal research if he represented himself.
The trial judge asked Appellant and counsel
whether, in light of counsel’s response to Appellant’s
specific complaints, “an effort could be made to see if any
of these matters could be resolved” so that Appellant
could pursue “some other course” besides representing
himself. But Appellant maintained that he did not want
to work with defense counsel and that he “would even
have to object that he be appointed as standby counsel
when we get to that point, if we do.” He contended that
counsel would be biased and “not zealous” in assisting
him.
The judge reviewed the indictment and elicited
Appellant’s acknowledgment that he understood the
charges against him. The judge explained that the State
had the burden of proof and that the trial would proceed
to a sentencing phase if Appellant were found guilty. In
response to the judge’s admonishments and questioning,
Appellant showed his understanding and familiarity
with the sentencing process (including the special
issues); pretrial motions (including grounds for
suppression); the jury selection process (including
challenges for cause and peremptory strikes and the
disadvantages he would face during the process); the
definition of mitigating evidence; the types of experts
that could testify at the sentencing phase regarding
future dangerousness and mitigation; the direct appeal
process; the writ process (including waiving any claim of

37a
ineffective assistance of counsel by representing
himself); his responsibility for drafting jury charges and
objecting to the State’s proposed charge; and the high
degree of “trial ability,” qualifications, and experience
generally required by counties for an attorney to defend
a capital case; and the process of laying a proper
predicate for a witness.
Appellant affirmed that he had represented himself
in a child custody dispute and that he had graduated
from Texas A&M University with a degree in computer
science. He agreed with Dr. Dunn’s statements that he
was aware of the benefits and risks associated with pro
se representation and that he was “capable of knowingly
and intelligently waiving the traditional benefits
associated with the right to counsel.”
The judge reviewed the process of cross-examining
expert witnesses, advising Appellant that defense
counsel knew how to do it. The judge repeatedly
emphasized that Appellant would have to make proper
objections in order to keep out inadmissible testimony
and that the judge would hold Appellant to the same
rules of evidence as he would hold an attorney. The
judge admonished him that, if he did not properly object
to testimony, he would waive the objections.
The judge noted that Appellant would be personally
responsible for finding experts and other witnesses and
having them available to testify. He asked Appellant
how, being incarcerated, he would locate and contact the
witnesses he needed. Appellant responded that he had
“people on the outside that can help me,” and that he
could write letters and make “limited telephone calls”
from jail. The judge emphasized the disadvantages that

38a
Appellant would face as an incarcerated pro se
defendant, as opposed to defense counsel who could “do
all that.” Appellant reiterated that he understood.
Additionally, the judge stressed his view that
Appellant was “making a tremendous mistake” by
invoking his right to self-representation when he had
“almost no experience in the questioning of these type
witnesses or cross-examination of witnesses called by
the State or understanding how to object to evidence.”
Appellant stated that he understood “the Court’s
opinion.”
The judge then asked Appellant if he was requesting
self-representation
“competently,
voluntarily,
knowingly, and intelligently.” Appellant affirmed that
he was. The judge asked him if he was making the
request “for waiver of counsel clearly, unconditionally,
and unequivocally.” Appellant responded, “I have a
problem with that last part. I want to represent myself,
and I do not want counsel. Per our conversation that
we’ve had previously, the ‘and do not want counsel’ is not
exactly true. I’d ask that that be removed.” The judge
stated that Appellant did not have a right to courtappointed counsel of choice and that he could not allow
Appellant to represent himself unless his waiver was
free and unconditional.
After conferring with defense counsel, Appellant
stated that he did not know if he “agreed with that,” but
he “guess[ed] it was okay.” He added that the written
waiver language was “oversimplified” because he
wanted to represent himself and he did not want the
counsel that he had. The judge repeated that Appellant’s
qualified statement was not a valid waiver.

39a
After additional consultation, defense counsel
clarified to the judge that Appellant had been qualifying
his statement because he wanted to make sure that
executing the waiver of his right to counsel would not
waive his prior objections to counsel. Appellant affirmed
that this was his concern. The judge confirmed that
Appellant’s objections were on the record and that
Appellant’s waiver of counsel would not waive any
ruling that was on the record. He reiterated that he
could not consider a waiver of counsel unless it was
“unconditional and unequivocal.” Defense counsel
expressed the view that the trial judge’s assurances
concerning its prior rulings had resolved the matter, and
Appellant concurred. When the trial judge again asked
Appellant if he voluntarily abandoned his right to
counsel, Appellant agreed, without qualification, that he
did. The judge again reviewed the hazards of selfrepresentation and advised Appellant that he was
making a mistake, but Appellant persisted in his desire
to represent himself.
Appellant then executed a written waiver of
counsel.49 The trial judge approved the waiver and
appointed defense counsel as standby counsel. The judge
informed Appellant that standby counsel would be ready
to take over if Appellant changed his mind about
wanting to represent himself. The judge also warned
Appellant that if he made “a mess of the case trying to
represent yourself” or did “damage to the case,” and
counsel “step[ped] back in,” counsel would have to “work
49

See Tex. Code Crim. Proc. art. 1.051(f) (“A defendant may voluntarily and intelligently waive in writing the right to counsel....”).

40a
with what they’ve got left.”50 Appellant stated that he
understood. Based on Dr. Dunn’s report, the judge’s own
communications with Appellant, and defense counsel’s
representations, the trial judge concluded that
Appellant was competent to waive his right to counsel
and represent himself and that he knowingly,
intelligently, and voluntarily chose to do so. Trial on the
merits was scheduled to begin eighteen months later.
The day before trial, Appellant filed “Defendant Pro
Se’s Motion to Allow the Defendant to Revoke His
Waiver of Counsel Contingent Upon That ReAppointment of Counsel Would Neither be Jeffrey Haas
Nor Jason Cassel (Both Being Current Appointed
‘Standby’ Counsel) Under Art. 1.051(h).” In this motion,
he asserted that the “Court is fully aware of all continued
complaints against ‘now standby counsel’ in open and
other settings, pleadings, etc.... Defendant does not have
the time to re-list them all and simply moves the Court
to take judicial notice of the record.” He concluded that,
if the judge would not appoint new counsel, then he
wanted to remain pro se (which he described as “the
lesser of two evil[s]”).
Appellant also filed “Defendant[’s] pro se Objections
to Court’s Lack of Admonishments Concerning
Restrictions that are Placed on Defendant Upon
Entering of a Waiver of Counsel.” He asserted that the
trial judge had not admonished him concerning “[t]he
50

See Tex. Code Crim. Proc. art. 1.051(h) (“A defendant may withdraw a waiver of the right to counsel at any time but is not entitled
to repeat a proceeding previously held or waived solely on the
grounds of the subsequent appointment or retention of counsel....”).

41a
problems with ineffective ‘standby’ counsel, essentially
working for the Court and supporting the State, as well
as a highly biased court, and an extremely unethical
District Attorney’s Office.” He complained that he had
been forced to dedicate time and resources to filing
motions and objecting to alleged prosecutorial
misconduct and that the judge had not admonished him
that he would have to do so. He also complained that the
judge had not admonished him that he would not have
specific “rights” in jail, many of which concerned his
subjective expectations of privacy and his ability to
contact witnesses and review discovery. He further
averred that he was “ill-prepared” for trial.
About a week later, after the trial had begun, the
trial judge heard these pleadings and denied them.51
Appellant re-asserted his motion for the appointment of
new counsel, along with “all my motions that I filed since
the 24th,” at a September 8, 2015 hearing. The judge
repeated his denial.52

51

At first, the trial judge stated that these motions and objections,
filed the day before the trial on the merits was scheduled to begin,
were untimely and therefore he would not rule on them.
52

On September 24, 2015, defense counsel moved for an informal inquiry into Appellant’s competency to stand trial. The jury trial was
on hold because, after revoking Appellant’s pro se status, the judge
gave counsel twelve days, from September 16th to 28th, to prepare
for trial. The trial judge held a hearing on this motion on September
30th—two days after the jury trial resumed. Although that hearing
did not address Appellant’s competency to waive counsel and represent himself, we will summarize it because it is relevant to claims
five through seven. Defense counsel pointed to a number of poor decisions that Appellant had made while representing himself as evi-

42a
Applicable Law
The Sixth Amendment guarantees that “[i]n all
criminal prosecutions, the accused shall enjoy the right
... to have the Assistance of Counsel for his defense.”53
That right includes the well-established reciprocal right
to self-representation.54 But in order to proceed pro se, a
dence that he did not have a rational understanding of the proceedings. The prosecutor responded that Appellant’s poor decisions
were not evidence that he lacked a rational understanding but instead were a consequence of his lack of legal training. The defense
submitted an affidavit from attorney Kenneth Murray questioning
Appellant’s competence. The prosecutor observed that Murray had
tried to negotiate a plea offer for Appellant, which indicated that
Murray had believed at one time that Appellant had a rational understanding of the proceedings against him and was competent to
enter a plea. The prosecutor called Drs. Michael Arambula and Edward Gripon. Arambula opined that Appellant had a sufficient present ability to consult with his attorneys and a rational as well as
factual understanding of the proceedings. Arambula had watched
Appellant during the trial and observed that his mistakes while representing himself were not caused by mental illness but instead resulted from a lack of legal training. Appellant’s inappropriate behaviors were due to his personality problems. Arambula noted that
Murray’s affidavit did not use the term “irrational” in the way that
a medical expert would. Arambula did not observe any conduct at
trial consistent with irrational thinking due to mental illness. He
also observed that Appellant effectively consulted with standby
counsel when he wanted their help. Gripon agreed with Arambula.
He added that Murray’s statement—that Appellant’s mental and
emotional deficiencies negatively affected his perceptions—did not
allege facts indicating incompetence. The judge concluded that Appellant was competent to stand trial.
53

U.S. Const. amend. VI; see also Williams v. State, 252 S.W.3d 353,
355 (Tex. Crim. App. 2008).
54

Williams, 252 S.W.3d at 356.

43a
defendant must knowingly and voluntarily waive his
right to counsel.55 The competency standard for waiving
counsel is no higher than the standard for competency to
stand trial.56 To knowingly and voluntarily waive the
right to counsel, a defendant need not have the skill and
experience of a lawyer.57 But the defendant must “be
made aware of the dangers and disadvantages of selfrepresentation, so that the record will establish that ‘he
knows what he is doing and his choice is made with eyes
open.’”58 Therefore, the focus is not on whether the
defendant is competent to represent himself at trial.59
Instead, the focus is on whether he is competent to
choose to represent himself.60
But, even where the defendant is competent to
choose to represent himself, the right to selfrepresentation is not absolute. In Indiana v. Edwards,
the Supreme Court acknowledged another limitation on
the right to self-representation.61 In that case, the
defendant sought to represent himself at trial.62 The trial
court denied the request based on his lengthy record of
55

Chadwick v. State, 309 S.W.3d 558, 561 (Tex. Crim. App. 2010);
Faretta, 422 U.S. at 835.
56

Chadwick, 309 S.W.3d at 560 (citing Godinez v. Moran, 509 U.S.
389, 399 (1993)).
57

Faretta, 422 U.S. at 835.

58

Id. (quoting Adams v. U.S. ex rel McCann, 317 U.S. 269 (1942)).

59

Dunn, 819 S.W.2d at 523.

60

Id.

61

Indiana v. Edwards, 554 U.S. 164 (2008).

62

Id. at 169.

44a
psychiatric reports and schizophrenia diagnosis.63 The
Supreme Court granted certiorari to consider whether
the Constitution permits states to deny a defendant his
right to self-representation “on the ground that the
defendant lacks the mental capacity to conduct his trial
defense unless represented.”64 The Court held that the
Constitution permits states to do so. The Court
discussed Godinez v. Moran,65 where it had held that the
competency standard for pleading guilty or waiving the
right to counsel is not higher than the competency
standard for standing trial. The Court distinguished
Godinez from the instant case in part because Godinez
“involved a State that sought to permit a gray-area
defendant to represent himself,” but the case before it
involved a State that “den[ied] a gray-area defendant
the right to represent himself.”66
First Prong: Competency to Represent Himself
In point of error eight, Appellant asserts that the
trial judge erred as a matter of law by finding that,
despite Appellant’s mental health issues, he was
competent to represent himself. In support of his
argument, he points to his pre-trial conduct and Dr.
Dunn’s psychological-evaluation report. Appellant
asserts that, in light of that evidence, the trial judge

63

Id.

64

Id. at 174.

65

Godinez, 509 U.S. at 398-99.

66

Edwards, 554 U.S. at 173.

45a
erred under Edwards in permitting him to proceed pro
se. But Appellant’s reliance on Edwards is misplaced.
The case here does not raise an Edwards issue. The
trial court here permitted Appellant to proceed pro se
(up until that right was revoked for other reasons); it did
not deny him the right to represent himself. The
language in Edwards is permissive rather than
mandatory: Edwards does not require a trial court to
restrict the defendant’s right if the defendant is
incompetent to represent himself—it merely permits
the restriction.67 Therefore, the issue is not whether
Appellant was competent to represent himself. Instead,
the issue is whether he was competent to choose to
represent himself. Point of error eight is overruled.
Second Prong: Competency to Choose to Represent
Himself
In point of error five, Appellant argues that he was
incompetent to knowingly and voluntarily waive his
right to counsel. In support of his argument, he again
points to his pretrial conduct and Dr. Dunn’s
psychological-evaluation report. Appellant alleges that
67

See Fletcher v. State, 474 S.W.3d 389, 400 (Tex. App.—Houston
[14th Dist.] 2015, pet. ref’d) (“Edwards decided whether the trial
court improperly compelled a defendant diagnosed with severe
mental illness to proceed with counsel. Appellant asks us to hold
that Edwards means not solely that a trial court may insist on representation for defendants who are incapable of conducting trial
proceedings due to severe mental illness, but also that a trial court
must do so. We disagree that Edwards so holds.”); United States v.
Berry, 565 F.3d 385, 391 (7th Cir. 2009) (Under Edwards, the “Constitution may have allowed the trial judge to block [the defendant’s]
request to go [at] it alone, but it certainly didn’t require it.”).

46a
Dr. Dunn diagnosed him with a number of mental health
problems and that he could not knowingly and
voluntarily waive his right to counsel because he had a
record of “known psychiatric issues.” He contends that
he was denied a fair trial because he was allowed to
represent himself under these circumstances.
“To raise the issue of competency by means of the
defendant’s past mental health history, there generally
must be evidence of recent severe mental illness or
bizarre acts by the defendant or of [intellectual
disability].”68 In Dunn v. State (a case unrelated to Dr.
Dunn who examined Appellant), the defendant
challenged on appeal his competency to waive his right
to counsel.69 Prior to trial, a doctor psychologically
evaluated the defendant. The doctor’s report described
the defendant’s antisocial personality disorder but also
concluded that the defendant was competent to stand
trial. We held that the defendant “did not present nor
was there any evidence in the record from any source”
that the defendant was incompetent to exercise his right
to self-representation.70
Like the record in Dunn, the record in this case
contains no evidence that Appellant was incompetent to
exercise his right to self-representation. Dr. Dunn
observed that Appellant’s prior records included
diagnoses of several “disorders.” But Dr. Dunn
ultimately concluded that Appellant was competent to
68

Moore, 999 S.W.2d at 395.

69

Dunn, 819 S.W.2d at 520.

70

Id. at 521–22.

47a
waive his right to counsel. Further, when discussing
whether Appellant would proceed pro se, both Appellant
and the trial judge acknowledged that there was no
evidence raising an issue of incompetency. There is no
evidence of recent “severe mental illness or bizarre acts
by [Appellant] or of moderate retardation.”71 The trial
judge did not abuse his discretion in finding that
Appellant was competent to knowingly and intelligently
waive his right to counsel based on Dr. Dunn’s report.
Likewise, Appellant’s disruptive conduct and
numerous and lengthy pretrial motions provide no
evidence that he was incompetent to waive counsel.
Appellant avers that his inappropriate conduct was
“fully consistent with” his obsessive-compulsive
personality disorder. He contends that, “long before trial
ever started,” the trial judge should have found him
incompetent, terminated his right to represent himself,
and reinstated defense counsel. He states that, as soon
as he was allowed to proceed pro se, he “quickly filed”
over 100 motions, “many of which were virtually
incomprehensible, obsessed with detail, and repetitive.”
He notes that he was rigid in his behaviors and unable to
adapt to external rules. He acknowledges that he
behaved disrespectfully toward the judge and opposing
counsel when he became frustrated. Appellant points
out that his conduct while representing himself pre-trial
was so bad that the prosecutors presented it during the
punishment phase as evidence of his future
dangerousness. But Appellant’s disruptive conduct as a

71

Moore, 999 S.W.2d at 395.

48a
pro se defendant is not necessarily evidence of
incompetence.
For example, in Moore v. State, the defendant argued
on appeal that his repeated outbursts during trial were
evidence of incompetence.72 To illustrate, when one of
the lawyers asked a witness about the defendant’s
booking photo, the defendant blurted out: “Does Jesus
Christ have long hair and a beard? You’ve seen pictures
of Him. What makes the difference between Jesus
Christ and Charles Manson?”73 We held that, while the
outbursts “were inappropriate violations of court
decorum, they do not constitute evidence of his inability
to communicate with counsel.”74 “If such actions were
probative of incompetence, one could effectively avoid
criminal justice through immature behavior.”75
Here, although some of Appellant’s motions are
confusing and peculiar, most are topical and logically
related to the proceedings. They reflect that Appellant
had familiarized himself with many potentially relevant
laws. He relied on his own understanding of the laws he
believed to be relevant, and he was extremely careful
not to waive any potential errors. Further, Appellant
points to no case law, and we have found none,
supporting his position that disruptive behavior
resulting from a personality disorder renders a
defendant incompetent to choose to represent himself.
72

Moore, 999 S.W.2d at 394-95.

73

Id. at 394.

74

Id. at 395.

75

Id.

49a
In fact, our cases suggest the contrary.76 The trial judge
did not abuse his discretion when he initially determined
that Appellant was competent to choose to represent
himself, and at no point during the pretrial proceedings
did his conduct require the judge to revisit this
determination.
Further, when a defendant exercises his right to selfrepresentation at trial, an appellate court’s analysis
generally focuses on whether the defendant was aware
of the dangers and disadvantages of selfrepresentation.77 Appellant does not challenge on appeal
the trial judge’s admonishments. And our review of the
record shows that the admonishments were sufficient.
The judge thoroughly reviewed the trial process with
Appellant, and Appellant repeatedly indicated that he
understood it. Given the option to proceed with
unwanted counsel or to represent himself—and after
being thoroughly and repeatedly admonished as to the
dangers and disadvantages of proceeding pro se—
Appellant persistently asserted his right to selfrepresentation. There is “nothing unfair in putting an
accused to this choice, so long as the trial court is
satisfied he is competent to make it, and that he does so
informedly and with eyes open.”78 Point of error five is
overruled.

76

See, e.g., Moore, 999 S.W.2d at 395; Dunn, 819 S.W.2d at 521-22.

77

Johnson v. State, 760 S.W.2d 277, 278 (Tex. Crim. App. 1988).

78

See Burgess v. State, 816 S.W.2d 424, 429 (Tex. Crim. App. 1991).

50a
Third Prong: Lack of Adversarial Hearing and Independent Counsel – Competence
In point of error six, Appellant complains that the
trial judge erred when he did not conduct an adversarial
hearing with independent counsel to ensure that
Appellant was competent to waive counsel and
represent himself despite his documented mental health
problems. He complains that his hearing was “entirely
non-adversarial,” and the result was “disastrous.”
Appellant cites no authority for his assertion that the
trial judge erred by failing to conduct an adversarial
proceeding with independent counsel. Therefore, this
point of error is inadequately briefed.79 In any event,
after making a preliminary inquiry, the trial judge found
no evidence that Appellant was incompetent to waive
counsel. And, as discussed above, Appellant need not be
competent to represent himself, only to choose to
represent himself.80 The judge’s determination is
supported by the record, which contains no evidence of
severe mental illness and includes Dr. Dunn’s report
concluding that Appellant was competent to stand trial.
The trial judge is “best able” to make that
determination.81 Point of error six is overruled.

79

See Tex. R. App. P. 38.1(i) (“The brief must contain a clear and
concise argument for the contentions made, with appropriate citations to authorities and to the record.”).
80

See Dunn, 819 S.W.2d at 523.

81

See Edwards, 554 U.S. at 177.

51a
Fourth Prong: Waiver of Counsel – Voluntariness
In point of error seven, Appellant asserts that the
trial judge erred in finding a voluntary waiver of counsel
because the judge did not adequately address his
complaints about court-appointed counsel or consider
alternatives to pro se representation. Appellant
contends that he made it clear he did not want to waive
counsel, and therefore the trial judge should not have
found a waiver. He avers that his qualified waiver of the
right to counsel was not intelligent, free, and voluntary,
and that the trial judge committed structural error by
allowing him to proceed pro se. He argues that such
error is not subject to a harm analysis, and therefore, he
is entitled to a new trial.
A defendant is not entitled to appointed counsel of his
choice.82 A defendant who is displeased with appointed
counsel must either show adequate cause for a change of
appointed counsel, accept the assigned attorney, or
effectively waive the right to counsel and represent
himself.83 Here, as discussed above, Appellant never
showed adequate cause for a change of counsel. Thus,
when Appellant did not want to accept appointed
counsel, his remaining option was to waive the right to
counsel and represent himself. Contrary to Appellant’s
assertion, the trial judge’s refusal to appoint new counsel
did not render his waiver involuntary. The trial judge
thoroughly admonished Appellant of the hazards of selfrepresentation. The judge refused to accept Appellant’s
82
83

See Dunn, 819 S.W.2d at 520.

Thomas v. State, 550 S.W.2d 64, 68 (Tex. Crim. App. 1977); Cain
v. State, 976 S.W.2d 228, 235 (Tex. App.—San Antonio 1998, no pet.).

52a
waiver unless it was “unconditional and unequivocal.”
Appellant ultimately agreed that his waiver was without
qualification. Likewise, Appellant’s motion to revoke his
pro se status did not render his waiver involuntary. “A
defendant may not use his right to counsel to manipulate
the court or to delay his trial.”84 Appellant began
representing himself in February 2014. He filed his
contingent motion to revoke his pro se status the day
before trial in August 2015. Yet long before August 2015
Appellant knew the factual bases that he asserted in
support of his need for counsel—specifically, the lack of
privacy in jail and his difficulties in addressing alleged
misconduct, reviewing discovery, and contacting
witnesses.
Appellant knowingly and voluntarily waived his
right to counsel; his waiver was unequivocal. Point of
error seven is overruled.
COMMENTS ON PRO SE STATUS
In points of error nine and nineteen, Appellant
complains that both the State and the trial judge made
inappropriate comments regarding his pro se
performance and undermined his efforts to represent
himself. This, he asserts, violated his right to proceed
pro se under the Sixth Amendment as well as his
fundamental right to a fair trial under the Fifth
Amendment.

84

See Culverhouse v. State, 755 S.W.2d 856, 861 (Tex. Crim. App.
1988).

53a
Appellant raises six challenges: (1) the prosecutor
disparaged Appellant’s conduct as a pro se litigant and
took advantage of his pro se status; (2) the trial judge
made negative expressions before the jury concerning
Appellant’s pro se performance; (3) the trial judge
routinely and erroneously overruled Appellant’s
objections; (4) the State “used” Appellant’s frustrated
reactions to these erroneous rulings as evidence against
him; (5) sheriff’s deputies had inappropriate and
prejudicial interactions with Appellant in the jury’s
presence; and (6) the cumulative effect of the errors
resulted in a deprivation of his right to counsel including
the right to proceed pro se. We will address each of these
complaints in turn.
(1) Disparaging Appellant’s Pro Se Status
Appellant complains of five specific instances in
which, he asserts, the prosecutor disparaged his conduct
as a pro se litigant. Appellant made no objections to the
first three.85 Therefore, he forfeited error as to those.86
Regarding the two instances as to which he preserved
error, Appellant alleges the following:
(a) The prosecutor engaged in a running,
derogatory commentary when she
questioned
Detective
Shine
about
85

The first three complained-of instances are the prosecutor’s statements that: Appellant “makes these ridiculous-looking faces”; Appellant “doesn’t care what the Court says or what the rules are”;
and, “In [Appellant’s] zero years of trying cases in the courtroom –
and I’m just trying to say – we object to his incessant objection.”
86

See Tex. R. App. P. 33.1(a); See Coble v. State, 330 S.W.3d 253, 282
(Tex. Crim. App. 2010).

54a
Appellant’s attitude during his videotaped
interview with Shine and another
investigator; and
(b) The prosecutor presented, at the
punishment phase, evidence of a pretrial
incident in which Appellant had been
accused of stealing exhibits, and then
published an audiovisual recording of
Appellant’s bad behavior during the
officers’ search for those exhibits.
We address each of these in turn.
(a) Running, Derogatory Commentary
At trial, the prosecutor played the audiovisual
recording of Appellant’s interview following his arrest.
The prosecutor then elicited Shine’s opinion testimony
concerning Appellant’s attitude during the interview—
leading with, at times, the prosecutor’s own commentary
or Shine’s previous statements. Shine agreed with the
prosecutor that Appellant treated the interview as a
“big game,” was sometimes sarcastic and mocking, was
callous, was a smart-aleck and had a “cold-blooded
heart.” At one point during Shine’s testimony, the
prosecutor stated: “[Jelena’s] laying in a refrigerator
unit at [the medical examiner’s office] in Dallas ... and
[Appellant’s] talking to you about ripping the grate
down to prove what a bad system—.”87

87

Deputies carried Appellant into the interview room, with his arms
and legs secured to a restraint chair. Appellant and investigators
discussed that he was secured in that manner because he had removed a metal grate from his jail cell wall, and then he brandished

55a
Appellant complains here that his objections to those
statements were improperly overruled.88 Appellant’s
trial objections that comport with his claims on appeal
were based on Rules 403, 404(b), and 701. His objections
to “inappropriate comment by the prosecution” and
“misrepresentation of the evidence” also comport with
his claims on appeal.89 Therefore, we will consider the
statements in regards to those objections.
Under Rule 701 of the Texas Rules of Evidence, a lay
witness can testify in the form of an opinion if the opinion
is (a) rationally based on the witness’s perceptions, and
(b) helpful to the clear understanding of the testimony or
the determination of a fact in issue. Even if a lay opinion
meets both requirements under Rule 701, a trial court
has discretion under Rule 403 of the Texas Rules of
Evidence to exclude the testimony if its probative value
is substantially outweighed by a danger of unfair
prejudice or misleads the jury. “The probative force of
it at a deputy who attempted to enter his cell. Appellant told investigators that he pulled the grate off the wall because he “was showing it was a weakness in their security system.... Their security system sucks.”
88

Appellant also complains that the prosecutor elicited Shine’s testimony that, during the interview, Appellant indicated that treating
his bruised leg was more important than talking about Jelena’s
death. Appellant also complains about Shine’s testimony that, at the
time of the interview, Shine believed Appellant had killed Jelena.
Appellant did not object at trial to this testimony. See Tex. R. App.
P. 33.1; see also Yazdchi v. State, 428 S.W.3d 831, 844 (Tex. Crim.
App. 2014) (“For a party to preserve a complaint for appellate review, the complaining party must make a specific objection and obtain a ruling on the objection.”).
89

See Tex. R. Evid. 403, 404(b), and 701.

56a
evidence refers to how strongly it serves to make the
existence of a fact of consequence more or less
probable.”90 Relevant evidence is presumed to be more
probative than prejudicial.91 Evidence is unfairly
prejudicial if it has the capacity to lure the fact-finder
into declaring guilt on a ground other than proof specific
to the offense charged.92 Further, the judge has
substantial discretion in balancing probative value and
unfair prejudice.93 We will uphold the judge’s ruling as
long as it is within the zone of reasonable disagreement.94
First, Shine’s testimony was admissible. Here, the
jury saw the recording of the interview before hearing
Shine’s commentary about it. Appellant sat with his back
to the camera during most of the interview. Shine, who
spoke with Appellant face-to-face, personally viewed his
facial expressions and demeanor during the interview.
Therefore, Shine’s Rule 701 opinion testimony was
probative of Appellant’s attitude during the interview;
it was rationally based on Shine’s perception and helpful
to clearly determining a fact in issue.95 And the evidence

90

Gonzalez v. State, 544 S.W.3d 363, 372 (Tex. Crim. App. 2018).

91

Santellan v. State, 939 S.W.2d 155, 169 (Tex. Crim. App. 1997).

92

Manning v. State, 114 S.W.3d 922, 928 (Tex. Crim. App. 2003).

93

Powell v. State, 189 S.W.3d 285, 288 (Tex. Crim. App. 2006).

94

Manning, 114 S.W.3d at 343-44.

95

See, e.g., Garcia v. State, 126 S.W.3d 921, 925 (Tex. Crim. App.
2004) (concluding that officers’ testimony describing the appellant
as “cocky,” “very calm, very matter-of-fact,” “very nonchalant, very
laid back and calm,” and at times “arrogan[t],” was evidence of his
lack of conscience or remorse); Motilla v. State, 78 S.W.3d 352, 359

57a
was not unfairly prejudicial given that the interview
itself was in front of the jury; the jury itself was able to
observe Appellant’s inflections and demeanor. Thus, the
trial judge acted within his discretion when he concluded
that this Rule 701 testimony was admissible under Rule
403.96
Second, the prosecutor’s comment about Jelena
“laying [sic] in a refrigerator unit” was a reasonable
inference from the evidence. The prosecutor made this
statement just after Shine testified that Jelena’s body
was in the medical examiner’s cooler while Shine was
questioning Appellant in Louisiana. Further, the
evidence established that Jelena’s body had been
transported to the medical examiner’s office and placed
in a cooler not long after 4:43 p.m. on October 31, 2012,
and it was removed for examination at 7:00 a.m. on
November 1.
Appellant removed the grate from his jail cell wall
some time after his arrest around 11:00 p.m. on October
31st, but prior to discussing his removal of the grate with
investigators when the interview began around 3:00 a.m.
on November 1st. Appellant talked about removing the
grate at the beginning of this interview, while he was
still secured in the restraint chair. The trial judge did not
(Tex. Crim. App. 2002) (stating that an appellant’s reluctance to answer questions in his recorded statement to investigators demonstrated a lack of remorse, and the jury could have regarded his attitude of defiance and apathy as evidence of his intent to kill).
96

We also note that similar testimony had already been admitted
without a Rule 701 objection. See Coble, 330 S.W.3d at 282 (stating
that erroneously admitted evidence will not result in reversal when
the same evidence was received elsewhere without objection).

58a
abuse his discretion by overruling Appellant’s objection
to “misrepresentation of the evidence.”
To the extent that Appellant objected to the rest of
the prosecutor’s comments during examination, we need
not determine whether the judge erred by overruling
these objections because the prosecutor’s comments
were harmless. As an initial matter, they were not
evidence; the prosecutor’s parroting of Shine’s own
words while framing questions, for instance, was
gratuitous but innocuous.97 And the jury was instructed
that the lawyers’ statements were not evidence.98
Further, jurors had viewed the recording of the
interview and could judge for themselves whether the
prosecutor’s and Shine’s characterizations were
accurate.99 We have fair assurance that error, if any, did
97

See, e.g., Madden v. State, 242 S.W.3d 504, 515 (Tex. Crim. App.
2007) (“[Q]uestions on cross-examination cannot, by themselves,
raise a disputed fact issue.”).
98

Specifically, the jury charge stated:
Remember that any statements, objections, or arguments made by the lawyers are not evidence.
The function of the lawyers is to point out those
things that are most significant or most helpful to
their side of the case, and in so doing to call your
attention to certain facts or inferences that might
otherwise escape your notice. In the final analysis,
however, it is your own recollection and interpretation of the evidence that controls the case. What the
lawyers say is not binding upon you.

99

Cf. Fairow v. State, 943 S.W.2d 895, 899 (Tex. Crim. App. 1997)
(“[W]hile a witness cannot possess personal knowledge of another’s
mental state, he may possess personal knowledge of facts from
which an opinion regarding mental state may be drawn. The jury is

59a
not affect the result because the evidence of Appellant’s
guilt was overwhelming.100
(b) Evidence Involving Stolen Exhibits
We next turn to Appellant’s complaint about the
prosecutor putting on evidence that he stole exhibits
from the courtroom. Following a pretrial hearing, the
court coordinator raised the subject of the missing
exhibits. Appellant acknowledged that, a day before the
hearing, he had received a request to look for those
exhibits. He told the judge that he did not have them but
said he would look again. He asked the judge to give him
until the following Tuesday to produce them because his
papers were in disarray. He stated that it would be hard
for him to find them, but he was “sure they’ll turn up if I
have them; if not, then it’s not my responsibility.”
Pointing out that Appellant often shredded papers in
his cell, the prosecutor requested that the trial judge
order the sheriff’s office to search the cell before
Appellant “shred[ded] [the exhibits].” Accordingly, the
judge ordered the sheriff to take action that same day.
Specifically, the sheriff’s deputies would give Appellant
then free to give as much or as little weight to the opinion as it sees
fit.”); see, e.g, Jackson v. State, 822 S.W.2d 18, 30 (Tex. Crim. App.
1990) (stating that an officer who witnessed a defendant giving a
statement to another officer could testify to his opinion that the defendant gave the statement voluntarily because such testimony was
a “mere shorthand rendering of the facts” demonstrating the defendant’s mental attitude or emotional state).
100

Motilla, 78 S.W.3d at 357 (“‘[T]he presence of overwhelming evidence supporting the finding in question can be a factor in the evaluation of harmless error.’”) (quoting Wesbrook v. State, 29 S.W.3d
103, 119 (Tex. Crim. App. 2000)).

60a
another opportunity to search his cell for the exhibits,
but if he still did not produce them, then the deputies
would search for them.
The recording of the deputies’ search for these
exhibits captured Appellant’s uncooperative conduct
and refusal to search for the exhibits.101 The deputies
carried Appellant’s papers to a room with tables and
chairs. Appellant was present throughout the search. He
repeatedly refused the deputies’ offers to let him go
through his paperwork himself, even as he complained
that they were violating his rights by looking at his work
product, getting his materials out of order, and
wrinkling his papers.102
Lieutenant John Shoemaker located the missing
exhibits on top and inside of a book that had been placed
inside an envelope. When Shoemaker informed
Appellant that they were taking the envelope, Appellant
asserted that they had no authority to do that and could
not take his personal property. While the deputies were
carrying Appellant’s papers back to his cell, he displayed
further disruptive conduct.103
101

Appellant argued and wrestled with deputies, saying, “I can’t allow you to take my work product.” He accused them of conducting
an illegal search and told them that they were “essentially letting
me free now” because an appellate court would conclude that the
search was illegal.
102

He also repeatedly accused Deputy Sheffield of “resequencing
[his] paperwork” and commented, “I understand it’s after your bed
time.”
103

Specifically, Appellant demanded, “I want all that back in my cell
the way you got it.” Although he had not looked through his papers,
he complained that items were missing. As deputies unloaded his

61a
At a pretrial hearing four days later, the court
reporter identified the recovered exhibits. The trial
judge denied Appellant’s motion to suppress them as the
fruits of an illegal search. Over Appellant’s objection, the
trial judge admitted the audiovisual recording of the
search.
The trial judge noted the orderly way in which these
exhibits had been placed inside the book and envelope,
with the lists on top of the book and the photos between
the pages. The judge observed that this placement
showed that the person who handled them was “very
aware that these were exhibits.” He stated that
Appellant would have known that these materials were
exhibits when he took them; he refused opportunities to
search for them; and the deputies who searched for them
properly followed the judge’s order. The judge
concluded, “[T]he Court finds [Appellant] knowingly
took these photographs and these two documents, put
them in the brown envelope, and took them back to [his]
cell.” The judge held Appellant in contempt for his
“deliberate actions in secreting these exhibits.” The
judge imposed the maximum sentence of six months and
warned Appellant that he was very close to rescinding
his pro se status.
Appellant now avers that, if he had been treated like
an attorney and given a chance to look for the missing
papers into his cell, he complained that someone had gone through
his clothes while he was gone. He was upset that deputies were placing his papers on the floor (even though they had been on the floor
before the search began), and he accused them of stepping on the
papers and wadding them up. He stated that he would tell the judge
what they had done to his paperwork.

62a
exhibits, this incident would not have occurred and he
would not have displayed poor conduct. However, the
record reflects that Appellant refused at least two
opportunities to look for the exhibits. To the extent that
Appellant complains that the judge should have given
him more time to search, the record shows that he did
not make use of the time he had, and that the trial judge
reasonably ordered a search that provided Appellant
with an opportunity to produce the exhibits while
minimizing his opportunity to destroy them. Further,
Appellant’s disruptive and disrespectful conduct during
the search was relevant punishment-phase evidence
demonstrating that he could not or would not control
himself even when he knew that his conduct was being
recorded.104 We reject Appellant’s complaint about the
prosecutor’s use of this evidence during the punishment
phase.
(2) The Judge’s Negative Comments on Appellant’s
Pro Se Performance
Appellant argues that, before the jury, the trial
judge expressed his unfavorable views of Appellant’s
pro se performance.105 A criminal defendant has a due

104
105

See Tex. Code Crim. Proc. art. 37.071, § 2(a)(1).

The record shows that Appellant did not object to any of the
judge’s statements that he now complains about. However, when a
judge comments improperly on the weight of the evidence or conveys to the jury his opinion of the case, this error is not forfeited on
appeal by a party’s inaction at trial. See Proenza v. State, 541 S.W.3d
786, 798-99 (Tex. Crim. App. 2017).

63a
process right to proceed before an impartial court.106 But
a court’s efforts at courtroom administration are not a
valid basis for finding judicial bias, even if they include
“expressions of impatience, dissatisfaction, annoyance,
and even anger.”107 Further, “opinions formed by the
judge on the basis of facts introduced or events
occurring in the course of the current proceedings, or of
prior proceedings, do not constitute a basis for a bias or
partiality motion unless they display a deep-seated
favoritism or antagonism that would make fair judgment
impossible.”108
To constitute reversible error, a trial judge’s
comment must be reasonably calculated to benefit the
State or prejudice the defendant’s rights.109 We will
reverse the judgment and remand the case for a new
trial “when the court has misdirected the jury about the
law or has committed some other material error likely to
injure the defendant’s rights.”110
Appellant complains about the trial judge’s
statement: “I don’t want to use the word ‘waste,’ but I
don’t want to take up any more of the jury’s time on
this.” He asserts that this comment expressed the trial

106

See Brumit v. State, 206 S.W. 3d 639, 645 (Tex. Crim. App. 2006)
(“Due process requires a neutral and detached hearing body or officer.”); see also Tumey v. Ohio, 273 U.S. 510, 523, 535 (1927).
107

Liteky v. United States, 510 U.S. 540, 555-56 (1994).

108

Id. at 555.

109

Becknell v. State, 720 S.W.2d 526, 531 (Tex. Crim. App. 1986).

110

Tex. R. App. P. 21.3(a)(b).

64a
judge’s opinion on Appellant’s cross-examination of
L.C.’s therapist, Judith Lester.
The record shows that, after Appellant’s crossexamination of Lester, the parties and the judge began
discussing, in the jury’s presence, whether Lester would
be finally excused or subject to recall. Lester explained
that she had rearranged her clinical practice schedule in
order to travel from Ohio to testify. The trial judge then
stated:
Okay. All right. Well, you’re here now. Let
me take it -- I don’t want to use the word
“waste,” but I don’t want to take up any
more of the jury’s time on this, because I’ll
take it up outside their presence without
them sitting here listening to it, since it’s a
matter between the Court and defendant
and State.
This record does not support Appellant’s position
that the judge’s comment conveyed displeasure with his
performance as a pro se defendant. In context, it is
apparent that the judge used the term “waste” in
reference to taking up the jury’s time with the discussion
of Lester’s schedule. The judge made the comment in the
course of managing trial logistics and scheduling. The
comment did not bear on the presumption of innocence
or vitiate the impartiality of the jury.111

111

See id.; see also, e.g., Sensley v. Albritton, 385 F.3d 591, 599 (5th
Cir. 2004) (noting that an appellate court reviewing a decision under
28 U.S.C. § 455(a), which requires the disqualification of a federal
judge “in any proceeding in which his impartiality might reasonably
be questioned,” must inquire into how all of the facts “would appear

65a
Appellant next contends that, as the judge excused
the jury, the judge implied that Appellant was
responsible for the slow pace of the trial. Specifically, the
judge advised the jury that he had hearings the
following morning (“a succession of hearings in the
morning, or what you might call -- it wouldn’t surprise
you -- a lengthy hearing in the morning”) with multiple
witnesses. Because those hearings were on the Friday
before Labor Day, the judge told the jury to return the
following Tuesday. The judge then stated:
That way I don’t run the chance just wasting your time sitting in the jury room because we have multiple witnesses to hear
in the morning outside your presence. And
basically what you’ve seen so far, you
probably understand why I’m anticipating
it will take a while.
In context, the judge’s comment to the jury about
“what you’ve seen so far” referred to the jury having
already spent time waiting in the jury room during
hearings that took “a while.” Further, the judge’s use of
the word “waste,” in context, referred to the jurors
potentially wasting their time by waiting in the jury
room while the judge held the hearings. This record does
not support Appellant’s characterization of the judge’s
statement as an unfavorable comment on his pro se
representation.

to a ‘well-informed, thoughtful and objective observer, rather than
the hypersensitive, cynical, and suspicious person’”) (quoting
United States v. Jordan, 49 F.3d 152, 156 (5th Cir. 1995)).

66a
(3) Overruling Appellant’s Objections
Appellant complains that the trial judge routinely
overruled his objections, even when they were wellfounded. He first complains of an instance in which the
prosecutor asked Officer Cummings to describe how he
had spent the day of the offense—that specific
Halloween—with his own daughter. Appellant avers
that the trial judge overruled his objection without
giving him an opportunity to make a record of the
ground, stating, “Listen to me. Listen to me. Your
objection to that question is overruled. That’s the
Court’s ruling.” Cummings then testified that he spent
part of that Halloween evening with his daughter, “the
first Halloween my child was walking”; his ex-wife had
brought her to the police station for trick-or-treating.
The prosecutor stated, “And after that, you
apprehended this defendant. It’s significant because you
put your life on the line after being with your little girl.”
Cummings agreed. The prosecutor added, “I guess you
saw little [L.C.] .... That kind of hits home with you when
you have a little girl like you did.” Cummings answered,
“It does.”
This evidence was not relevant and therefore was
inadmissible.112 But the error was harmless. By the time
the prosecutor questioned Cummings about Halloween,
Appellant himself had elicited Cummings’s emotional
response to Appellant endangering L.C.113 The error in
112
113

Tex. R. Evid. 402 (“Irrelevant evidence is not admissible.”).

On cross-examination, Appellant asked Cummings, “You have
pretty strong feelings about this case, don’t you?” Cummings asked
him what he meant. Appellant stated, “Well, you testified to the way
it affected you, the way you felt about the person you identified as

67a
admitting Cummings’s testimony about how he spent
Halloween with his daughter was harmless.114
Appellant next complains about an exchange in
which the prosecutor asked Detective Williams, “If you
had to guess who that wallet belonged to, who would it
be?” The record shows that before the prosecutor asked
this question, Williams identified the wallet as the one
that he had found on the floor of Appellant’s car, and he
established the chain of custody. The prosecutor then
asked Williams, “[W]hose wallet was that?” Williams
responded, “It contains a Texas driver’s license
belonging to [Appellant].” The prosecutor then offered
the wallet and its contents into evidence “for all
purposes.” The trial judge admitted the wallet over
Appellant’s objections.
The prosecutor then asked Williams if anyone in the
courtroom “fit the photograph” on the driver’s license
found in the wallet, and Williams pointed to Appellant.
Williams testified that the wallet also contained a Texas
A&M alumni card with Appellant’s name, as well as a
voting card with Appellant’s name and address. The
prosecutor then asked, “If you had to guess who this
wallet belonged to, who would it be?” Appellant objected
based on speculation, which the trial judge overruled.
[L.C.] and so forth, correct?” Cummings replied, “I do feel strongly
about how you endangered your child, yes.”
114

See, e.g., Gardner v. State, 306 S.W.3d 274, 293 (Tex. Crim. App.
2009) (“[A]ny possible error in the admission of State’s Ex. 36 was
harmless because appellant affirmatively stated ‘No objection’
when a sample cut from that robe was introduced into evidence as a
comparison sample to the red fibers found in the white truck appellant had borrowed from his brother-in-law.”).

68a
Williams testified, “I wouldn’t have to guess. I know
exactly who it belongs to.”
The prosecutor’s phrasing, “If you had to guess who
this wallet belonged to,” may have been somewhat
flippant, but it did not invite speculation. “Speculation is
the mere theorizing or guessing about the possible
meaning of the facts and evidence presented.”115 The
prosecutor was not asking Williams to theorize or guess
about facts or evidence outside his personal
knowledge.116 Therefore, the trial judge did not err in
overruling Appellant’s objection. In addition, Appellant
avers that, in three other instances, the trial judge
overruled his proper objections. He provides record
cites without elaboration. He also refers generally to
“numerous other, similar examples” of the prosecutor
taking unfair advantage of his pro se status and the trial
judge overruling his proper objections. We decline to
make Appellant’s arguments for him regarding the
“numerous other examples” or to search the record for
additional instances of potential error.117

115

Gross v. State, 380 S.W.3d 181, 188 (Tex. Crim. App. 2012).

116

See Fairow, 943 S.W.2d at 902 (“Personal knowledge is required
because testimony without personal knowledge is pure speculation
and conjecture.”).
117

See Tex. R. App. P. 38.1(i) (“The brief must contain a clear and
concise argument for the contentions made, with appropriate citations to authorities and to the record.”); see also, e.g., Wyatt v. State,
23 S.W.3d 18, 23 n.5 (Tex. Crim. App. 2000) (“[The] appellant points
us to nothing in the record, makes no argument, and cites no authority to support this proposition. We will not make appellant’s arguments for him and hold the allegation to be inadequately briefed.”).

69a
(4) Use of Appellant’s Courtroom Conduct as Evidence
Against Him
Appellant also complains that the State improperly
“used” his negative reactions to the trial judge
overruling his objections as punishment-phase evidence
against him. However, Appellant’s reactions during the
proceedings could properly be considered as
punishment-phase evidence because they demonstrated
his inability or unwillingness to control his temper and
conform his conduct to the rules of the court.118
(5) Deputies’ Interactions with Appellant
Appellant complains about the sheriff’s deputies’
interactions with him in the jury’s presence. Specifically,
Appellant asserts that, because he failed at times to
“stand” or “sit” promptly while trying to make
objections, he was often physically pushed down by
courtroom deputies, in front of the jury, and then
ultimately (and wrongfully as discussed above)
subjected to the electric shock outside the jury’s
presence.
But, as we stated above, a court’s efforts at
courtroom administration are not a valid basis for
finding judicial bias, even if they include “expressions of
impatience, dissatisfaction, annoyance, and even
118

See, e.g., Coble, 330 S.W.3d at 267 (citing evidence of the appellant’s courtroom conduct of turning around to stare at a witness and
repeatedly giving her a “weird evil grin” as evidence of his future
dangerousness); Martinez v. State, 327 S.W.3d 727, 736-37 (Tex.
Crim. App. 2010) (finding that evidence that the appellant threatened a witness as she walked past him in the courtroom was admissible under Rules 401 and 403).

70a
anger.”119 And the record reflects that Appellant’s
conduct caused any “friction” that was apparent to the
jury. He ignored the judge’s instructions and repeatedly
interrupted witnesses’ testimony even after the judge
had ruled it was admissible. For example, while crossexamining his sister Debbie Campbell, Appellant asked
her whether she, personally, had ever seen him
physically abuse his ex-wives. She responded that she
had not, although she had seen the after-effects of the
abuse. On redirect examination, the prosecutor asked
Campbell about an incident in which Appellant had
physically abused Adams. When Appellant objected to
hearsay, the prosecutor argued that Appellant’s crossexamination had opened the door to the State’s
questions about Appellant’s abuse of his ex-wives. The
trial judge agreed and overruled Appellant’s objection.
The judge then informed Appellant that he did not
have to keep objecting in order to preserve error.
However, every time Campbell began to answer a
question, Appellant objected again, repeating the same
grounds each time. He further interrupted Campbell’s
testimony to object on additional grounds. The judge
instructed Appellant that once the judge ruled,
Appellant needed to let Campbell answer the question.
But Appellant continued objecting, and this exchange
between Appellant and the trial judge repeated itself
multiple times, with the trial judge instructing
Appellant to “[h]ave a seat.”
Appellant then objected to “this person, [Officer]
Sheffield, touching me right now.” The judge overruled
119

Liteky, 510 U.S. at 555-56.

71a
this objection and Appellant again objected. The judge
then held a recess to discuss the matter outside the
jury’s presence. The judge then stated:
[Appellant], I’m warning you again that
Officer Sheffield is following the Court’s
instructions that once I rule, you know you
are supposed to sit down....[S]it down
when the Court rules, and [the jury] won’t
see anything but you sitting down after I
rule. You’re forcing this by continuing on.
And I’m instructing you again, when I rule,
that’s it.
Once the jury returned, Appellant, after another
objection, finally allowed Campbell to complete her
answer to the prosecutor’s question.
This part of the trial record documents just one of
many instances in which Appellant’s own defiant and
disruptive behavior precipitated the deputies’ conduct.
Appellant’s complaint is without merit.
(6) Cumulative Effect
Appellant argues that the cumulative effect of these
alleged errors resulted in a deprivation of his right to
counsel, including the right to proceed pro se. He states
that, because impairments of the right to counsel and
other errors involving the fundamental fairness and
integrity of the trial itself are “structural,” he is entitled
to a new trial.
We reject Appellant’s characterization of these
alleged errors, most of which concern evidentiary
rulings, as violations of his right to proceed pro se or any

72a
other constitutional right. Many errors concerning the
erroneous admission of the State’s evidence or the
erroneous exclusion of a defendant’s evidence are nonconstitutional.120
We also reject Appellant’s characterization of these
alleged errors as “structural.” Structural errors “affect
the ‘framework within which the trial proceeds.’”121 Only
“a very limited class” of errors is structural,122 which
does not include the erroneous admission of evidence We
reiterate that a pro se defendant is bound by the same
rules and requirements and is subject to the same risks
and pitfalls as a professional attorney.123 Here, the trial
judge admonished Appellant at length regarding these
issues. Having found no structural error, and having
determined that any other error was harmless, we
conclude that the cumulative effect is likewise harmless.
Points of error nine and nineteen are overruled.
REVOCATION OF PRO SE STATUS
In point of error ten, Appellant asserts that, to the
extent he had a constitutional right to proceed pro se,
the trial judge terminated his right for inadequate
reasons. Appellant contends that his remark to the
judge, “I’m sure the Court very much enjoyed that”—
120

Easley v. State, 424 S.W.3d 535, 540 (Tex. Crim. App. 2014).

121

Marcus, 560 U.S. at 263 (quoting Johnson v. United States, 520
U.S. 461, 468 (1997)).
122

Lake v. State, 532 S.W.3d 408, 413 (Tex. Crim. App. 2017) (quoting
United States v. Davila, 569 U.S. 597, 611 (2013)).
123

Williams, 252 S.W.3d at 356; Johnson, 760 S.W.2d at 279.

73a
after being subjected to “a severe electric shock”—did
not justify revoking his right to self-representation. He
urges this Court to reverse his conviction and death
sentence based on the denial of his right to selfrepresentation.
Generally, a defendant should be allowed to proceed
pro se if the defendant clearly, unequivocally,
unconditionally, and timely asserts his right to selfrepresentation; knowingly and intelligently maintains
his desire to proceed pro se after being warned of the
consequences; and does not assert this right in order to
disrupt or delay the proceedings.124
However, “[t]he right of self-representation is not a
license to abuse the dignity of the courtroom” or to
disregard relevant rules of procedural and substantive
law.125 “[T]rial judges confronted with disruptive,
contumacious, stubbornly defiant defendants must be
given sufficient discretion to meet the circumstances of
each case.”126 “[T]he trial judge may terminate selfrepresentation by a defendant who deliberately engages
in serious and obstructionist misconduct.”127
Here, in explaining his decision to revoke Appellant’s
pro se status, the trial judge pointed to Appellant’s
statement, “I’m sure the Court very much enjoyed that,”
124

See, e.g., Hubbard v. State, 739S.W.2d341, 343-15 (Tex. Crim.
App. 1987); Blankenship v. State, 673 S.W.2d 578, 584-85 (Tex.
Crim. App. 1984).
125

Faretta, 422 U.S. at 834 n.46.

126

Illinois v. Allen, 397 U.S. 337, 343 (1970).

127

Faretta, 422 U.S. at 834 n.46 (citing Allen, 397 U.S. at 343).

74a
as well as all of his prior disruptive conduct. Although
the judge pointed to all of Appellant’s prior disruptive
conduct, we discuss Appellant’s disruptive conduct only
on the day that the judge revoked his pro se status.
Suffice it to say that Appellant’s conduct on that day was
consistent with his conduct on previous days.
After Jelena’s murder but prior to Appellant’s
arrest, officers searched Appellant’s mother’s house
(where Appellant also lived) without a warrant.
Appellant filed a pretrial motion to suppress any
evidence seized from the house, and the prosecutor
agreed not to present any such evidence. Yet, on the day
the judge revoked Appellant’s pro se status, and after
previous failed attempts at questioning other
investigators about the search of his mother’s house,
Appellant attempted to question Shine about the search.
When Appellant first asked Shine whether investigators
had entered Appellant’s mother’s house, the prosecutor
objected. The trial judge sustained the objection.
Appellant responded that the trial judge had denied his
motion to suppress, but the judge reiterated that the
prosecutor’s objection was sustained.
Appellant stated that, “I think the jury needs to
know the truth, your honor, as far as—.” The judge
interrupted him, stating that “the truth” was that the
State had agreed to his motion to suppress the search of
his mother’s house. Appellant argued that the State had
never agreed and that the trial judge had denied his
motion. The prosecutor responded that the State had
agreed to the motion.
The judge admonished Appellant that he was
sustaining “any objection and anything related to

75a
anything taken out of your mother’s house,” and directed
Appellant to ask another question. But Appellant again
asked Shine about the search, the prosecutor again
objected, and the judge again sustained the objection.
Yet Appellant persisted in his questioning. The trial
judge again ordered Appellant not to raise the search of
his mother’s house before the jury. Appellant responded
that his question had “nothing to do with [his] motion to
suppress.” At that point, the judge excused the jury.
Appellant again asserted that the State never agreed
to his motion. The judge again admonished Appellant
about arguing with him, stating:
You’re right in that category of a defendant that the Court can terminate your
right to represent yourself. I don’t really
want to do that, but you’re putting me in a
position where I can’t go on like this. We
can’t get this case finished in front of the
jury with you conducting yourself in this
manner. Do you understand the Court’s
ruling?
Appellant responded, “I would move the Court to
recuse himself then.” The judge stated that there was no
basis for recusal, and “[e]verything taking place right
now is [what] you [are] generating and causing.” He
added, “These deputies are not going to put up with you.
You know the remedy they have got. And if you think
somehow in your mind if they deploy that remedy there
is going to be a mistrial, you can forget it.”
The judge reiterated that Appellant must not
mention his mother’s house. The trial judge, Appellant,

76a
and the State again went back and forth about whether
the State agreed to the motion to suppress. The judge
warned Appellant that if he asked a witness about the
search, the judge would terminate his right to represent
himself. The judge stated, “If you rebel against that
order, if you’re defiant of that order, then I can’t control
the courtroom, and I can’t control the proceedings. And
you won’t be representing yourself anymore, and you
[will] have caused it all.”
When the jury returned, Appellant again brought up
the search of his mother’s house. The trial judge again
excused the jury. The judge admonished Appellant
about his defiant and rebellious conduct. He stated that
he was “now convinced [he could] not get this case tried
under the Rules of Evidence” with Appellant
representing himself. Appellant responded that he had
not gone into the motion to suppress. When the judge
asked Appellant if he understood the judge’s ruling,
Appellant answered, “I just want the truth.”
After the jury returned, the judge instructed
Appellant to “continue with your cross under the rulings
of the Court.” Appellant immediately stated, “I object,
Your Honor, because I’m not able to—.” The judge
interrupted him and told him that his objections were on
the record and he needed to ask questions. Appellant
responded, “These are separate objections, Your Honor.
I object to not being able to effect a defense in front of
the jury.” The judge interjected that Appellant’s
objections were “all overruled” and again instructed
Appellant to question the witness. Instead, Appellant
continued his objection, stating, “[u]nder the Sixth
Amendment.”

77a
After returning to his questions, Appellant
repeatedly asked Shine questions that Shine did not
know the answer to.128 Appellant then began reading
aloud from a property sheet that listed items taken from
his vehicle, repeatedly asking Shine if he remembered
the items on that list. The prosecutor objected that
Appellant needed to show Shine the property sheet
rather than read from it. Appellant then showed Shine
the property sheet, but it did not refresh Shine’s
memory.
At that point, Appellant interrupted his own
questioning to object that a deputy was a foot-and-a-half
from him and was looking at his evidence. The judge
responded that the deputy was not disturbing the
evidence and directed Appellant to continue questioning
Shine. But Appellant stated that the deputy was “a
witness.” The judge responded that the deputy was not
a witness “in this part of the case,” and again instructed
Appellant to continue examining Shine.
Appellant, talking about the courtroom deputy,
complained, “this person is still talking to me and
disrupting me, so I would move the Court to admonish
128

Specifically, Appellant repeatedly asked Shine questions about
the arrest warrant that Shine did not know the answer to. Eventually, the prosecutor objected that the question had been asked and
answered. Appellant responded that he was now asking a different
question, which was what time Shine had spoken with the officer
who prepared the affidavit for the arrest warrant. Shine again answered that he did not know. Appellant then asked Shine what time
he and the other investigators had arrived at the crime scene, and
Shine stated that he did not know “exactly what time we arrived.”
Appellant further questioned Shine about other matters that Shine
did not know about, leading to more objections by the State.

78a
him as far as to back away—.” The judge responded that
if he admonished anyone, Appellant knew who it would
be, and he instructed Appellant to “sit down and ask the
next question.” The prosecutor interjected to clarify
what the deputy had said.129 Appellant began, “Your
Honor—,” but the judge interrupted him, stating that
there were “14 people sitting over here,” and, “Let’s
show enough courtesy to ask the questions instead of
arguing about these other matters. If you’ve got a
question, ask it.”
Appellant then continued to ask Shine about other
items taken from the car. The prosecutor objected that
this questioning was “repetitive.” The judge sustained
the objection. After questioning Shine about other
things in the vehicle,130 Appellant then began
questioning Shine about his role in searching and
securing the vehicle, and the prosecutor objected to the
form of the question and relevance. The trial judge
sustained the objection. Appellant objected “under a
right to cross-examine the witness. Obviously, that’s a
Sixth Amendment right.” The judge overruled the
objection and told Appellant to “[h]ave a seat.”
129

“[J]ust for the record, ... I can hear [the deputy] ..., and all he said
was, ‘Stand up. Stand up when you address the Court.’ He’s trying
to make the defendant follow the Court’s instructions.... It’s the defendant’s actions that are causing the deputies ... to do what they
do.”
130

Specifically, Appellant asked Shine what he thought about the
shooting target that was found in the trunk of the car. Shine stated
that he did not form any conclusions or opinions. Appellant asked
Shine, “Now, none of the photographs of the trunk show the target,
correct?” Shine responded that he did not recall.

79a
Appellant then turned his questioning to the topic of
his interview. Appellant challenged Shine’s authority
and jurisdiction to interview him in West Monroe,
Louisiana. The prosecutor objected that Appellant was
misstating the law regarding jurisdiction. The judge
sustained the objection. Appellant began, “Well, I
didn’t—,” and the judge told him to stand up. Appellant
again asked Shine why he did not wait until after
extradition to conduct the interview.
Appellant then read some of his own exculpatory
statements from the transcript of his interview and
asked Shine to confirm that Appellant had said those
things. The prosecutor objected, and the judge sustained
the objection. Next, Appellant questioned Shine about
Appellant’s comment on the State’s copy of the recorded
interview: “Do you have a plea offer for me?” Appellant
claimed that this comment was not on his copy of the
recorded interview. The prosecutor objected that they
previously had a hour-long recess where Appellant was
asked to produce evidence supporting that allegation,
but Appellant had not done so.131 The judge sustained the
objection.
Appellant then examined Shine about the process of
making the recording. Appellant stated that he
“need[ed] to see the file dates and—.” The judge
admonished him to stand up. Appellant then repeated: “I
131

Before this exchange, standby counsel had testified outside the
jury’s presence that he had heard Appellant’s comment about a plea
offer when he listened to Appellant’s copy of the interview. And the
prosecutor reminded the judge of the State’s motion in limine to
prevent Appellant from asking Shine if he had tampered with the
recordings.

80a
need to review the file dates and times of the video.” The
prosecutor objected to relevance, and the judge
sustained the objection. Appellant then began, “Well,
Your Honor, I’m just trying to show—and I understand
that—.” A sheriff’s deputy interrupted to tell him, “If
you’re going to speak to the Court, stand up. Last
chance.” The judge stated, “Let’s get it over with. Stand
up, [Appellant]. It won’t work out good if you don’t stand
up, believe me.”
When Appellant continued examining Shine about
the recording process, the prosecutor objected that
Shine had not made the recording and so he was the
wrong person to ask. The trial judge sustained the
objection. Appellant then asserted that he could use his
copy of the interview to show that the recording had
been altered. The judge stated that he would take that
up outside the jury’s presence in order to determine
relevance, and then Appellant would have another
opportunity to present his evidence. The judge added,
“You can shake your head, smile if you want to. Doesn’t
bother the Court. That’s the Court’s ruling. If you have
any other questions for Detective Shine, ask them.”
Appellant questioned Shine about the second vehicle
search, in which Shine had found the current license
plates for Appellant’s car under the front passenger-side
floor mat. Appellant directly accused Shine and other
law enforcement officers of planting the license plates in
Appellant’s car. Shine categorically denied the
accusation, noting that it was “totally baseless” and
offensive. Appellant began to respond to Shine, but the
judge cut him off and told him to ask his next question.
Appellant then asserted through questioning that Shine

81a
and other officers had planted the rifles found in
Appellant’s trunk at the time of his arrest. Appellant
seemed to imply that the officers could have obtained the
rifles from his mother’s house. The prosecutor objected,
and the judge sustained the objection.
After asking repetitive questions about other
evidence, Appellant asked Shine if he had personal
knowledge of the contents of a laptop bag found in the
car. Shine stated that he did not, but that he could testify
about the recovered items if he had the property sheets.
Appellant told the judge that he could not find his copies
of the property sheets and asserted that the State could
provide them. The prosecutor refused. Lacking the
property sheets, Appellant showed Shine photographs
of the items in question and asked him if those items had
been in the vehicle. The prosecutor successfully
objected. Appellant again asked the prosecutor to hand
the witness her copies of the property sheets so that the
witness could refresh his memory. The prosecutor again
declined.
Appellant then questioned Shine about the
ammunition scattered throughout the vehicle. Appellant
asked if Jelena was shot with “target ammunition,” and
continuously asked about the damage caused by
different types of ammunition. The prosecutor objected,
and the judge sustained the objection.
Turning to the police report, Appellant
acknowledged that he had received a copy in discovery,
but he asserted that he did not have it with him, so he
took Shine’s copy. Appellant began questioning Shine
about details recorded in it. The prosecutor objected,
and the judge sustained the objection. Appellant

82a
complained that he was unable to question Shine. The
judge then recessed for the day and dismissed the jury.
This is when the shock incident occurred.
Outside the presence of the jury, the judge asked
Appellant where he was going with this line of
questioning. Because Appellant refused to stand while
addressing the judge, a deputy activated the shock cuff.
After he was shocked, Appellant commented, “I’m sure
the Court very much enjoyed that.” The judge then
reinstated standby counsel to represent Appellant.
This record reflects that the trial judge had adequate
cause to revoke Appellant’s pro se status because he
“deliberately engage[d] in serious and obstructionist
misconduct.”132 Despite the trial judge’s repeated rulings
and admonitions, Appellant refused to abandon a line of
questioning about a search that he had successfully
moved to suppress. Twice, outside the jury’s presence,
the trial judge reiterated and explained his rulings
excluding testimony about that search and warned
Appellant that he was in danger of losing his pro se
status. Further, when Appellant was given the
opportunity to present evidence that the audiovisual
recording of the interview had been altered, he failed to
do so. Nevertheless, he attempted to inform the jury
that the recording had been altered. It appears from the
record that, when the judge stated that he would take
that matter up outside the jury’s presence, Appellant
shook his head and smiled. Even after the trial judge
ruled that asking Shine questions that other
investigators had already answered was repetitive and
132

See Faretta, 422 U.S. at 834 n.46.

83a
“a waste of time,” Appellant continued with those
questions. With no good-faith basis, Appellant accused
Shine and other investigators of planting evidence.
Appellant repeatedly refused to comply with
relevant rules of procedural and substantive law. Based
on Appellant’s defiant and disruptive conduct, the judge
revoked his pro se status. On this record, we conclude
that the trial judge did not abuse his discretion by
revoking Appellant’s pro se status. Point of error ten is
overruled.
CLOSING ARGUMENT – GUILT PHASE
In point of error eleven, Appellant contends that the
prosecutor engaged in egregious misconduct during
closing argument at the guilt phase in violation of due
process. Further, he argues, given the magnitude,
extent, and egregious nature of the misconduct, the
errors are not harmless.
The principal purpose of closing argument is to
facilitate the jury in properly analyzing the evidence
presented at trial so that it may “arrive at a just and
reasonable conclusion based on the evidence alone, and
not on any fact not admitted in evidence.”133 There are
four proper areas of jury argument: (1) summation of the
evidence; (2) reasonable deduction from the evidence; (3)
answer to argument of opposing counsel; and (4) plea for

133

Campbell v. State, 610 S.W.2d 754, 756 (Tex. Crim. App. 1980)
(panel op.) (quoting Stearn v. State, 487 S.W.2d 734, 736 (Tex. Crim.
App. 1972)).

84a
law enforcement.134 “[C]ounsel is allowed wide latitude
in drawing inferences from the evidence so long as the
inferences drawn are reasonable, fair, legitimate, and
offered in good faith.”135 To complain on appeal about an
improper jury argument, a defendant must object at
trial and pursue his objection to an adverse ruling.136 He
must object each time an improper argument is made, or
he waives his complaint, regardless of the egregiousness
of the argument.137
Here, Appellant failed to preserve many of his
complaints regarding the prosecutor’s closing argument
during the guilt/innocence phase because counsel failed
to timely object or did not object each time the allegedly
improper argument was made.138 Therefore, we will not

134

Milton v. State, 572 S.W.3d 234, 239 (Tex. Crim. App. 2019).

135

Shannon v. State, 942 S.W.2d 591, 597 (Tex. Crim. App. 1996).

136

Cockrell v. State, 933 S.W.2d 73, 89 (Tex. Crim. App. 1996).

137

See, e.g., id.; Fuentes v. State, 991 S.W.2d 267, 273 (Tex. Crim.
App. 1999).
138

See Tex. R. App. P. 33.1; Cockrell, 933 S.W.2d at 89; Fuentes, 991
S.W.2d at 273. Appellant complains that the prosecutor demonized
him by calling him names such as “the evil that sits in this courtroom,” a “monster,” and a “selfish coward.” He also contends that
the prosecutor: improperly inflamed jurors with irrelevant emotional considerations and encouraged them to put themselves in
Jelena’s position and to speak for Jelena and her family; improperly
injected herself personally into the case; intimated that her experience and expertise led her to conclude that Appellant was guilty;
touted her expertise by instructing the jury on how to conduct its
deliberations; encouraged the jury to convict him on behalf of the
community at large; and urged jurors to join the State’s team. He
identifies numerous additional examples of allegedly improper

85a
consider those complaints. He did, however, preserve
some of his complaints.
Appellant states that the prosecutor violated his
Sixth Amendment rights by commenting on his in-court
behavior and making demeaning remarks regarding his
self-representation. Appellant preserved error for two
of these complained-of comments.
Appellant complains about the prosecutor’s
statement, “See him laughing and smirking and shaking
his head.” The trial judge overruled Appellant’s timely
objection that this statement was a comment on his nontestimonial demeanor. The prosecutor then asserted,
“[T]hat’s what you’ve got right there, sitting right there
with a smirk on his face most of the trial. You saw it.
That’s a killer. That’s evil.” Appellant objected again
that the prosecutor was commenting on his nontestimonial demeanor. The prosecutor responded, “I’m
commenting on when he represented himself.” The
judge overruled the objection.139
name-calling and argument which, he contends, violated due process. Appellant also asserts that the prosecutor presented jurors
with a falsified reconstruction of the offense that was unsupported
by the evidence. The record shows that the prosecutor stated that
Appellant was holding L.C. as he stood over Jelena in the doorway,
and that L.C. cried out, “Mama, Mama, Mama,” as Jelena attempted
to turn toward her son before Appellant shot her in the back of the
head.
139

To the extent that Appellant complains that these comments violated his right to self-representation, his current contention does
not comport with his trial objections, which were solely on the
ground that the comments concerned his non-testimonial demeanor.
See Hallmark v. State, 541 S.W.3d 167, 171 (Tex. Crim. App. 2017)
(“Because the complaint on appeal does not comport with either of

86a
Typically, a non-testifying defendant’s demeanor
while in the courtroom is not evidence, so it is not an
appropriate subject for the prosecutor in argument.140 A
defendant’s non-testimonial demeanor is usually
irrelevant to the issue of his guilt.141 Assuming the
prosecutor’s arguments, “See him laughing and smirking
and shaking his head,” and “[T]hat’s what you’ve got
right there, sitting right there with a smirk on his face
most of the trial,” were improper comments on nontestimonial demeanor, any error was harmless.
We evaluate the harm arising from this improper
closing argument under the standard for constitutional
error because it is an indirect comment on Appellant’s
failure to testify.142 We must reverse the conviction
unless we determine beyond a reasonable doubt that the
error did not contribute to the conviction or punishment.
The context of the prosecutor’s statement shows that it
could not have tainted the trial process. The argument
followed the guilt-innocence portion of trial, where
Appellant represented himself until his repeated
the trial objections, nothing is presented for review.”). Therefore,
we will consider only his arguments regarding non-testimonial demeanor.
140

See Wead v. State, 129 S.W.3d 126, 130 n.8 (Tex. Crim. App. 2004)
(prosecutor may not properly comment upon the defendant’s demeanor in the courtroom because his demeanor is not evidence of
guilt).
141

Good v. State, 723 S.W.2d 734, 737-38 (Tex. Crim. App. 1986) (concluding that a defendant’s neutral, orderly courtroom demeanor did
not support a reasonable inference of guilt).
142

Dickinson v. State, 685 S.W.2d 320, 324 (Tex. Crim. App. 1984);
Snowden v. State, 353 S.W.3d 815, 826 (Tex. Crim. App. 2011).

87a
disobedience caused the trial court to reinstate his
attorneys. The jurors did not hear Appellant testify, but
they could recall for themselves whether Appellant
“smirked” during most of the trial. Moreover, although
the record does not itself reflect the “smirks,” it does
reflect Appellant’s flippant attitude and verbal sparring
with witnesses, the prosecutor, the courtroom deputies,
and the trial court while representing himself. After
carefully reviewing the record and performing the
required harm analysis under Rule 44.2(a), we hold
beyond a reasonable doubt that any error in failing to
sustain the Appellant’s objection to the prosecutor’s
argument did not contribute to Appellant’s conviction or
punishment. Point of error eleven is overruled.
CLOSING ARGUMENT – PUNISHMENT PHASE
In point of error twelve, Appellant asserts that the
prosecutors engaged in egregious misconduct during
closing argument in the punishment phase of the trial in
violation of his Fifth Amendment privilege and Article
38.08. He contends that the prosecutors:
1. commented on his failure to testify and
his non-testimonial demeanor;
2. worked to inflame the jury’s passions by
making emotional statements about
Jelena’s fear during the offense and her
final thoughts for L.C.;
3. described L.C. and his sister E.C. as
victims;
4. encouraged jurors to decide
punishment on an emotional basis;

his

88a
5. attacked him personally, repeatedly
and at length;
6. made his in-court demeanor a
centerpiece of their argument as to why he
deserved the death penalty; and
7. wrongly argued that his disrespectful
courtroom behavior was evidence of his
future dangerousness.
Our review of the record reveals that Appellant
failed to timely object, and therefore failed to preserve
error, to all but one of these complained-of comments.143
Therefore, we will address the admissibility of that
comment, alone, on the merits.
Specifically, Appellant objected to the following
statement on the ground that it violated his Fifth
Amendment right not to testify:144
And there’s no remorse. He sits over there
... shaking his head at me. Where’s the
acceptance of responsibility?
Even Mr. Haas stood up here and told you,
“We understand; we get it” was the words
he used. Really? Because the last time we

143

Cockrell, 933 S.W.2d at 89 (stating that to complain on appeal
about an improper jury argument, a defendant must object at trial
and pursue his objection to an adverse ruling).
144

To the extent that Appellant intends to raise other grounds for
objection on appeal, these grounds do not comport with his trial objection and so we will not consider them. See Hallmark, 541 S.W.3d
at 171.

89a
were standing here, he was arguing that
he was what? Not guilty.
So when did they get it? Where’s the
responsibility when he’s pulling the
trigger six times, when he’s changing the
license plates?
It is improper for the State to accentuate for the jury
the defendant’s failure to take the stand and claim
present remorse.145 Nevertheless based on the record of
this case—which includes Appellant’s interview with the
police in which he demonstrated a lack of both
responsibility and remorse—we have a fair assurance
that any error did not influence the jury or had but a
slight effect.146 Point of error twelve is overruled.
EMOTIONAL EVIDENCE AND COMMENTARY
In point of error thirteen, Appellant contends that
the trial judge violated Appellant’s due process right to
a fair trial by allowing the prosecutor to elicit irrelevant
and prejudicial testimony and to make speeches while
examining witnesses. He avers that the prosecutor
questioned witnesses throughout the trial in a manner
that was calculated to inflame the jury. He identifies
four main categories of allegedly irrelevant and unfairly
prejudicial testimony and commentary:

145

Randolph v. State, 353 S.W.3d 887, 893 (Tex. Crim. App. 2011);
Snowden v. State, 353 S.W.3d 815, 823-24 (Tex. Crim. App. 2011).
146

See Thomas, 505 S.W.3d at 927.

90a
1. responding officers’ testimony about
their feelings toward L.C. and their own
children;
2. officers’ testimony about a hypothetical
gunfight with Appellant, although there
was no evidence that Appellant was
aggressive or threatening;
3. the prosecutor’s prolonged and leading
questions on prejudicial topics; and
4. the
prosecutor’s
and
judge’s
argumentative and derogatory comments
conveying general disdain for Appellant.
Further, Appellant states, the prosecutor’s closing
arguments emphasized the erroneously admitted
testimony described in categories (1) through (3), which
compounded the harmful effects of these alleged errors.
We will address each of the four categories in turn,
followed by the discussion on cumulative error.
(1) Officers’ Feelings About L.C. and Their Own Children
Appellant first avers that the prosecutor asked
responding officers numerous irrelevant and unfairly
prejudicial questions regarding their feelings about L.C.
and their own children. Appellant specifically complains
that, at the guilt phase, the prosecutor elicited Officer
Spoon’s testimony about his feelings of sadness upon
seeing L.C. in Appellant’s car. Spoon also testified that
L.C. “was the cutest little kid” and that Spoon was
“furious” that Appellant had placed L.C. in danger.
When the prosecutor asked Spoon if he kept a picture of

91a
L.C. in his home, Spoon answered affirmatively,
explaining that he kept it “[b]ecause [L.C.] was
kidnapped, and his mom was murdered in front of him.”
Similarly, the prosecutor asked Sergeant Downhour,
“[A]s you went back there and saw that little boy pulled
out of the car, being a father yourself, it did make you
mad, didn’t it?” Downhour affirmed that it did. And
Corporal Knight testified that, when she saw L.C. in the
back of the car, she was “very angry” and “upset that a
child could be put in harm’s way.”
Appellant also complains about the prosecutor’s
questioning of Officer Cummings. As discussed above
regarding points of error nine and nineteen, Cummings
testified that he spent part of that Halloween evening
with his daughter. The prosecutor stated, “And after
that, you apprehended this defendant. It’s significant
because you put your life on the line after being with
your little girl.” Cummings agreed.
Appellant argues that the officers’ testimony was
plainly intended to lead the jury to decide the case “on
an emotional basis and not on the basis of the other
relevant evidence introduced at trial.” Although
Appellant did not specifically object to all of this
questioning, he obtained a running objection under
Rules 402, 403, and 404(b) to responding officers’
testimony concerning the pursuit and arrest and that
conveying their sympathy for L.C.
Under Rule 402, evidence that is not relevant is
inadmissible.147 Further, Rule 403 excludes otherwise
147

Tex. R. Evid. 402; Gonzalez, 544 S.W.3d at 370.

92a
relevant evidence when its probative value is
substantially outweighed by the danger of unfair
prejudice.148 “The term ‘probative value’ refers to ... how
strongly [an item of evidence] serves to make more or
less probable the existence of a fact of consequence ...
coupled with the proponent’s need for that item of
evidence.”149 “‘Unfair prejudice’ refers to a tendency to
suggest decision on an improper basis, commonly,
though not necessarily, an emotional one.”150
Here, this testimony was inadmissible because it was
irrelevant to Appellant’s guilt or innocence of the
charged offense. Further, this testimony did not concern
a fact of consequence, and it suggested a decision on an
emotional basis. Accordingly, the trial judge erred in
admitting this testimony over Appellant’s Rule 402 and
403 objections. Our inquiry, however, does not end
there.
Generally, an erroneous evidentiary ruling is nonconstitutional error.151 Non-constitutional error must be
disregarded unless it affects the defendant’s substantial
rights.152 We will not overturn a criminal conviction for
non-constitutional error if, after reviewing the record as
148

Rule 403; Davis v. State, 329 S.W.3d 798, 806 (Tex. Crim. App.
2010); Gonzalez, 544 S.W.3d at 371.
149

Casey v. State, 215 S.W.3d 870, 879 (Tex. Crim. App. 2007); Gonzales, 544 S.W.3d at 372.
150

Davis, 329 S.W.3d at 806; Gonzalez, 544 S.W.3d at 373.

151

See Potier v. State, 68 S.W.3d 657, 663 (Tex. Crim. App. 2002);
Gonzalez, id.
152

See Tex. R. App. P. 44.2(b); Gonzalez, id.

93a
a whole, we have fair assurance that the error did not
influence the jury or had but a slight effect.153 The
presence of overwhelming evidence supporting the
judgment can be a factor in evaluating the effect of such
an error.154
Based on the record of this case, we conclude that the
admission of the officers’ testimony concerning their
feelings about L.C. was harmless. The evidence of
Appellant’s guilt was overwhelming, and the testimony
at issue “was not so ‘emotionally charged’ as to prevent
the jury from rationally considering the evidence before
it.”155 And, as discussed in points of error nine and
nineteen, Appellant himself elicited Cummings’s similar
testimony that he felt “strongly about how [Appellant
had] endangered [L.C.].”156 After examining the record
as a whole, we have a fair assurance that the error did
not influence the jury, or had but a slight effect. This
part of point of error thirteen is overruled.
(2) Hypothetical Gunfight
Appellant contends that the prosecutor improperly
elicited West Monroe officers’ inflammatory testimony
about a hypothetical gun fight between Appellant and
153

Johnson v. State, 967 S.W.2d 410, 417 (Tex. Crim. App. 1998).

154

Motilla, 78 S.W.3d at 357-60 (concluding that the erroneous admission of testimony concerning the victim’s childhood was harmless under Texas Rule of Appellate Procedure 44.2(b)).
155
156

Id. at 360.

See Coble, 330 S.W.3d at 282 (stating that erroneously admitted
evidence will not result in reversal when the same evidence was received elsewhere without objection).

94a
the officers, although there was no evidence that
Appellant had been aggressive or threatening. He
complains that the prosecutor asked multiple protracted
questions about the danger the police officers could have
faced if Appellant had drawn the loaded weapons that
were in his trunk.157 The record includes the following
exchange between the prosecutor and Williams:
Q. Let me ask you this scenario: Say that
you pulled me over in a car, and I have
these weapons in my car loaded with
magazines, one in the chamber.
And I get out of my car, and I was like,
“Hey how you doing?”
And I pop the trunk. If I open that trunk
and grab that gun, you’re in trouble.
A. Yes.
***
Q. These guns in a firefight with a police
officer, you are severely outgunned if I’m
approaching you with this weapon over
your .40-caliber Springfield, true?
A. Yes....
Q. And how many rounds do you have in
your pistol?
A. 16.
157

Before the complained-of exchanges, Appellant had obtained a
running objection under Rule 403 to any evidence or testimony concerning the firearms found in the trunk of his car.

95a
Q. 16. I have 61 in this one.
Will those bullets – do you know if – I know
that there are bullets made for this gun
that will go right through your vest. Do
you know if those rounds like that would
penetrate your vest?
A. They would be pretty close. I know the
7.62X39 will completely go through a vest.
Thereafter, the prosecutor asked Detective
Malmstrom what he would do in a typical vehicle stop.
Malmstrom testified that after stopping the vehicle, he
would walk up to the “front doorpost to offer coverage,”
introduce himself, and announce the reason for the stop.
He would then walk up to the vehicle. The prosecutor
then asked:
Q. As a patrol officer, if you are attempting
to stop an individual and that individual
slows down, and as soon as you start to
kind of get out of your car, they edge
forward, and they have a 40-caliber
Springfield XD between their legs, as a
patrol officer, is that a frightening
situation to you?
Malstrom answered, “Yes, sir.” The prosecutor then
asked:
Q. Okay. If I pop the trunk when I stopped
and had loaded firearms in there, like that
AR, loaded up, say when I was coming to a
stop in my car, if I just pop my trunk,
pulled my car into stop and got out and

96a
said, Hey, how’s it going; sorry I was -- and
I pulled that trunk up and grabbed ahold
of one of those guns, you’re dead, aren’t
you?
A. Yes.
Q. Because that gun is fully loaded. There’s
one in the chamber. All I have to do, if the
safety’s on, is just flip that safety down,
and you’re -- you’re done?
A. Yes.
Q. So for somebody riding around with a
child that’s been kidnapped, heading out of
town in a car with loaded -- like these were
-- I don’t know if you remember seeing
those, but they were loaded with one in the
chamber.
A. The ones in the car?
Q. The ones in the trunk.
A. Yes, sir. Yes, sir.
Q. So what we had was -- and what we had
was eight guns, almost -- I mean,
thousands of rounds ....
As we discuss later under point of error twenty, the
firearms in this case were connected to Appellant and to
his preparations for the offense and its aftermath. When
police officers stopped Appellant, he had a handgun
between his legs, and there was a loaded Sig Sauer was
on the floor beneath L.C.’s car seat. On these facts, the
probative value of the evidence that Appellant had

97a
loaded firearms in the trunk of his car was not
substantially outweighed by the danger of unfair
prejudice. For the same reasons, the officer’s testimony
about the dangers posed by the firearms was not
unfairly prejudicial. This part of point of error thirteen
is overruled.
(3) Prolonged and Leading Questions
Appellant asserts that the prosecutor, through his
examination of the medical examiner and the forensics
expert, made highly prejudicial and argumentative
speeches before the jury and asked prolonged, leading
questions or questions that were unduly focused on
graphic, cumulative, and prejudicial topics. Appellant
cites several examples of this conduct. However, he did
not consistently object to the complained-of conduct on
the bases that he raises on appeal. Nor has he directed
us to any potentially applicable running objection.
The record shows that some of Appellant’s “leading”
objections were sustained and the prosecutor was made
to re-frame the questions. But the prosecutor continued
to ask leading questions, and Appellant did not always
object. Also, Appellant’s “asked and answered”
objection—made in response to the prosecutor asking
the forensic expert (for the second time) to describe the
sequence of the gun shots—led to the trial judge asking
the prosecutor if he had something “different.”
Appellant did not object when the prosecutor stated that
he would ask the question differently and then did so.
Accordingly, Appellant failed to preserve error as to

98a
these claims.158 This part of point of error thirteen is
overruled.
(4) Argumentative and Derogatory Comments
Appellant states that the prosecutor unfairly
prejudiced the jury against him throughout the trial by
making derogatory remarks about him while examining
witnesses. He complains that, by criticizing Appellant
and commenting on the evidence in the jury’s presence,
the trial judge exacerbated the negative impression that
the prosecutor sought to create. Appellant avers that
these comments were clearly calculated to inflame the
jury and created the impression that the prosecutor and
trial judge were aligned against him.159
Specifically, Appellant contends that, in the jury’s
presence, the prosecutor and trial judge repeatedly
commented on Appellant’s purported failure to follow
proper courtroom etiquette and asserted that Appellant
did not care about the rules. For example, after
Appellant objected that the prosecutor was re-offering
the same evidence under new exhibit numbers, the
prosecutor responded that the gun magazines currently
offered were different from the magazines previously
admitted. The prosecutor stated, “And if [Appellant] can
give me a specific number he thinks that we offered that
under yesterday, I’ll go pull it out and show him.”
158

See Tex. R. App. P. 33.1(a)(1)(A); See Thomas, 505 S.W.3d at 924;
Darcy v. State, 488 S.W.3d 325, 330 (Tex. Crim. App. 2016).
159

Although Appellant alleges that the State and the trial judge engaged in this conduct “throughout the trial,” all of the specified conduct took place during the guilt phase.

99a
The prosecutor continued, “And also, be cognizant of
the difference between TPD Number 190 and the State’s
Exhibit Number 190-L, which was the Springfield
firearm you killed your wife—ex-wife with.” Appellant
objected, stating, “I would object to that improper
comment on the ex-wife, Your Honor.” The judge
responded, “That’s the allegation in the indictment.”
Regarding the prosecutor’s “ex-wife” comment,
assuming it was improper, we find that it was not
reversible error.160 This comment did not inject new
facts into the record because the jury was aware that the
State’s theory was that Appellant had murdered his exwife with the Springfield firearm.161 Further, the jury
could evaluate the truthfulness of the prosecutor’s
comment.162 No curative action was taken, but given the
strength of the State’s case, we conclude that any error
was harmless.
Regarding the complained-of statement by the
judge, it was not a comment on the evidence. Instead, it
was a simple statement of fact: the indictment alleged

160

Cf. Martinez, 17 S.W.3d at 692 (“[M]ost comments that fall outside the areas of permissible argument will be considered to be error of the nonconstitutional variety.”).
161

Cf. Mosley v. State, 983 S.W.2d 249, 260 (Tex. Crim. App. 1998)
(considering, as a factor in assessing harm, whether an improper
comment injected new facts into the record).
162

Cf. id. (stating, in finding the error harmless, that “the jury [wa]s
in a position to evaluate the truthfulness of the prosecutor’s assertion”).

100a
that Appellant killed his ex-wife.163 Therefore, we
overrule this complaint.
Next, Appellant directs us to an instance in which he
asked an investigator whether he had photographed a
safe that was inside Appellant’s mother’s house. The
prosecutor objected to Appellant’s question:
[PROSECUTOR]: Judge, we’re going to—
we’re going to object only in that the
defendant, because he doesn’t care what
the Court says or what the rules are,
continues to try to get into stuff that he has
filed a suppression on and that we have
honored.
He tries to go back into -- that was not
seized at this location. It’s the same one
that he objected to, he filed the
suppression on, the search of his mother’s
home.
THE COURT: Objection’s sustained. I
know what you’re talking about.
[PROSECUTOR]: We’d ask the jury to be
instructed to disregard because we have
operated in good faith based on what he
had filed, and he continues to try to
subvert the rules. He doesn’t care what
163

See Dockstader v. State, 233 S.W.3d 98, 108 (Tex. App.—Houston
[14th Dist.] 2007, pet. ref’d) (“To reverse a judgment on the ground
of improper conduct or comments of the judge, we must find (1) that
judicial impropriety was in fact committed, and (2) probable prejudice to the complaining party.”).

101a
they are, what the Court says. He’s always
trying to backdoor and do something with
the -THE COURT: The last -- the jury will
disregard the last question, last response
of the witness.
Appellant did not object to the prosecutor’s
comments that Appellant refused to follow the rules.
Therefore, he failed to preserve error regarding that
comment.164 Additionally, as discussed under point of
error 10, Appellant had filed a pretrial motion to
suppress any evidence seized during the search of his
mother’s house, and the prosecutor had agreed not to
present any such evidence. And prior to the complainedof comment, the trial judge had already repeatedly
admonished Appellant that he could not discuss this
evidence. The trial judge’s comment, “I know what
you’re talking about,” in context, meant “you
[prosecutor] don’t have to keep explaining.”165
Therefore, we overrule this complaint.
Appellant also contends that the prosecutor used an
improper strategy of making derogatory comments in
front of the jury and then withdrawing them. For
example:

164
165

See Tex. R. App. P. 33.1(a)(1)(A); Darcy, 488 S.W.3d at 330.

See Liteky, 510 U.S. at 555-56 (“A judge’s ordinary efforts at
courtroom administration—even a stern and short-tempered
judge’s ordinary efforts at courtroom administration—remain immune.”).

102a
[Prosecutor]: And could you tell in this
photograph if the killer had, in an act of
cowardice, shot her in the back?
[Appellant]: Your Honor, I’m just going to
object to the comment “act of cowardice
shot her in the back.” Highly prejudicial.
[Prosecutor]: I think anyone who would
shoot a woman in the back is an act of
cowardice [sic], but I’ll withdraw my
statement, Judge.
Assuming that the prosecutor’s “act of cowardice”
comment was improper, we conclude that it was not
harmful.166 The evidence of Appellant’s guilt was
overwhelming. After examining the record as a whole,
we have a fair assurance that the error, if any, did not
influence the jury, or had but a slight effect.167
Next, Appellant contends that the trial judge
repeatedly described to the jury what the “evidence
shows” regarding Appellant driving the vehicle in the
“chase,” and police officers breaking the windows,
“trying to get the defendant out of the car,” as he was
“fleeing.” The record shows that the judge made these
comments in response to Appellant’s objection to the
admissibility of State’s Exhibit 158, a photograph of his
vehicle in the Tyler impound lot.
Exhibit 158 was initially admitted into evidence
during Spoon’s testimony before the jury, after he
166

See Tex. R. App. P. 44.2(b).

167

See Motilla, 78 S.W.3d at 355.

103a
confirmed that he was familiar with the content of
State’s Exhibits 153 through 161. Spoon testified that
these photos “fairly and accurately depict[ed] what they
purported to show.” Appellant received the trial judge’s
assurance that his running objection was still in effect.
He also objected under Rules 901, 1001, 1002, 1003, 403,
404(b), hearsay, lack of predicate, lack of foundation, and
relevance. Without commenting on the content of the
exhibits, the trial judge overruled all of Appellant’s
objections to State’s Exhibits 153 through 161.
Later, during Spoon’s testimony, Appellant objected
to Exhibit 158. Appellant also stated, “I will reurge,
obviously, and continue to reurge the motion [to
suppress] that was talked about outside the hearing of
the jury.”168 The judge responded, “[T]he officer has
already identified [that car as] the one that he seized that
you were driving in the chase, [and so that motion is]
denied and overruled.”
Appellant then stated that he needed to present his
previously filed motion “SSS,” which the trial judge
seems to have mistakenly assumed pertained to the
admissibility of Exhibit 158.169 The judge responded,
168

After the judge admitted State’s Exhibits 153-161, Appellant
stated that he had a motion to suppress those exhibits and other
evidence. The judge held a hearing outside the presence of the jury.
In that hearing, the judge denied the motion, explaining to Appellant that the motion was untimely because he did not raise it until
after the exhibits had been admitted.
169

In fact, Motion SSS sought to bar ex parte communications between the prosecutors and the judge. Appellant did not explain the
nature of this motion to the judge until after this discussion of the
admissibility of Exhibit 158.

104a
“What you have got up right there is a photograph of the
vehicle, according to ... the officer -- that you were
fleeing in.” The judge added, “State’s Exhibit 158 has
been identified as the vehicle the defendant was driving
during the chase,” and the prosecutor affirmed that it
was. The judge later asked Spoon, “So [Exhibit] 158
shows the vehicle that you’ve already testified [that] the
defendant was fleeing in, and it shows the ... windows
that were obviously taped up as a result of your officers
having to bust them up to get the weapons, is that
correct, and to get the defendant out.” Spoon confirmed
that this was correct.
The prosecutor then noted that State’s Exhibit 158
had already been admitted. On that basis, the judge
overruled Appellant’s objections. When Appellant
sought confirmation of the judge’s ruling, the judge
stated, “[T]he evidence shows you were driving [that
vehicle] in the chase and the evidence shows this Officer
Spoon taped up the ... windows before it was moved to
Tyler because [they] had been broken out to get you out
of [the vehicle] ... in the course of your apprehension. So,
yes, it’s denied.”
We conclude that the judge’s comments were
responsive to Appellant’s objections and questions, and
they were based on evidence disclosed during the
proceedings.170 The judge did not state that the evidence

170

Cf. Rodriguez v. State, 470 S.W.3d 823, 830 (Tex. Crim. App. 2015)
(“‘[O]pinions formed by the judge on the basis of facts introduced or
events occurring in the course of the current proceedings, or of prior
proceedings, do not constitute a basis for a bias or partiality motion
unless they display a deep-seated favoritism or antagonism that

105a
was true, only that it established a predicate for the
exhibit.171
Appellant next complains about the trial judge’s
comments on State’s Exhibit 162. An investigator
testified at trial that State’s Exhibit 162 was a
photograph of “the defendant’s car with the piece of
evidence tape as it was sealed so [we] could protect the
integrity of what was in it.” Appellant objected to the
admission of Exhibit 162 “under [Rules] 901, 1002, 1003,
403, 404(b), lack of predicate, lack of personal knowledge,
and the hearsay value of what this photograph is actually
supposed to represent, as far as relevance at this point.”
On appeal, he now complains of the ensuing exchange:
THE COURT: All right. [State’s Exhibit]
162 depicts ... a photograph of the vehicle
that the defendant was fleeing in with the
... left front and left side window ... and the
rear window, they are taped up so they
just won’t be opened from the results of
them trying to get the defendant out of the
car.
So, I mean, those objections are -- all of
them, [Appellant], are overruled.
[APPELLANT]: Your Honor, in addition
to that, I’m going to have to object to the
Court’s comment itself on the evidence.
would make fair judgment impossible.’”) (quoting Liteky, 510 U.S.
at 555).
171

See Tex. R. Evid. 104(a) (stating that the trial judge determines
preliminary questions about the admissibility of evidence).

106a
THE COURT: Well, you’re always
worried about whether or not I have
looked at the photograph. So I want you to
know I have looked at it by indicating what
it was, which the officer just testified to.
So your objections are overruled. I have
carefully reviewed it. 162 is admitted into
evidence.
The trial judge’s statement accurately described the
contents of State’s Exhibit 162. But even assuming that
the statement was an improper comment on the
evidence, it does not constitute reversible error because
it was not reasonably calculated to benefit the State or
prejudice Appellant.172 Further, several officers testified
that Appellant fled in his car, and, after they stopped
him, they broke his window and pulled him out.173 Thus,
we overrule this complaint.
Appellant also complains about the following
discussion concerning the license plates on his car:

172

See Moody v. State, 827 S.W.2d 875, 879 (Tex. Crim. App. 1992)
(concluding that the trial court’s statements that “[t]hat’s the lady
that was murdered” and “this man is accused of committing her
murder” were harmless because they were “not in any way reasonably calculated to benefit the State or prejudice [the] appellant”);
see also Marks v. State, 617 S.W.2d 250, 252 (Tex. Crim. App. 1981)
(panel op.).
173

Cf. Marks, 617 S.W.2d at 252 (indicating that, even if a trial
judge’s conduct had been a comment on an eyewitness’s credibility,
the fact that two other eyewitnesses identified the appellant as the
perpetrator offset any potential harm).

107a
[APPELLANT]: Okay. Then objection [to
State’s Exhibit 164] under 403, 404(b), lack
of personal knowledge, lack of predicate,
lack of foundation, 1002, 1003. There’s no
predicate to this whatsoever.
THE COURT: All those objections are
overruled. The officer [has] testified, after
looking at the photograph, that that plate
is the one that was on the vehicle you were
fleeing in and taken out of, so—and
obviously the objection is overruled, and
that exhibit -- what’s the number?
[APPELLANT]: I would object to the
Court’s comments.
THE COURT: I’m summing up the
evidence, which is the predicate for my
ruling, based on your objections.
***
THE COURT: The Court’s ruling is
there’s plenty of predicate for State’s
Exhibit 164, based on the officer’s
testimony. It’ll be admitted. It’s admitted
into evidence. All the objections are
overruled.
The judge made these comments in response to
Appellant’s objections to an exhibit. The trial judge
stated that the officer’s testimony established the
predicate for admitting the exhibit. He did not opine that
the officer’s testimony was true. Further, even if the
comment was improper, it was not reasonably calculated

108a
to benefit the State or prejudice Appellant.174 Thus, we
overrule this complaint.
Additionally, Appellant argues, the judge’s
comments compounded the impression that the judge
was aligned with the State. He contends that the judge
violated his obligation to remain neutral and objective
before the jury. Appellant concludes that the judge
committed reversible error by refusing to sustain his
objections to the prosecutor’s inflammatory comments
and by expressing approval of some of those comments.
As discussed above, the judge’s comments were
responsive to Appellant’s objections and were based on
evidence presented during the proceedings. In light of
our review of the entire record and the overwhelming
evidence of Appellant’s guilt, we conclude that none of
these comments prejudiced Appellant.
Cumulative Harmful Effect
Appellant argues that the prosecutor’s conduct was
clearly calculated to inflame the jury. He states that, by
allowing this conduct, and often even joining in, the trial
judge abused his discretion and deprived Appellant of a
fair trial. He contends that a “consistent stream of
errors,” including, “the mountain of irrelevant and
prejudicial evidence admitted in this case, the
prosecutorial misconduct, and judicial commentary”
harmed him. He asserts that, in cases such as this one
where the prosecutor devotes significant parts of his

174

See Moody, 827 S.W.2d at 879.

109a
closing argument to erroneously admitted evidence,
reviewing courts have found reversible error.
A number of errors may be found harmful in their
cumulative effect.175 However, having concluded that
Appellant has not preserved most of the complaints that
he now raises, and that the preserved claims either lack
merit or are harmless, we cannot conclude in this case
that the cumulative effect of trial court’s purported
errors has deprived Appellant of his rights of due
process and a fair trial. Point of error thirteen is
overruled.
L.C.’S COUNSELING
In points of error fourteen, fifteen, and sixteen,
Appellant challenges the testimony of Judith Lester, a
therapist who held counseling sessions with L.C. We will
address points of error fourteen and fifteen together,
and then address point of error sixteen.
Points Fourteen and Fifteen: L.C.’s Statements to
Lester
In point of error fourteen, Appellant asserts that the
judge erroneously admitted Lester’s testimony and
treatment records under the hearsay exception for
statements made for medical diagnosis or treatment,
Rule 803(4) and the decisions in Taylor v. State and
Munoz v. State.176 He argues that the State failed to

175
176

Chamberlain v. State, 998 S.W.2d 230, 238 (Tex. Crim. App. 1999).

Taylor v. State, 268 S.W.3d 571 (Tex. Crim. App. 2008); Munoz v.
State, 288 S.W.3d 55 (Tex. App.—Houston [1st Dist.] 2009, no pet.)

110a
establish the predicate for admission of therapy
testimony under Rule 803(4). He also argues that this
case is distinguishable from Taylor and Munoz because,
unlike the child-declarants in those cases, (1) L.C. was
not a victim of, but was instead an eyewitness to, the
charged offense, and (2) L.C. did not testify. Appellant
further alleges that the introduction of hearsay
statements when the declarant does not testify violates
the Confrontation Clause.
The trial judge determines preliminary questions of
the admissibility of evidence.177 We review a trial judge’s
decision to admit or exclude evidence under an abuse of
discretion standard.178 A trial judge abuses his discretion
only when his ruling is so clearly wrong as to lie outside
the zone of reasonable disagreement.179
In general, the proponent of hearsay testimony has
the burden of proving to the trial judge by a
preponderance of the evidence that the testimony is
admissible under a hearsay exception.180 Rule 803(4)
provides a hearsay exception for statements made for
medical diagnosis or treatment, regardless of whether
(each holding a child-declarant statements to a mental-health professional admissible under Rule 803(4)).
177

See Tex. R. Evid. 104(a); Vinson v. State, 252 S.W.3d 336, 340 n.14
(Tex. Crim. App. 2008).
178

Taylor, 268 S.W.3d at 579; Zuliani v. State, 97 S.W.3d 589, 595
(Tex. Crim. App. 2003).
179
180

Taylor, 268 S.W.3d at 579.

See Vinson, 252 S.W.3d at 340 n.14; see, e.g., White v. State, 549
S.W.3d 146, 152 (Tex. Crim. App. 2018); Alvarado v. State, 912
S.W.2d 199, 215 (Tex. Crim. App. 1995).

111a
the declarant is available to testify. Statements fall
under that exception if they are made for, and are
reasonably pertinent to, medical diagnosis or treatment,
and if they describe medical history, past or present
symptoms, their inception, or their general cause. In the
context of long-term, after-the-fact, mental-health
treatment for a child, the proponent should make it
readily apparent on the record that: (1) it was important
to the efficacy of the treatment for the child-declarant to
be truthful and to disclose the perpetrator’s true
identity, and (2) the child, before the disclosure,
understood that importance.181 The perpetrator’s
identity may be pertinent to treatment when it helps the
therapist fully discover the extent of the child’s
emotional and psychological injuries.182
“To determine whether a child understands the
importance of truthfulness when speaking to medical
personnel, the reviewing court looks to the entire
record.”183 “If a child-declarant can and does believe that
his statement to a mental-health professional will
facilitate his diagnosis or treatment, ... his out-of-court
statement should be admissible under Rule 803(4) ....”184
In this case, Lester initially explained before the jury
that she would testify about information she had
181

See Taylor, 268 S.W.3d at 588-91.

182

Cf. Taylor, 268 S.W.3d at 591.

183

Franklin v. State, 459 S.W.3d 670, 676-77 (Tex. App.—Texarkana
2015, pet. ref’d) (citing Green v. State, 191 S.W.3d 888, 896 (Tex.
App.—Houston [14th Dist.] 2006, pet. ref’d)).
184

Taylor, 268 S.W.3d at 588.

112a
acquired as L.C.’s therapist. On Appellant’s motion, the
trial judge excused the jury and conducted a Rule
705/Daubert hearing at which the State presented
evidence to meet the two-part predicate.185 Lester
testified that she had provided counseling services for
L.C. and was prepared to answer questions about their
counseling sessions. She acknowledged that she had no
personal knowledge of the offense. She stated that, in
addition to counseling L.C., she had counseled his
guardians and his sister. Lester had met with L.C. about
sixteen times, starting in November 2014, and she
continued to meet with him twice a month. She
confirmed that she would testify to statements that L.C.
had made to her in the course of treatment, and she
would discuss pictures L.C. had drawn as part of his
treatment. Additionally, the prosecutor expressed his
intent to introduce Lester’s records of L.C.’s treatment.
The prosecutor further questioned Lester:
Q. Was truth-telling -- within your
counseling sessions with [L.C.], was truthtelling a vital component in the course of
treatment?
A. Yes, sir, it is.
Q. Okay. Is it your opinion that it was
important to the efficacy of the treatment

185

Tex. R. Evid. 705 (concerning a party’s ability to examine an expert about the facts or data underlying the expert’s opinion); Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579, 589-92
(1993) (discussing the admissibility requirements for expert scientific testimony).

113a
that [L.C.] disclose the true identity of the
perpetrator?
A. Yes, it’s very important.
Q. Prior to the disclosure, was it readily
apparent[ ] to [L.C.] that this was the case?
A. Absolutely.
Q. Were these statements made to you by
[L.C.] pertinent to his treatment?
A. Yes.
Q. Were the statements identifying the
perpetrator likewise pertinent to the
treatment?
A. Yes.
Q. Was it important to the efficacy of the
treatment that you know the identity of
the perpetrator?
A. Yes. It tends to be more traumatic,
especially for children, when we’re talking
about trauma that happens within the
attachment of significant caregivers.
The trial judge found that Lester was treating and
counseling L.C., the alleged perpetrator was L.C.’s
father, and there was no requirement that Lester
expressly state that L.C. recognized the need to be
truthful. Accordingly, the judge ruled that Lester’s
testimony conveying L.C.’s statements concerning the
alleged offense was admissible under Rule 803(4).

114a
Before the jury, the prosecutor elicited the same
predicate testimony from Lester. Lester then
elaborated on the counseling process and vouched for
L.C.’s truthfulness:
Q. Is there anything that you think is
relevant, as far as -- that I haven’t asked
you about, things [L.C.] has said to you
regarding his father?
***
A. I think the thing I would say is that
[L.C. has] been consistent over time. He’s
told me the same series of events.
The way that I treat children using these
trauma interventions is that I am very
open-ended, and I give very open
instructions. Draw me a picture that you
can tell me the story of what happens. I
review with him regularly why he comes
to see me.
And part of that is that I know that it’s
extremely effective for children, and for
adults, for that matter, to heal from
trauma by being able to tell their story.
His story has been consistent over time.
He has -- he clearly draws the same thing
again, again, again, and [states] that he
wants his voice to be heard that [his
father] killed [his mother].

115a
During Appellant’s cross-examination of
Lester, she further explained her
counseling procedures:
Q. In the course of your treatment or in
talking with [L.C.], how did you impress on
him the fact that what he needs to say
needs to be the truth?
***
A. He and I have actually had
conversations about the difference
between truth and story telling so that I
could have a sense of making sure that, at
7, he understands what’s the truth and
what’s a lie or what’s a story. So he and I
have actually talked about that in session.
Q. What is the purpose, in general, if you
know, of the counseling session for a child
to engage in therapy with a person? Not
necessarily your -- in your actual
interactions, but in general terms, what is
-- what is the end result?
A. Each individual family and client gets to
determine what their goals are for
therapy. In his particular instance, his
overall -- the overarching goal is for him to
be able to adjust to the life experiences
that he’s had and adjust to the placement
in a new family, all these big changes that
have happened.

116a
Within that, trauma treatment gets -- gets
indicated so that he can tell the story of
what’s happened to him and then examine
the feelings surrounding that story and
examine any particular kind of long-lasting
trauma, like trauma triggers, sensory
triggers that might come up for him that
might make it very difficult for him to live
a very full and rich life.
Q. Obviously that would be not something
that you would tell him in those terms,
correct?
A. I actually use just about this language
with kids.
On redirect, Lester affirmed that she had no
concerns that L.C. had been “manipulated in any way”
when he recounted his experience. She perceived that
L.C. reported what he actually saw.
On these facts, the trial judge properly admitted
Lester’s testimony and records186 conveying L.C.’s
statements that were pertinent to his treatment under
Rule 803(4).187 Lester testified that L.C. was aware that
it was important for his treatment that he disclose the
186

The State introduced the treatment records as business records,
with Lester being both the author and the records custodian. Lester
testified that she recorded information from each counseling session
within 24 hours of the session and that she kept the records in the
regular course of business.
187

See Taylor, 268 S.W.3d at 580 (noting that the rationale behind
Rule 803(4) relies upon the declarant’s motive to tell the truth,
which guarantees sufficient trustworthiness).

117a
perpetrator’s true identity during their counseling
sessions. She also testified that they discussed the
difference between truth and story-telling and that L.C.
understood “what’s the truth and what’s a lie or what’s
a story.” Further, they talked about their treatment
goals, which were to help L.C. adjust to his life
experiences and his new family situation. Appellant’s
allegation that Lester’s testimony and the records
conveying L.C.’s statements were inadmissible hearsay
is without merit.
Further, Appellant’s other arguments also fail. He
asserts that the statements made, even if important to
the efficacy of the treatment, were nevertheless
inadmissible because (1) L.C. was a witness-declarant
rather than a victim-declarant, and (2) L.C. did not
testify. Rule 803(4) is not limited to victim-declarants in
the first place. And the Rule 803 hearsay exceptions
apply regardless of whether the declarant is available as
a witness.
Appellant also argues that the admission of Lester’s
testimony and treatment records violated the
Confrontation Clause. Under the Confrontation Clause,
a “testimonial” statement is inadmissible at trial unless
the declarant either takes the stand and is subject to
cross-examination, or is unavailable and the defendant
had a prior opportunity for cross-examination.188
Testimonial statements are those “made under
circumstances which would lead an objective witness

188

Burch v. State, 401 S.W.3d 634, 636 (Tex. Crim. App. 2013).

118a
reasonably to believe that the statement would be
available for use at a later trial.”189
In determining whether a hearsay statement is
“testimonial,” the primary focus is upon the objective
purpose of the interview or interrogation, not upon the
declarant’s expectations.190 Generally speaking, a
hearsay statement is “testimonial” when the
circumstances objectively indicate that the primary
purpose of the interview or interrogation is to establish
or prove past events potentially relevant to later
criminal prosecution.191
In this case, the primary purpose of L.C.’s treatment
sessions was to help him cope with his memories of the
offense and the loss of his parents, and to help him adjust
to his new life and family.192 Accordingly, L.C.’s
statements to Lester were non-testimonial. Therefore,
Lester’s testimony relating L.C.’s statements did not
violate the Confrontation Clause. Points of error
fourteen and fifteen are overruled.

189

Id. (quoting Crawford v. Washington, 541 U.S. 36, 52 (2004)).

190

Davis v. Washington, 547 U.S. 813, 822-23 (2006).

191

De La Paz v. State, 273 S.W.3d 671, 680 (Tex. Crim. App. 2008).

192

See, e.g., Lollis v. State, 232 S.W.3d 803, 809-10 (Tex. App.—Texarkana 2007, pet. ref’d) (holding that a child-declarant’s statements
to a licensed professional counselor who was providing therapy to
assist him in recovering from the trauma of abuse were non-testimonial and admission did not violate the defendant’s right to confrontation); see also Melendez-Diaz v. Massachusetts, 557 U.S. 305,
312 n.2 (2009) (noting that medical records created for purposes of
treatment are not testimonial within the meaning of Crawford).

119a
Point of Error Sixteen: Lester’s Opinion Testimony
In point of error sixteen, Appellant contends that the
trial judge erred in allowing Lester’s testimony about
L.C.’s feelings at the time of trial and her concern, and
the concerns of other family members, over whether
L.C. would have to testify. Appellant asserts that this
testimony went “far beyond the scope” of Rule 803(4)
and was improper under Rules 701 and 702.
Both lay and expert witnesses can offer opinion
testimony.193 Rule 701 applies to the testimony of a
witness who personally witnessed or participated in the
events about which the witness is testifying, while Rule
702 pertains to the testimony of a witness who was
brought in to testify as an expert.194 To be admissible
under Rule 701, a witness’s opinion testimony must be
rationally based on her perception and helpful to the jury
in clearly understanding her testimony or determining a
fact in issue.195 “An opinion is rationally based on
perception if it is an opinion that a reasonable person
could draw under the circumstances.”196
“When a witness who is capable of being qualified as
an expert testifies regarding events which he or she
personally perceived, the evidence may be admissible as
both Rule 701 opinion testimony and Rule 702 expert

193

See Tex. R. Evid. 701, 702; see also Osbourn v. State, 92 S.W.3d
531, 535 (Tex. Crim. App. 2002).
194

Osbourn, 92 S.W.3d at 535.

195

Tex. R. Evid. 701.

196

Fairow, 943 S.W.2d at 900.

120a
testimony.”197 As a general rule, opinions that are based
on observations that do not require significant expertise
to interpret and that are not based on a scientific theory
are admissible as lay opinions if the requirements of
Rule 701 are met.198 “It is only when the fact-finder may
not fully understand the evidence or be able to
determine the fact in issue without the assistance of
someone with specialized knowledge that a witness must
be qualified as an expert.”199
Lester possessed specialized knowledge, but L.C.’s
demeanor, his statements, and the expressions on the
faces of the figures in his drawings, did not require
significant expertise to interpret. Lester’s opinions that
L.C. was “sad” and “misse[d] his mother very much,”
and that his account of the offense had been consistent
over time, at least, were opinions that a reasonable
person, even without significant expertise, could draw
under the circumstances. Her opinions were rationally
based on her personal perceptions and helped the jury
clearly understand L.C.’s emotional state and his
recollection of the offense. Accordingly, Lester’s opinion
testimony was admissible under Rule 701, regardless of
whether it was beyond the scope of Rule 803. Point of
error sixteen is overruled.

197

Osbourn, 92 S.W.3d at 536.

198

Id. at 537.

199

Id.

121a
ADAMS’S, WHISENHUNT’S, AND CAMPBELL’S
TESTIMONY
In point of error seventeen, Appellant asserts that
the trial judge committed reversible error by admitting
the testimony of three of Jelena’s friends—Adams,
Whisenhunt, and Campbell—conveying her statements
concerning her fear of Appellant. He contends that this
testimony was hearsay, was unfairly prejudicial, and
violated the Confrontation Clause. On the same grounds,
he also challenges his sister Campbell’s testimony
conveying his ex-wife Adams’s statements concerning
Appellant’s abuse during their marriage.
Appellant asserts that Jelena’s hearsay statements
were not reflective of her state of mind but instead were
her memories of specific events. Therefore, he argues,
they were not admissible under Rule 803(3)’s hearsay
exception200 and the trial judge abused his discretion by
admitting them. Appellant further argues that, although
there was considerable evidence that he was the person
who shot and killed Jelena, there was “a substantial and
legitimate issue” as to whether the State could prove the
additional elements necessary to convict him of capital
murder. He contends that the complained-of testimony
distracted and inflamed the jury. He states that, given
the voluminous and highly prejudicial nature of this
200

In relevant part, Rule 803(3) provides that the hearsay rule does
not exclude: “A statement of the declarant’s then-existing state of
mind (such as motive, intent, or plan) or emotional, sensory, or physical condition (such as mental feeling, pain, or bodily health), but not
including a statement of memory or belief to prove the fact remembered or believed ....” Tex. R. Evid. 803(3).

122a
testimony, its admission was harmful and he is entitled
to a new trial. We will address Adams’s, Whisenhunt’s,
and Campbell’s testimony separately.
Adams
At trial, Adams testified that on the morning of the
offense, Jelena had called her to talk about Appellant.
The prosecutor asked Adams about the conversation.
When Adams began to answer, Appellant interrupted
her, objecting to “lack of personal knowledge” and “no
foundation.” His objections were overruled. Adams
testified that Jelena told her that Appellant wanted to
pick up the children at Jelena’s house instead of keeping
their original arrangement to meet in the deli parking lot
and that she was terrified of him being in her house.
The prosecutor asked Adams if she and Jelena had
previously talked about Jelena’s fear of Appellant.
Appellant interrupted Adams’s response with a hearsay
objection, which was overruled. Adams testified that
Jelena “was very afraid of him” and had related that
Appellant had, on many occasions, threatened to kill
Jelena and take the children. Jelena and the children
even lived with Adams for a while out of concern for
their safety. They had an agreement that if anything
happened to either one of them, the survivor would
make sure that justice was done because they knew that
Appellant would “be behind it[.]” Adams further
testified, “[H]e’s threatened me many times in the past,
as well as my family.” Appellant’s objection to hearsay
and “to lack of personal knowledge, as far as family,” was
overruled.

123a
Appellant objected on grounds of unfair prejudice
after Adams testified that she feared for Jelena because
of what she, herself, had endured while married to
Appellant. This untimely objection did not preserve
error, and so we will not consider this ground on
appeal.201 Further, we will not consider Appellant’s
Confrontation Clause allegation because he did not
object to Adams’s testimony on this ground.202 The only
ground that Appellant preserved for appeal that
comports with his current challenges to Adams’s
testimony is hearsay.203 limit our review accordingly.
Adams’s testimony concerning her own feelings and
experiences, including her history with Appellant, was
not hearsay because it did not convey a third party’s outof-court statements.204 And Adams’s testimony
conveying Jelena’s expressions of fear were admissible

201

See Tex. R. App. P. 33.1(a); Luna v. State, 268 S.W.3d 594, 604
(Tex. Crim. App. 2008) (holding that an untimely objection, made
after the question was asked and answered, did not preserve error).
202

See Holland v. State, 802 S.W.2d 696, 700 (Tex. Crim. App. 1991)
(concluding that a hearsay objection does not preserve a claim of
constitutional error because evidentiary and constitutional errors
“are neither synonymous nor necessarily coextensive”).
203

See Clark v. State, 365 S.W.3d 333, 339 (Tex. Crim. App. 2012)
(“The point of error on appeal must comport with the objection
made at trial.”).
204

See Tex. R. Evid. 801(d) (defining hearsay as a statement, other
than one made by the declarant while testifying at the trial or hearing, offered to prove the truth of the matter asserted).

124a
as statements of Jelena’s then-existing mental and
emotional condition.205
We next turn to Adams’s testimony concerning her
agreement with Jelena to seek justice against Appellant
if anything happened to one of them. This testimony was
admissible to the extent that it expressed Adams’s and
Jelena’s fear of Appellant and belief that he posed a
threat, but not to show that the two women had a specific
agreement or that Adams acted in accordance with that
agreement.206 “As long as the trial court’s ruling is within
the ‘zone of reasonable disagreement,’ there is no abuse
of discretion, and the trial court’s ruling will be
upheld.”207 In light of the permissible purpose of this
testimony—illustrating the two women’s intense fear of
Appellant—the trial judge did not abuse his discretion
by admitting it. Accordingly, any arguable error in

205

See Tex. R. Evid. 803(3) (excluding from the hearsay rule a witness’s testimony relating the declarant’s statements of her then-existing state of mind and emotional condition); Martinez, 17 S.W.3d
at 688 (finding that a witness’s testimony relating the victim’s statement that she was afraid of the appellant was admissible under Rule
803(3)).
206

See, e.g., Martinez, 17 S.W.3d at 688 (stating that testimony conveying the capital murder victim’s plea for the witness to call the
sheriff if anyone saw the appellant was not hearsay under Rule
801(d) because it was admitted to show the victim’s fear of the appellant, not to show that the sheriff’s office was called); McDonald
v. State, 911 S.W.2d 798, 806 (Tex. App.—San Antonio 1995, no pet.)
(finding that a witness’s testimony that the victim had told her she
had changed the locks to protect herself from the defendant was admissible to show the victim’s state of mind under Rule 803(3)).
207

See De La Paz, 279 S.W.3d at 343-44.

125a
admitting this part of Adams’s testimony was not
reversible.
However, Adams’s testimony conveying Jelena’s
previous statements that Appellant had threatened to
kill her and take the children was not admissible under
Rule 803(3). Hearsay testimony regarding the
declarant’s emotion or “mental feeling” is admissible,
but hearsay evidence describing why the declarant was
afraid is not.208 Thus, the trial court erred in admitting
this testimony. Our inquiry, however, does not end
there.
Error in admitting testimony is reversible only if it
affected the Appellant’s substantial rights.209 A
substantial right is affected when the error had a
substantial and injurious effect or influence in
determining the jury’s verdict.210 But if the improperly
admitted evidence did not influence the jury or had but
208

See, e.g., Glover v. State, 102 S.W.3d 754, 762-63 (Tex. App.—Texarkana 2002, pet. ref’d) (stating that a witness’s testimony conveying the declarant’s statements that the defendant had sex with her,
offered to prove the defendant’s conduct toward the declarant, were
“specifically excluded from the state of mind exception.”); Skeen v.
State, 96 S.W.3d 567, 576 (Tex. App.—Texarkana 2002, pet. ref’d)
(finding that the victim’s statements that the defendant had been
partying, tearing things up, and smoking marihuana were beyond
the mental or emotional condition exception); Buhl v. State, 960
S.W.2d 927, 933 (Tex. App.—Waco 1998, pet. ref’d) (distinguishing
between admissible hearsay statements conveying the declarant’s
fear of the victim and inadmissible statements explaining that this
fear was caused by the victim’s having pulled guns on the declarant).
209

Tex. R. App. P. 44.2(b).

210

See Coble, 330 S.W.3d at 280.

126a
a slight effect upon its deliberations, such nonconstitutional error is harmless.211 Appellant argues that
any error was harmful because there was a substantial
doubt that he had committed the acts that elevated the
offense from murder to capital murder, and that the
improperly admitted hearsay evidence harmed him by
distracting and inflaming the jury. We disagree.
Adams’s objected-to inadmissible hearsay concerning
Appellant’s past threats to Jelena was no more
inflammatory than the unobjected-to evidence of these
threats.212 And there was ample admissible evidence
showing that Appellant went to Jelena’s house intending
to kill Jelena and abduct L.C.
This
evidence
consisted
of
Appellant’s
communications with Jelena in the days before the
offense, which established that he was unwilling to
accept the geographical amendment that allowed her to
move with the children to Houston. He was particularly
unhappy about the amendment’s terms for exchanging
the children, and he focused this anger on Jelena.
Further, shortly before Appellant committed the instant
offense, Jelena had refused to alter the location of their
planned exchange of the children after Appellant stated
that he wanted to pick them up from her house.
Appellant canceled the exchange, but less than three
hours later, eyewitnesses heard shots, observed a man
resembling Appellant carrying L.C. from Jelena’s
211
212

Id.

See Brooks v. State, 990 S.W.2d 278, 287 (Tex. Crim. App. 1999)
(stating that the improper admission of evidence is not reversible
error when substantially the same facts are proven by unobjectedto testimony).

127a
carport, saw him drive away with the boy in a car, and
then discovered Jelena’s body bearing numerous
gunshot wounds. Other evidence, including a splintered
door frame, showed that Appellant forced his way into
Jelena’s home before killing her and abducting L.C.
Based on this sequence of events, there was no
“substantial doubt” that Appellant killed Jelena in the
course of committing kidnapping. In any event, as
discussed under point of error twenty-one, the properly
admitted evidence clearly established that Appellant
intentionally killed Jelena while in the course of
committing or attempting to commit burglary.213 We
have fair assurance that the error in admitting Adams’s
testimony about Appellant’s threats to kill Jelena and
take the children did not influence the jury or had but a
slight effect.
Whisenhunt
Stephanie Whisenhunt testified that she and Jelena
were friends. Whisenhunt testified in part to statements
made by Jelena prior to her death and to Appellant’s
own behavior that Whisenhunt herself had observed.
Appellant complains about specific statements made by
Whisenhunt at trial, only some of which he properly
objected to. We first turn to Appellant’s complaints
based on Rule 403. Appellant preserved a Rule 403
213

See Balderas, 517 S.W.3d at 766 (holding that an unlawful entry
into a home with the intent to commit murder satisfies the burglary
element of capital murder); Sorto, 173 S.W.3d at 471 (stating that,
where the jury charge authorized a conviction on alternative theories, a guilty verdict would be upheld if the evidence was sufficient
on any one of them).

128a
challenge to only one topic in Whisenhunt’s testimony.
Specifically, Whisenhunt testified that she would
sometimes accompany Jelena to exchange the children
with Appellant, and Appellant would do things that
made them uncomfortable. Appellant objected to this
testimony based on “unfairly prejudicial” and “no
foundation,” which were overruled. Whisenhunt
explained that Appellant “would videotape us with his
phone or iPad. There was one instance where he
watched us from the JCPenny’s parking lot and sent his
mother to get the kids instead.” She further testified
that, after one exchange, Appellant followed them back
to Jelena’s house, and then he followed Whisenhunt
when she left Jelena’s house. We need not conduct a Rule
403 error analysis because we are persuaded that, in
light of the properly admitted evidence of Appellant’s
guilt, this testimony did not cause the rendition of an
improper judgment.214
We next address complaints based on hearsay. Some
of the complained-of testimony was admissible under
Rule 801(e)(2)(A), which “plainly and unequivocally
states that a criminal defendant’s own statements, when
being offered against him, are not hearsay.”215
Specifically, Whisenhunt testified that she was with
Jelena days before her murder when Appellant called
Jelena. Jelena turned on the speaker phone so that
Whisenhunt could hear Appellant. Whisenhunt
described Appellant’s tone during this phone call as
214
215

See Thomas, 505 S.W.3d at 926-29.

Trevino v. State, 991 S.W.2d 849, 853 (Tex. Crim. App. 1999); Tex.
R. Evid. 801(e)(2)(A).

129a
“very condescending.” She could hear Appellant cursing
at Jelena under his breath. The trial court did not err in
admitting this evidence because it was Appellant’s own
statements.
Appellant failed to preserve his hearsay complaints
as to some of Whisenhunt’s testimony conveying
Jelena’s statements. Significantly, Whisenhunt testified
twice that Jelena had told her that if anything happened
to her, Whisenhunt should go to the police and tell them
that Appellant had something to do with it. Appellant
objected the second time, but failed to object the first
time. Thus, he did not preserve error as to this
testimony.216
Appellant preserved error based on hearsay
objections as to some parts of Whisenhunt’s testimony
relating Jelena’s comments. Specifically, he objected to
Whisenhunt’s testimony that Jelena stated that:
• Appellant would criticize her parenting
skills and generally insult her when Jelena
met Appellant to exchange the children;
• she was afraid of Appellant;
• Appellant had followed Jelena many
times, she was “pretty sure that he had
tapped her phone calls,” and he had been
watching Jelena’s house;
• Appellant had a “very strange” and
unhealthy obsession with guns;

216

See Tex. R. App. P. 33.1(a).

130a
• if he killed Jelena it would probably be
with a gun;
• she was an only child to her parents; and
• on the morning of the offense, Appellant
had called Jelena, “cussed her out,” and
canceled his visit with the children.
Appellant now asserts that these statements were
inadmissible as hearsay that showed the truth of past
events remembered.217
Even assuming that the admission of these
statements was error, that admission did not influence
the jury or had but a slight effect.218 The record includes
considerable
admissible
evidence
of
Jelena’s
longstanding fear of Appellant and of Appellant’s hostile
communications with her in the days and hours leading
up to the offense. Appellant admitted in his statement to
police that Jelena had told him that she was afraid of him.
Further, given the very close timing between
Whisenhunt’s departure from Jelena’s house and the
commission of the offense, and evidence of the clear view
of Jelena’s house from the parking lot across the street,
the jury could reasonably conclude that, on the day of the
offense, Appellant had been watching Jelena’s house.219

217

See Rule 803(3); Dorsey v. State, 24 S.W.3d 921, 928-29 (Tex.
App.—Beaumont 2000, no pet.) (stating that hearsay testimony relating the declarant’s statements that were memories of specific
events were not admissible under Rule 803(3)).
218
219

See Johnson v. State, 967 S.W.2d 410, 417 (Tex. Crim. App. 1998).

Whisenhunt left Jelena’s house at 11:57 a.m. She knew the precise
time she left because she texted her mother to let her know that she

131a
Additionally, Whisenhunt had personally witnessed
Appellant’s disturbing behaviors. Whisenhunt had also
listened to Appellant’s hostile communications with
Jelena.
Further, the State presented substantial admissible
evidence that, when West Monroe police officers
arrested Appellant, his vehicle contained a variety of
loaded firearms, magazines, and loose ammunition. In
his recorded statement, Appellant told investigators
that he would have shot the police officers who arrested
him if his son had not been with him. The State also
presented admissible evidence that Appellant killed
Jelena with five fatal shots to her head and torso.220

was driving home. The prosecutor showed Whisenhunt L.C.’s drawing of the offense in which L.C. was sitting on the couch while his
father shot his mother. Whisenhunt stated that the drawing was
consistent with where she last saw L.C. When Jelena walked
Whisenhunt to her car, Whisenhunt told her to go back inside and
lock her door. As she was leaving, Whisenhunt looked around for
Appellant’s silver Buick. She did not see it, but she knew that someone in the parking lot across the street could watch Jelena’s house
without being seen. Whisenhunt received a news alert about the
shooting just as she reached her own house. She “knew instantly”
what had happened.
220

See Brooks, 990 S.W.2d at 287 (concluding that any error in admitting the hearsay testimony was harmless in light of other unobjected-to evidence proving the same fact); see also Livingston v.
State, 739 S.W.2d 311, 333 (Tex. Crim. App. 1987) (“[I]f a fact to
which objected-to hearsay relates is sufficiently proven by other
competent and unobjected to evidence, the admission of the hearsay
is properly deemed harmless and does not constitute reversible error.”).

132a
This admissible evidence was similar to
Whisenhunt’s objected-to hearsay testimony. Thus, the
parts of her hearsay testimony that were inadmissible
did not influence the jury or had but a slight effect.
Campbell
Campbell, Appellant’s sister, also testified at trial.
Appellant complains about Campbell’s testimony
conveying Adams’s and Jelena’s statements. The record
shows that Appellant preserved his hearsay challenges
to most of those statements. He preserved a Rule 403
challenge to only some parts of Campbell’s testimony.
He did not object on grounds of a Confrontation Clause
violation, and, therefore, we will not consider that claim
on appeal.221
Some of Campbell’s objected-to testimony was
admissible under Rule 803(3), which provides a hearsay
exception for a “statement of the declarant’s thenexisting state of mind (such as motive, intent, or plan) or
emotional, sensory, or physical condition.”222 Specifically,
Campbell testified that Jelena contacted her several
times on the day of the offense. Jelena told Campbell
about her conversation with Appellant regarding the
exchange of the kids. Jelena stated to Campbell that she
was concerned for both her own and Campbell’s safety.
Campbell testified that Jelena’s tone of voice was
consistent with her being genuinely concerned for their
safety. This testimony goes to Jelena’s state of mind on
221

See Clark, 365 S.W.3d at 339 (“The point of error on appeal must
comport with the objection made at trial.”).
222

Tex. R. Evid. 803(3).

133a
the day of the offense, and therefore, the trial judge did
not err in admitting this part of Campbell’s testimony.
Some of Campbell’s objected-to testimony where
Appellant preserved error was inadmissible. This
includes Campbell’s testimony about Appellant’s prior
abuse of Adams. On cross-examination, Appellant asked
Campbell if Jelena and Adams had “said bad things
about me to you.” Campbell responded that they had
told her about the bad things that Appellant had done to
them. Appellant asked Campbell, “So you believe ...
when Jelena told you something or when [Adams] tells
you something, correct?” Campbell affirmed that she
did. Campbell acknowledged that she had not personally
seen the abuse that Jelena and Adams had described:
Q. Anything bad that they ever told you
about if they were scared, you know, that
wasn’t ever something that you had
viewed personally, correct?
A. I did not view the physical abuse that
you put towards both of them.
Q. So you have no idea if there ever was
any kind of abuse whatsoever, as far as
personal experience, personal knowledge?
A. I was never there when physical abuse
occurred.
Q. Okay.
A. I was there after.
Q. So – but you have no personal
experience whatsoever seeing that what
they said was actually true?

134a
A. I was never there at the time of the
physical abuse.
On re-direct, the prosecutor asked Campbell if she
had ever viewed the aftermath of Appellant’s abuse.
Campbell affirmed that she had. When she began to
describe an occasion on which she had seen this
aftermath, Appellant objected to lack of personal
knowledge. The prosecutor responded that Appellant
had opened the door by eliciting Campbell’s testimony
that she had not viewed any physical abuse and creating
the impression that Campbell simply disliked Appellant
and believed what Jelena and Adams had told her.
Appellant objected under Rule 404(b) and asserted that
his questioning “never opened the door to anything.”
The trial judge overruled the objection. When Campbell
again began to testify about seeing the aftermath of
Appellant’s abuse, Appellant objected to hearsay, to lack
of personal knowledge, and under Rules 403 and 404(b).
These objections were overruled.
Campbell described an incident in 1999, when
Appellant called and asked her to go to his house. He told
her that he and Adams “had got into it” and there was
an emergency. Campbell testified that she went to the
house and saw Appellant in handcuffs being placed in a
police car and Adams lying on the back patio. Adams
could not move. The deputy told Campbell that
Appellant was going to jail and Adams was going to the
hospital. Campbell accompanied Adams to the hospital.
While in the emergency room, Campbell learned that
Adams had a “very bad” bone bruise and was otherwise
bruised and scraped from being pulled through the
dining room, over a couch, and across the runners of a

135a
sliding glass door to the patio. Appellant’s objection to
lack of personal knowledge was overruled. Campbell
testified that she learned from Adams that, after
Appellant had pulled her onto the patio, Adams had tried
several times to get up and go back inside. Appellant
repeatedly pushed her down until she was unable to get
up. Appellant’s objections, citing lack of personal
knowledge, speculation, hearsay, and Rules 403 and
404(b), were overruled. Campbell stated that Adams had
persuaded Appellant that she was “really hurt.”
Although “it took a while,” Appellant eventually called
Campbell and 911.
A victim’s out-of-court statements recounting her
memory of events, rather than her state of mind, are
inadmissible.223 The hearsay statements in this part of
Campbell’s testimony fall within that category. The
State failed to establish that any of this hearsay evidence
was admissible under Rule 803(3) or any other hearsay
exception.224 Further, the testimony was not admissible
under the rule of optional completeness because
Appellant did not challenge the fact that Campbell saw
the aftermath of the abuse. Moreover, this testimony did
not establish an elemental or evidentiary fact, rebut a
defensive theory, or serve to clarify other hearsay.225

223

See, e.g., Dorsey, 24 S.W.3d at 928-29.

224

See Cofield v. State, 891 S.W.2d 952, 954 (Tex. Crim. App. 1994)
(stating that, when a defendant properly objected to hearsay, the
State then had the burden to show that the proffered evidence was
admissible pursuant to a hearsay exception).
225

See Montgomery v. State, 810 S.W.2d 372, 387 (Tex. Crim. App.
1991) (stating that “if extraneous offense evidence is not ‘relevant’

136a
Rather, this testimony tended to show that Appellant
was a bad person with a propensity for abusing his
wives.226 Therefore, the trial court erred in admitting
this testimony.
Other parts of Campbell’s testimony regarding
Jelena where Appellant preserved error were likewise
inadmissible. Specifically, Campbell testified to
instances where Jelena expressed fear of Appellant.
Campbell relayed that the first time Jelena expressed
fear of Appellant was when she was pregnant with her
first child. Jelena commented, “What have I gotten
myself into? Now I’m going to be stuck with him for the
next 18 years.” Campbell further testified that in the last
months of Jelena’s life, Jelena’s fear of Appellant
intensified. When asked how she knew this, Campbell
testified that Jelena stated that Appellant had
threatened to kill her multiple times and that if Jelena
ever died in an accident, to ensure that her death was
investigated.
The State failed to establish that Campbell’s
testimony conveying Jelena’s hearsay statements
describing specific instances of Appellant’s threats and
abuse were admissible under Rule 803(3) or any other
hearsay exception.227 For the same reasons the

apart from supporting an inference of ‘character conformity,’ it is
absolutely inadmissible under Rule 404(b)”).
226
227

See Montgomery, 810 S.W.2d at 387.

See Tex. R. Evid. 802 (stating that hearsay is inadmissible unless
a statute or rule provides otherwise).

137a
testimony regarding Adams was inadmissible, this
testimony regarding Jelena was inadmissible.
Further, Article 38.36228 permits a party to offer
evidence of the defendant’s and victim’s previous
relationship, but such evidence must meet the
requirements of the Rules of Evidence.229 Therefore,
although this testimony showed Appellant’s relationship
with Jelena at the time of the offense, it was inadmissible
hearsay.
However, the improperly admitted testimony did not
influence the jury or had but slight effect because, as
discussed previously, the State presented considerable
admissible evidence of Jelena’s fear of Appellant and
Appellant’s guilt.230 In these circumstances, admitting
228

Article 38.36(a) provides:
In all prosecutions for murder, the state or the defendant shall be permitted to offer testimony as to
all relevant facts and circumstances surrounding
the killing and the previous relationship existing
between the accused and the deceased, together
with all relevant facts and circumstances going to
show the condition of the mind of the accused at the
time of the offense.

229

See Garcia, 201 S.W.3d at 702; Smith v. State, 5 S.W.3d 673, 692
(Tex. Crim. App. 1999) (Keller, J., concurring and dissenting) (stating, concerning a prior version of Article 38.36, “[T]he rules against
hearsay, and other rules relating to the proper form in which evidence must be admitted, are not affected by Article 38.36. The statute was intended only to address the admissibility of evidence by its
subject matter.”).
230

See Thomas, 505 S.W.3d at 926 (concluding that, if a non-constitutional error did not influence the jury, or had but very slight effect, the judgment should be affirmed).

138a
Campbell’s extraneous-offense hearsay testimony
concerning Appellant’s past abuse of Adams and Jelena
did not constitute reversible error. Point of error
seventeen is overruled.
WHETHER APPELLANT “OPENED THE DOOR”
In point of error eighteen, Appellant contends that
the trial judge erroneously ruled that he had “opened the
door” to Campbell’s extensive prejudicial testimony. He
states
that
he
merely
elicited
Campbell’s
acknowledgment that she was not present when the
abuse she described took place. He argues that this did
not open the door to the State asking Campbell about
additional hearsay statements concerning his
extraneous bad conduct, including prior instances of
abuse and violation of related protective orders.
Appellant states that all of Campbell’s hearsay
testimony was inadmissible under Rule 803(3), violated
his confrontation rights, and was prejudicial.
We concluded in point of error seventeen that,
although Appellant’s questioning did not open the door
to Campbell’s extraneous-offense hearsay testimony,
Appellant was not harmed by its admission.
Appellant also complains about a comment the
prosecutor made after asking Campbell whether Jelena
had told her that Appellant had threatened to slit her
throat. The trial court overruled Appellant’s Rule 403,
Rule 404(b), and hearsay objections to that question.
Campbell responded that she did not recall that threat.
The prosecutor then commented, “Sometimes I get
confused on who the statements were said to. ‘Slit the

139a
throat’ must have been to another person.” Appellant
did not object to this comment. Therefore, he did not
preserve error, and we need not consider his complaint
on the merits.231 Point of error eighteen is overruled.
FIREARMS EVIDENCE
In point of error twenty, Appellant asserts that the
trial judge abused his discretion during the guilt phase
when he admitted irrelevant and prejudicial evidence of
the firearms that investigators found in the trunk of
Appellant’s vehicle. Appellant argues that this evidence
was inadmissible because the prosecutor did not allege
that any of the firearms found in the trunk of Appellant’s
vehicle were involved in the offense or that Appellant’s
possession of them was unlawful.
Appellant further states that the firearms evidence
should have been excluded under Rule 403 because its
probative value was substantially outweighed by the
danger of unfair prejudice. He avers that the contents of
the trunk did not serve to make a fact of consequence
more or less probable. He also argues that the weapons
should have been excluded due to their potential to
impress the jury in an irrational and indelible way.
Rule 403 allows for the exclusion of otherwise
relevant evidence when its probative value is
substantially outweighed by the danger of unfair
prejudice.232 This rule carries a presumption that
relevant evidence will be more probative than
231

See Tex. R. App. P. 33.1(a); See Coble, 330 S.W.3d at 282.

232

Tex. R. Evid. 403; See Davis, 329 S.W.3d at 806.

140a
prejudicial.233 We review a trial judge’s ruling under
Rule 403 for an abuse of discretion.234
Here, the firearms evidence was relevant and had a
high probative value. Appellant packed the trunk of his
car with loaded firearms and ammunition before he left
his mother’s house on the morning of the charged
offense. A receipt on the floorboard showed that he
purchased additional ammunition that morning. This
conduct demonstrated advance planning in anticipation
of murdering Jelena and the drastic measures that
Appellant was prepared to take to avoid capture.
Therefore, the firearms evidence was probative of
Appellant’s plan to murder Jelena and evade arrest.
Further, Appellant was arrested while fleeing from
the crime scene to avoid capture. In his statement to
police, Appellant said that he would have shot the
arresting officers if he had not had L.C. in the car with
him. Later, he asserted that he would have shot the
officers if he needed to defend L.C. He also stated that,
during the chase, he considered committing “suicide by
cop.” The firearms in Appellant’s trunk were relevant to
assessing the credibility of Appellant’s statement.
Appellant contends that the facts of this case are
similar to those in Alexander v. State235 in which the
appellate court concluded that a revolver found in the
233

Santellan, 939 S.W.2d at 169.

234

Pawlak v. State, 420 S.W.3d 807, 810 (Tex. Crim. App. 2013); Gonzalez, 544 S.W.3d at 370.
235

Alexander v. State, 88 S.W.3d 772 (Tex. App.—Corpus ChristiEdinburg 2002, pet. ref’d).

141a
residence where the defendant was arrested was
irrelevant and unfairly prejudicial. In Alexander, the
victim died from a rifle shot, and the suspect left the rifle
at the crime scene. Three weeks later, the defendant was
arrested in a residence in another town. Investigators
seized a .357 Magnum from inside the residence.236 There
was no showing that the residence was the defendant’s
or that the Magnum had any connection to the defendant
or to the offense. On these facts, the appellate court
found that the Magnum was not relevant, and even if it
was relevant, it did not “compellingly serve to make a
fact of consequence more or less probable.”237 The
seizure of the Magnum had no probative value, and it had
the potential to impress the jury in an irrational but
indelible way.238 And the State did not prove that the
defendant committed an extraneous offense.239
Considering these factors, the appellate court held that
the trial court abused its discretion by admitting the
Magnum into evidence.240
Here, Appellant’s reliance on Alexander is
misplaced. Unlike the handgun in Alexander, the
firearms in this case were clearly connected to Appellant
and to his preparations for the offense and its aftermath.
When police officers stopped Appellant, they observed a
handgun between his legs. A loaded Sig Sauer was on
236

Id. at 774, 777.

237

Id. at 778.

238

Id.

239

Id.

240

Id.

142a
the floor beneath L.C.’s car seat. On these facts, the
evidence of loaded firearms in the trunk of Appellant’s
car was not unfairly prejudicial.
The trial judge did not abuse his discretion in
determining that the probative value of the firearms
evidence was not substantially outweighed by the
danger of unfair prejudice. Point of error twenty is
overruled.
AFFIRMATIVE DEFENSE INSTRUCTION
In point of error twenty-two, Appellant asserts that
the trial judge erred in refusing to instruct the jury
regarding the affirmative defense to kidnapping. Section
20.03(a) provides that a person commits the offense of
kidnapping if he intentionally or knowingly abducts
another person. Section 20.01(2) defines the term,
“abduct,” as restraining a person “with intent to prevent
his liberation by: (A) secreting or holding him in a place
where he is not likely to be found; or (B) using or
threatening to use deadly force.” Section 20.03(b)—the
section relevant to Appellant’s complaint—provides an
affirmative defense to prosecution when:
(1) the abduction was not coupled with
intent to use or to threaten to use deadly
force;
(2) the actor was a relative of the person
abducted; and
(3) the actor’s sole intent was to assume
lawful control of the victim.

143a
Sections 20.03(b)(2) and (3) constitute a confessionand-avoidance defense because they do not negate any
element of the offense of kidnapping but rather excuse
what would otherwise constitute criminal conduct. A
defendant’s failure to testify, stipulate, or offer evidence
admitting to the offense prevents him from benefitting
from a confession-and-avoidance defense.241
Defense counsel requested a Section 20.03(b)
instruction because “There’s no showing that the death
of [Jelena] was facilitating the possession of [L.C.]” and
there was evidence from which the jury could have found
that Appellant took L.C. with him “as an afterthought”
so that L.C. would not be left alone in Jelena’s home. The
trial judge denied the requested instruction stating:
I don’t see where the evidence supports a
submission of affirmative defense under
the facts of this case.
The affirmative defense, the abduction
was not coupled with intent to use or
threaten to use deadly force. The door is
kicked in. She’s shot six times. The child is
taken.

241

See Cornet v. State, 417 S.W.3d 446, 451 (Tex. Crim. App. 2013)
(instruction on a confession-and-avoidance defense is appropriate
only when defendant essentially admits to every element of the offense but interposes a justification to excuse it); Gomez v. State, 380
S.W.3d 830, 834 (Tex. App.—Houston [14th Dist.] 2012, pet. ref’d)
(concluding that a defendant did not establish a confession-andavoidance defense when his conflicting accounts of the incident did
not show that he admitted to the offense).

144a
I’m going to deny that request. I just don’t
think the evidence is there to submit that
affirmative defense to prosecution under
this section.
Upon a timely request, the trial judge must instruct
the jury on any defensive issue raised by the evidence,
even if the evidence is contradicted or weak.242
A defense is raised by the evidence if there is some
evidence on each element of the defense that, if believed
by the jury, would support a rational inference that the
element is true.243 Therefore, for a defendant to be
entitled to a jury instruction under Section 20.03(b),
there must be admitted evidence that, if believed, would
support all three elements of the affirmative defense.244
When reviewing the trial judge’s decision not to
instruct on a defensive issue, we consider the evidence
in the light most favorable to the defendant’s requested
submission.245 We review the judge’s decision for an
abuse of discretion.246

242

Art. 36.14; Rogers v. State, 550 S.W.3d 190, 193 (Tex. Crim. App.
2018); see also Rue v. State, 288 S.W.3d 107, 110 (Tex. App.—Houston [1st Dist.] 2009, pet. ref’d).
243

See Tex. Penal Code § 2.04(c) (“The issue of the existence of an
affirmative defense is not submitted to the jury unless evidence is
admitted supporting the defense.”).
244

See Rue, 288 S.W.3d at 110; Green v. State, 881 S.W.2d 27, 28-29
(Tex. App.—San Antonio 1994, pet. ref’d).
245

Bufkin v. State, 207 S.W.3d 779, 782 (Tex. Crim. App. 2006).

246

Id.

145a
Assuming, without deciding, the trial court’s failure
to give the Section 20.03(b) instruction was error, we
examine whether the error was harmless or requires
reversal. Appellant made a timely request for the
charge. Therefore, reversal is required if the error is
calculated to injure an appellant’s rights, which means
no more than that there must be some harm to Appellant
from the error.247 In other words, an error that has been
properly preserved by objection will call for reversal as
long as the error is not harmless. The degree of harm
must be assayed in light of the entire jury charge, the
state of the evidence, including the contested issues and
weight of probative evidence, the argument of counsel
and any other relevant information revealed by the
record of the trial as a whole.
Appellant’s theory, as summarized at closing, was
that the evidence may have supported murder (“If the
State has proved beyond a reasonable doubt that Mr.
Calvert committed the offense of murder, so be it. But
like Mr. Cassel says, you know, that’s not enough....
There has to be something more.”). But here, there was
not “something more.” The evidence did not support a
kidnapping (Appellant did not “abduct” L.C.), or a
burglary (Appellant was “just mad and upset and went
over there to talk about it, knocked at the door, and
whatever happened after that point happened”). So, to
the extent that the jury could have found the
“abduction”of L.C. (as opposed to the killing of Jelena)
was not “coupled” with the intent to use deadly force, the
jury had an out: it could have convicted Appellant of
247

Almanza v. State, 686 S.W.2d 157, 171 (Tex. Crim. App. 1984).

146a
murder. Moreover, when a jury returns a general guilty
verdict on an indictment charging alternate methods of
committing the same offense, the verdict stands if the
evidence is sufficient to support a finding under any of
the theories submitted. The presence of overwhelming
evidence of guilt plays a determinative role in resolving
the issue and may be considered when assessing jurycharge error.248 Here, as discussed in the response to
point of error twenty-two, the evidence of murder in the
course of burglary was overwhelming. Under these
circumstances, the failure of the court to give the Section
20.03(b) did not cause “some harm.”
Point of error twenty-two is overruled.
JURY UNANIMITY
In point of error twenty-three, Appellant asserts
that he was denied his right to a unanimous verdict when
the trial judge refused to provide the jury with a special
verdict form and thereby allowed jurors to convict
Appellant even if they failed to agree unanimously on
the underlying offense needed to establish capital
murder. Appellant argues that there were substantial
grounds to question whether he was guilty of kidnapping
when he took L.C. from Jelena’s home. Moreover,
Appellant states, there was a significant question
whether he was guilty of burglary, in light of L.C.’s
statement to Lester that he heard a knock on the door
before Appellant entered the house and shot Jelena.
Appellant avers that his request for a special verdict
form should have been granted, “given the unique set of
248

Sanchez v. State, 376 S.W.3d 767, 775 (Tex. Crim. App. 2012).

147a
facts in this situation.” He further contends that the
United States Constitution’s due process clause requires
that the same underlying offense, as an element of the
offense of capital murder, be found unanimously and
beyond a reasonable doubt.
We have repeatedly held that a jury’s general verdict
of “guilty of capital murder as charged in the indictment”
does not violate the unanimity requirement when capital
murder was charged in separate paragraphs, each
alleging an alternative manner or means of committing
capital murder.249 This holding applies “equally to all
alternate theories of capital murder” contained in Texas
Penal Code Section 19.03, “whether they are found in the
same or different subsections, so long as the same victim
is alleged for the predicate murder[.]”250 Therefore, the
jury’s general verdict in response to instructions
providing alternative manners or means of committing
capital murder did not violate the unanimity
requirement. Point of error twenty-three is overruled.
PUNISHMENT-PHASE EVIDENCE: OFFICER
LOGAN
In point of error twenty-four, Appellant asserts that
the trial judge committed reversible error at the
punishment phase by admitting 1) former TDCJ
corrections officer David Logan’s graphic testimony
about an incident in which an inmate in administrative
segregation stabbed him in the eye with a pencil, leaving
249

See Luna, 268 S.W.3d at 600-01; see also Martinez v. State, 129
S.W.3d 101, 103 (Tex. Crim. App. 2004).
250

Gamboa v. State, 296 S.W.3d 574, 584 (Tex. Crim. App. 2009).

148a
him blind in one eye and 2) State’s Exhibit 368, a brain
scan that showed the pencil still embedded. Appellant
maintains that his timely objections under Rules 401,
402, and 403 should have been sustained. Additionally,
he contends that the admission of this evidence violated
his Eighth Amendment right to individualized
sentencing. Appellant further argues that the admission
of this evidence was not harmless because there was
minimal evidence that he presented a threat of future
dangerousness; his history of violence was limited to
domestic incidents, and he had no record of assaultive or
violent conduct while in jail.
Appellant acknowledges that evidence of the violent
nature of Texas prisons is generally relevant to the
question of a defendant’s future dangerousness, but he
avers that Logan’s testimony, describing another
inmate’s violent attack in graphic detail, was not even
“marginally relevant” to the question of whether
Appellant should receive the death penalty.
Alternatively, any marginal relevance was outweighed
by this evidence’s graphic and highly prejudicial nature.
We agree with this latter proposition, but we find the
error harmless.
Logan testified that he had served in the Navy
“[f]our years during Desert Storm” before becoming a
corrections officer, and worked for over ten years in that
capacity until an unprovoked attack by an inmate left
him disabled and unable to work. He testified that he
was injured after he and another officer prepared to
escort an inmate to the recreation yard. That inmate was
in the most restrictive custody classification within
administrative segregation. Following standard

149a
procedure, Logan visually searched the inmate and then
handcuffed him through the slot in the cell door. In the
few seconds between handcuffing the inmate and
opening the cell door, the inmate freed one hand. When
Logan opened the cell door, the inmate hit him and
stabbed him in the eye with a pencil that he had been
given to work on his legal case. Logan struggled with the
inmate and eventually forced him back into his cell.
Logan was then life-flighted to a hospital.
A brain scan showed that the pencil had gone
through his eye and four inches into his brain, coming to
rest against the artery of his brain. He was left
completely blind in his left eye. He did not know why the
inmate attacked him but he surmised that the inmate,
who was serving consecutive sentences totaling 115
years, “probably wanted to die” and therefore
attempted to kill a guard. Logan said that if an inmate
“has it on his mind to hurt you, there’s nothing you can
do.”
With a few exceptions that do not apply here, Article
37.071, section (2)(a)(1) provides that, at the punishment
phase of a capital case, the parties may present evidence
“as to any matter the court deems relevant to sentence.”
In this case, Logan’s testimony about the attack he
suffered and the brain scan exhibit were marginally
relevant to the jury’s assessment of Appellant’s future
dangerousness because they illustrated the ease with
which an inmate—even in very secure prison conditions
—could seriously injure another person.251
251

See, e.g., Canales v. State, 98 S.W.3d 690, 699 (Tex. Crim. App.
2003) (concluding that the trial court did not abuse its discretion in

150a
However, Rule 403 allows for the exclusion of
otherwise relevant evidence when its probative value is
substantially outweighed by the danger of unfair
prejudice. “The term ‘probative value’ refers to the
inherent probative force of an item of evidence—that is,
how strongly it serves to make more or less probable the
existence of a fact of consequence to the litigation—
coupled with the proponent’s need for that item of
evidence.”252 “‘Unfair prejudice’ refers to a tendency to
suggest decision on an improper basis, commonly,
though not necessarily, an emotional one.”253
We afford particular respect to the trial judge’s
exercise of discretion in applying Rule 403.254 Here, the
probative value of Logan’s testimony about being
stabbed and the brain scan of Logan’s injury was
substantially outweighed by the danger of unfair

admitting, over relevance and unfair prejudice objections, an
expert’s accounts of inmates defeating the locking mechanisms on
their cell doors; testimony was responsive to the defense’s position
that a life-sentenced inmate housed in administrative segregation
would not be dangerous); Jenkins v. State, 912 S.W.2d 793, 817-18
(Tex. Crim. App. 1993) (op. on reh’g) (record contained evidence
that the appellant was a drug user and that he was particularly
dangerous when under the influence, an expert’s testimony about
the availability of drugs in prison was relevant to future
dangerousness and was not “fundamentally unfair”).
252

Casey, 215 S.W.3d at 879; Gonzalez, 544 S.W.3d at 372.

253

Davis, 329 S.W.3d at 806; Gonzalez, 544 S.W.3d at 373.

254

Moreno v. State, 22 S.W.3d 482, 487-88 (Tex. Crim. App. 1999);
Gonzalez, 544 S.W.3d at 370.

151a
prejudice.255 Although there was evidence of 1)
Appellant’s possession of dangerous contraband in his
cell (a handcuff key, nail clippers, and a razor blade), and
2) Appellant’s hostile, disrespectful, and dishonest
conduct in jail and in the courtroom, there was no
evidence that he had attempted to attack or physically
injure anyone. Therefore, the State’s evidence, focusing
on a horrific injury inflicted by an inmate who had no
connection to Appellant, was likely to impress the jury
in some irrational, yet indelible, way. Further, in light of
the ample admissible evidence of the significant
potential for and actual violence in prison, the State did
not need this exhibit.
But, given the record as a whole, we hold that its
admission was harmless. The evidence did not have a
substantial and injurious effect on the punishment
decision because the State presented considerable
admissible
evidence
of
Appellant’s
future
dangerousness and the prison conditions in which he
would be confined.256 The presentation of Logan’s
testimony about the stabbing and State’s Exhibit 368
was a small part of the State’s lengthy case at the
punishment phase. The State’s “overwhelming focus”
255

Cf. Reese, 33 S.W.3d at 243 (“[T]he facts that the photograph depict[s] are not facts of consequence that were in dispute.”).
256

Cf. Garcia, 126 S.W.3d at 927 (holding that the erroneous admission of evidence was harmless because (1) “there was a considerable
amount of other evidence from which the jury could have concluded
that [the] appellant had been abusive toward his wife”; and (2)
“there was more than ample evidence to support the jury’s affirmative answer to the special issue concerning [the] appellant’s future
dangerousness”).

152a
was on Appellant’s behavior and prison conditions.257
Therefore, we reject Appellant’s argument that the
error was not harmless.
Appellant’s assertion that Logan’s testimony
violated the Eighth Amendment’s requirement of
individualized sentencing is without merit. The Supreme
Court has not applied the individualized sentencing
requirement in assaying the admissibility of future
dangerousness evidence. Rather, the Supreme Court
has held that a jury must be allowed to consider all
relevant evidence as to why a death sentence should or
should not be imposed.258 The Supreme Court has also
stated that it is unconvinced “that the adversary process
cannot be trusted to sort out the reliable from the
unreliable evidence and opinion about future
dangerousness, particularly when the convicted felon
has the opportunity to present his own side of the
case.”259
The individualized sentencing requirement is
satisfied when the jury is able to consider and give full
effect to a defendant’s mitigating evidence.260 Appellant
257

Cf. Cantu v. State, 939 S.W.2d 627, 637-38 (Tex. Crim. App. 1997)
(concluding that the erroneous admission of victim impact evidence
was harmless given its sparsity, the fact that the State did not mention it during arguments, and the overwhelming focus on the appellant’s behavior and the circumstances of the offense).
258

Jurek v. Texas, 428 U.S. 262, 271 (1976).

259

Barefoot v. Estelle, 463 U.S. 880, 901 (1983).

260

See, e.g., Kansas v. Marsh, 548 U.S. 163, 171 (2006) (“[A]s a requirement of individualized sentencing, a jury must have the opportunity to consider all evidence relevant to mitigation ....”); Jones v.
United States, 527 U.S. 373, 381 (1999) (“[I]n order to satisfy the

153a
does not aver that he was prevented from presenting
relevant mitigating evidence. Accordingly, we conclude
that the admission of Logan’s testimony did not violate
the Eighth Amendment’s individualized sentencing
requirement. Point of error twenty-four is overruled.
PUNISHMENT-PHASE EVIDENCE: OPINION
TESTIMONY AND VICTIM IMPACT EVIDENCE
In point of error twenty-five, Appellant asserts that
the trial judge erred in allowing three categories of
improper testimony at the punishment phase: (1) a
guard’s opinion of Appellant’s future dangerousness
based on Appellant’s jail and courtroom conduct while
representing himself; (2) victim impact evidence; and (3)
opinions of mental health experts.
Appellant cites no authority for his position that a
guard’s opinion based on his observations of Appellant’s
conduct was inadmissible, which was, in any event
admissible under Rule 701.261 Appellant also provides no
requirement that capital sentencing decisions rest upon an individualized inquiry, a scheme must allow a ‘broad inquiry’ into all ‘constitutionally relevant mitigating evidence.’”); Blystone v. Pennsylvania, 494 U.S. 299, 307 (1990) (“The requirement of individualized
sentencing in capital cases is satisfied by allowing the jury to consider all relevant mitigating evidence.”).
261

See Fierro v. State, 706 S.W.2d 310, 317 (Tex. Crim. App. 1986)
(finding that a probation officer and a jail administrator, who both
knew the defendant, could testify that the defendant would be violent in the future); see also Fairow, 943 S.W.2d at 899 (concluding
that a lay opinion regarding another person’s mental state is admissible under Rule 701 as long as the proponent establishes personal
knowledge of the facts from which the opinion may be drawn).

154a
argument and cites no legal authority in support of his
assertion that the State elicited improper victim impact
testimony. Therefore, these parts of his complaint are
inadequately briefed.262
Regarding the third part of Appellant’s complaint, he
argues in part that the State’s first expert witness at the
punishment phase, Dr. Edward Gripon, invaded the
province of the jury when he testified over objection that
Appellant’s diagnosis of major depression was unrelated
to his commission of the offense. The record reflects that
the prosecutor began a question: “I mean, as far as when
the jury is looking at these diagnoses and does that
mitigate the defendant’s actions in shooting his wife or—
.” Defense counsel interrupted to object that this
question was “outside the doctor’s area of expertise.”
The trial judge overruled the objection, but Gripon did
not answer the question. Instead, the prosecutor asked:
“I mean, just what I’m saying is, is it relevant to these
things at all, as far as his culpability?” Gripon responded,
“I don’t think in forensic psychiatry we have ever noted
a correlation between major depressive disorder and
homicide.”
Appellant’s objection at trial (“outside the doctor’s
area of expertise”) does not comport with his complaint
on appeal (“invaded the province of the jury”).
Therefore, he failed to preserve error.263 Moreover,
opinion testimony is not objectionable solely on the basis

262

See Tex. R. App. P. 38.1(h), (i).

263

See Tex. R. App. P. 33.1; Gardner, 733 S.W.2d at 201.

155a
that it “embraces an ultimate issue to be decided by the
trier of fact.”264
Appellant further complains that the State’s second
expert witness, Dr. Michael Arambula, invaded the
province of the jury when he testified that, because of
“how [Appellant] interacts, ... when a woman, in
particular, per his records, doesn’t do what he wants,
then she’s going to be at risk of being assaulted,
threatened, restrained, ... or else he could control the
situation by ..., choking, hitting, any of those things[.]”
Appellant did not object to this testimony. Therefore, he
failed to preserve error.265 Point of error twenty-five is
overruled.
DEFINING “MITIGATING EVIDENCE”
Appellant’s points of error twenty-six and twentyseven concern the definition of “mitigating evidence” in
Article 37.071, section 3(f)(3). In point of error twentysix, Appellant asserts that the definition of mitigating
evidence is facially unconstitutional because it limits the
Eighth Amendment concept of mitigation to factors that
render a defendant less “morally blameworthy” for the
commission of capital murder.

264

Tex. R. Evid. 704; See Ramirez v. State, 815 S.W.2d 636, 650-51
(Tex. Crim. App. 1991) (concluding that psychiatric expert opinion
testimony concerning a defendant’s future dangerousness that was
based upon sufficient relevant facts was admissible, provided that
those facts were within the expert’s personal knowledge, assumed
from common or judicial knowledge, or established by the evidence).
265

Tex. R. App. P. 33.1; Yazdchi, 428 S.W.3d at 844.

156a
Appellant does not assert that he objected to Article
37.071’s definition of mitigation at trial. Nor does he
direct us to any place in the record where he objected.
“A facial challenge to the constitutionality of a statute”
can be forfeited by a failure to object at trial.266
Accordingly, Appellant forfeited this claim of error, and
we will not address it on the merits.267 Point of error
twenty-six is overruled.
In point of error twenty-seven, Appellant argues
that Article 37.071’s definition of mitigating evidence is
unconstitutional as applied to him because, during jury
voir dire, the prosecutor effectively instructed the
jurors who served on this case that the mitigation special
issue required a “nexus” between the proffered
mitigating evidence and the defendant’s culpability for
the offense. The record shows that Appellant did not
timely object or otherwise challenge the prosecutor’s
explanations of mitigating evidence and moral
blameworthiness. Accordingly, he forfeited this claim of
error on appeal.268 Point of error twenty-seven is
overruled.

266

Karenev v. State, 281 S.W.3d 428, 434 (Tex. Crim. App. 2009).

267

See Tex. R. App. P. 33.1; see also Fuller v. State, 253 S.W.3d 220,
232 (Tex. Crim. App. 2008) (“We have consistently held that the failure to object in a timely and specific manner during trial forfeits
complaints about the admissibility of evidence. This is true even
though the error may concern a constitutional right of the defendant.”).
268

See Tex. R. App. P. 33.1; cf. Threadgill v. State, 146 S.W.3d 654,
667 (Tex. Crim. App. 2004).

157a
CHALLENGES FOR CAUSE
In point of error twenty-eight, Appellant alleges that
the trial judge erroneously refused to grant his
challenges for cause to venire members Bressman,
Malone, and Welch. He contends that their statements
during individual voir dire showed that they were biased
against him, they strongly favored the death penalty,
and they affirmatively wanted to serve on the jury.
Further, he avers that the prosecutors committed
misconduct during voir dire by describing the facts of
other death penalty cases and expressing their opinions
concerning the death penalty and the insanity defense.
A prospective juror is challengeable for cause if
(among other reasons) the prospective juror has a bias
or prejudice against the defendant or against the law
upon which either the State or the defense is entitled to
rely.269 The test is whether the prospective juror’s bias
or prejudice will substantially impair his ability to carry
out his duties in accordance with his instructions and his
oath.270 A party wishing to exclude a juror because of
bias must demonstrate, through questioning, that the
potential juror lacks impartiality.271 Before a prospective
juror may be excused for cause on this basis, the law
must be explained to him, and he must be asked whether
he can follow it, regardless of his personal views.272 The
269

Tex. Code Crim. Proc. art. 35.16(a)(9), (c)(2); Gardner, 306 S.W.3d
at 295.
270

Gardner, 306 S.W.3d at 295.

271

Wainwright v. Witt, 469 U.S. 412, 423 (1985).

272

Gardner, 306 S.W.3d at 295.

158a
challenging party must show that the prospective juror
understands the requirements of the law but cannot
overcome his prejudice well enough to follow the law.273
The standard of review on appeal is whether the trial
court abused its discretion.274 We examine the voir dire
of the prospective juror as a whole275 and afford great
deference to the trial court’s decision because the trial
judge was present to observe the prospective juror’s
demeanor and listen to his tone of voice.276 Particular
deference is due when the prospective juror’s answers
are vacillating, unclear, or contradictory.277
But even if a trial judge erroneously denied a
challenge for cause against a venire member, the
appellant must show harm. To do so, the appellant must
show that he was forced to use a peremptory strike to
remove that venire member and that he suffered a
detriment from the loss of that peremptory strike
because he would have used that strike on another
objectionable juror.278
Bressman
At trial, Appellant’s sole challenge to Bressman was
that her personal beliefs in favor of the death penalty
273

Id.

274

Id. at 296.

275

Curry v. State, 910 S.W.2d 490, 493 (Tex. Crim. App. 1995).

276

Gardner, 306 S.W.3d at 295-96.

277

Smith v. State, 297 S.W.3d 260, 268 (Tex. Crim. App. 2009).

278

Chambers v. State, 866 S.W.2d 9, 22 (Tex. Crim. App. 1993);
Comeaux v. State, 445 S.W.3d 745, 750 (Tex. Crim. App. 2014).

159a
substantially impaired her ability to consider a sentence
of life without parole.279 On her written questionnaire,
Bressman stated that she generally favored the death
penalty and believed it was appropriate in some cases.
At the beginning of voir dire, the prosecutor asked:
“Anything about your religious views that you think
conflict or support the death penalty?” Bressman
responded: “I support the death penalty. I believe that,
you know, if you take a life and [you’re] —vicious enough
to do that, then you really shouldn’t have the right to
live; but that’s just how I feel about that.... I’m a very
eye-for-an-eye-type person.” Later, Appellant asked
Bressman to elaborate on that answer, and she
responded: “I do feel like if someone has taken the life of
someone very brutally and for no good, apparent reason,
I definitely—and the evidence is there—I do think the
death penalty is an appropriate penalty for that person.”
Toward the end of voir dire, Appellant asked: “Isn’t it
true that your core beliefs, though, lean towards the
death penalty?” Bressman responded: “Absolutely.
Yes.”
But the record of Bressman’s voir dire as a whole
does not show that her beliefs would interfere with her
ability to serve as a juror and abide by the oath.
279

In his brief, Appellant also complains that Bressman was prejudiced because both of her parents worked for the Texas Department
of Corrections, she had seen information about the case on television, and she affirmatively wanted to join the jury. But we will not
consider Appellant’s challenges on appeal that differ from his challenge during voir dire. See Chambers v. State, 903 S.W.2d 21, 32
(Tex. Crim. App. 1995) (“We have repeatedly held that an objection
at trial that does not comport with the complaint on appeal presents
nothing for review.”).

160a
Bressman indicated during voir dire that she would not
automatically decide that a defendant deserved a death
sentence after she had found him guilty and concluded
that he would be a future danger. Rather, she affirmed
that she could consider whether any of the evidence was
sufficiently mitigating to merit a life sentence. Bressman
stated that jurors “should hear everything before ...
mak[ing] a major decision because there is a life in the
balance.” She also testified that she could listen to all of
the evidence and follow the law even if she did not
personally agree with it.
When questioned by Appellant, Bressman
acknowledged that she “lean[ed] towards the death
penalty,” but she stated that this belief would not
substantially impair her ability to consider mitigating
evidence. She also testified that she would be open to
considering mental health evidence. She stated that she
would hold the State to its burden of proof because, if she
were in the defendant’s situation, that was what she
would want the jurors to do. Further, she affirmed that
she would not always answer the future dangerousness
question affirmatively. She added that her parents, who
had worked in the criminal justice system, knew “people
who entered the penitentiary who were model inmates
and who never would have done anything else to another
person.” She said that some people who committed a
serious offense would not be a threat “to the society in
which they’ve been placed.”
Bressman’s responses during voir dire indicated that
she could set aside any biases she might have, follow the
law, and listen to all of the evidence. We defer to the
decision of the trial judge, who observed her demeanor

161a
and listened to the 280tone of her voice, and who therefore
was in the best position to ascertain whether her
opinions would interfere with her ability to serve as a
juror. Appellant has not shown that the trial judge erred
by denying his challenge for cause to Bressman.
Malone
During voir dire, Appellant challenged Malone for
cause solely on the ground that her friendly interactions
with Jelena might cause her to be biased, particularly in
light of her expressed desire to be on the jury.281 During
voir dire, Malone stated that she knew Jelena because
Jelena was a customer at the bank where Malone
worked. When asked how many times she interacted
with Jelena, Malone responded: “At least five times. It
was enough to know her by her first name.” Malone liked
Jelena and believed Jelena was a nice person.
But “‘the mere fact that a juror knows, or is a
neighbor, or an intimate acquaintance of, and on friendly
relations with, one of the parties to a suit, is not
280

Cf. Buntion v. State, 482 S.W.3d 58, 104 (Tex. Crim. App. 2016)
(holding that the trial judge did not erroneously deny a challenge
for cause against a prospective juror when the prospective juror
“did not express an inability to set aside her personal opinions and
follow the law”; “consistently stated that she would need to know all
of the evidence before she could answer the special issues”; and “did
not think that the death penalty was always appropriate for the capital murder of a police officer.”).
281

In his brief, Appellant also complains that Malone had seen news
reports about the case and Appellant’s behavior in court. But we
will not consider Appellant’s challenges on appeal that differ from
his challenge during voir dire. See Chambers, 903 S.W.2d at 32.

162a
sufficient basis for disqualification.’”282 For example, a
trial court acted within its discretion in denying a
challenge for cause to a prospective juror who testified
that she knew the victim and several witnesses but
stated that she could set this knowledge aside and
evaluate the case strictly from the evidence she heard at
trial and from the jury charge.283 In another case, a
prospective juror testified that he had known the victim
all his life and that “there is a possibility” of bias, but also
testified that, if selected for the jury, he would not be
biased and would “come in here with an open mind.” In
that case, the defendant did not meet his burden of
showing that the prospective juror was challengeable for
cause.284
The record of Malone’s voir dire as a whole does not
show that her familiarity with Jelena would interfere
with her ability to serve as a juror and abide by the oath.
The prosecutor asked Malone several times if her
interactions with Jelena at the bank would prevent her
from being impartial or cause her to believe that
Appellant was “a little bit guilty of anything.” Malone
repeatedly answered that it would not. Malone stated
that she did not have a relationship with Jelena outside
of the customer relationship through the bank. Malone
also confirmed that she would afford Appellant the
presumption of innocence and that she could find
282

Anderson v. State, 633 S.W.2d 851, 853 (Tex. Crim. App. 1982)
(panel op.) (quoting Allbright v. Smith, 5 S.W.2d 970, 971 (Tex.
Comm. App. 1928)).
283

See id. at 854.

284

Jernigan v. State, 661 S.W.2d 936, 939-40 (Tex. Crim. App. 1983).

163a
Appellant not guilty if the prosecutor did not prove guilt
beyond a reasonable doubt. She affirmed that she would
be able to hold the State to its burden of proving the
offense beyond a reasonable doubt.
Malone also stated that she would be able to listen to
the evidence and answer the special issues in such a way
that Appellant would be sentenced to life without parole.
She stated that she would be open to the possibilities,
“[d]epending on the evidence.” Even if she found that a
defendant was guilty and that he would be a future
danger, she could still be open to finding sufficient
mitigating evidence meriting a life sentence.
When asked about her affirmative written answer to
the question of whether she wanted to be on the jury,
Malone stated that she had always been curious about
criminal law. She wanted to perform her civic duty. She
believed that honest, intelligent people needed to serve
on juries in order for the criminal justice system to
function properly. She explained that her questionnaire
answer was not motivated by a desire to serve on this
particular case, but instead was motivated by her
general interest in serving on a jury in a criminal case.
The trial judge was in the best position to determine
whether Malone was challengeable for cause. Malone
affirmed several times that she would afford Appellant
the presumption of innocence and consider the evidence
in making her decisions. On this record, no “clear abuse
of discretion is evident.”285

285

See Colburn v. State, 966 S.W.2d 511, 517 (Tex. Crim. App. 1998)
(“In reviewing the trial court’s action, we ask whether the totality

164a
Welch
Appellant does not identify any reason or provide
any argument for why venire member Welch should
have been excluded. Instead, he states, “Similar error
occurred with regard to Venireperson Welch,” and he
provides bare citations to the record. This part of
Appellant’s claim is inadequately briefed.286 We decline
to make his arguments for him.287 Appellant has not
shown that the trial judge erred in denying his challenge
for cause to Welch.
Finding no error in the trial judge’s denials of
Appellant’s challenges for cause to these three venire
members, we overrule point of error twenty-eight.
RIGHT TO BE PRESENT
In point of error twenty-nine, Appellant contends
that the trial judge deprived him of his Article 33.03
right to be present at all essential proceedings in his case
when, outside of Appellant’s presence, the judge
excused four prospective jurors. Appellant argues that
the assignment of the entire panel to a specific court and
case triggered the commencement of formal voir dire
proceedings, including the duty to record all voir dire
proceedings with the defendant present.

of the voir dire testimony supports the court’s finding that the prospective juror is unable to follow the law as instructed, and reverse
only if a clear abuse of discretion is evident.”).
286

See Tex. R. App. P. 38.1(h), (i).

287

See, e.g., Wyatt, 23 S.W.3d at 23 n.5.

165a
Article 33.03 requires the personal presence of the
defendant “at the trial” in all felony prosecutions unless
he voluntarily absents himself after pleading to the
indictment or after the jury has been selected.288 The
point at which “the trial” begins—triggering the
defendant’s right to be present—depends on whether a
general assembly or special venire is summoned.
Prospective jurors who are summoned to a general
assembly have not been assigned to any particular
case;289 prospective jurors who are summoned to a
special venire have been.290 Trial begins for the former
group after the jurors who are not disqualified, exempt
or excused are divided into trial panels and sent to the
individual courts trying the cases; trial begins for the
latter group at the time of the exemptions, excuses and
qualifications.291 So, when a special venire is summoned,

288

Tex. Code Crim. Proc. art. 33.03; Moore, 999 S.W.2d at 399.

289

Jasper v. State, 61 S.W.3d 413, 423 (Tex. Crim. App. 2001) (noting
that prospective jurors who are summoned to a general assembly
have not been assigned to any particular case; the judge presiding
over the general assembly is assigned for that purpose only at that
time and has no given case in mind).
290

Tex. Code Crim. Proc. art. 34.01 (“A ‘special venire’ is a writ issued in a capital case by order of the district court, commanding the
sheriff to summon either verbally or by mail such a number of persons, not less than 50, as the court may order, to appear before the
court on a day named in the writ from whom the jury for the trial of
such case is to be selected.”).
291

Jasper, 61 S.W.3d at 423.

166a
a trial court errs by proceeding with the excuses and
qualifications in the defendant’s absence.292
Here, a special venire was summoned. The record in
this case reflects that the trial judge stated several times
that the panel summoned for Appellant’s case was not a
special venire. But the record also reflects that the panel
was summoned specifically for the purpose of selecting a
jury for the trial of this case. Accordingly, Appellant had
the right to be personally present when the trial court
proceeded with excuses and qualifications.
In preparation for this trial, the trial judge
summoned 1000 prospective jurors. Of the 1000 people
summoned, 240 people arrived at the appointed time and
place. In the courtroom, the trial judge informed the
parties that the panel was waiting in the central jury
room. He stated that the judge and parties would move
to that room so that the judge could conduct general
qualifications. The remaining prospective jurors would
then fill out the written questionnaires.
However, Appellant filed and presented a motion for
continuance, asserting that he had not received the jury
pool report a full two days before voir dire as required
by Article 34.04.293 He requested that the trial judge
292

See Jasper, 61 S.W.3d at 423 (holding that “it was statutory and
constitutional error for the trial court to proceed with the excuses
and qualifications in [the] appellant’s absence” because the prospective jurors were “already assigned to [the] appellant’s specific
case.”).
293

In relevant part, Article 34.04 provides: “No defendant in a capital case in which the state seeks the death penalty shall be brought
to trial until he shall have had at least two days (including holidays)
a copy of the names of the persons summoned as veniremen, for the

167a
dismiss the waiting venire panel and summon a new
panel. The prosecutor suggested that the judge could
meet with the venire members outside the parties’
presence, distribute the questionnaires, and then release
them until the following day. Appellant did not object
when the judge assented to this suggestion.
The following day, April 24, the trial judge informed
the parties that, while distributing the questionnaires,
he had excused four prospective jurors from the panel.
The judge explained that three venire members who had
been available on April 23 could not be available on April
24. One had a long-standing appointment with the
Veterans Administration and two would be out of town.
The judge postponed their jury service to another
date.294 The fourth prospective juror had a “disability
that it was clear to the Court that, if they had appeared
this morning, I was going to excuse them.” He explained
that this prospective juror was not competent mentally
and was also physically disabled. The juror’s spouse had
waited for her just outside the central jury room because
she needed his assistance. Accordingly, the judge
released her. Appellant objected that he had not had an
opportunity to object to these excuses or to see and

week for which his case is set for trial except where he waives the
right or is on bail.”
294

See Tex. Code Crim. Proc. art. 35.03, § 1 (providing, in relevant
part, that the trial court shall hear and determine excuses, including
any claim of an exemption or a lack of qualification, and if the court
considers the excuse sufficient, the court shall discharge the prospective juror or postpone service to another date, as appropriate).

168a
qualify the excused venire members. The trial judge
overruled these objections.
In the presence of the parties, the trial judge swore
in the venire. He heard qualifications, exemptions, and
hardships, and he excused prospective jurors who
indicated that they had already decided, through
exposure to media coverage, that Appellant was guilty.
Appellant filed a written motion titled, “Defendant’s
Objections to Court’s Procession to Qualify and Obtain
Questionnaire Information from the Summoned Venire
Panel on April 23rd, 2015, Without the Presence of the
Pro Se Defendant and Motion to Quash the Venire.”
Prior to individual jury voir dire, the trial judge heard
this motion and overruled it. The trial judge erred by
proceeding with the prospective jurors’ excuses in
Appellant’s absence.295 Appellant impliedly agreed to
allow the judge to distribute questionnaires in his
absence. But he did not voluntarily absent himself from
a proceeding in which the judge would excuse jurors.
Accordingly, any error in excusing them outside
Appellant’s presence was of constitutional dimension.296
Therefore, we will apply the harm standard for
constitutional error.
295
296

See Jasper, 61. S.W.3d at 423.

See id.; see also Miller v. State, 692 S.W.2d 88, 90 (Tex. Crim. App.
1985) (stating that the right of confrontation includes the absolute
requirement that a criminal defendant who is threatened with loss
of liberty be physically present at all phases of the proceedings
against him, absent a waiver through his own conduct); see also Allen, 397 U.S. at 338 (stating that the Confrontation Clause guarantees an accused’s right to be present in the courtroom at every stage
of his trial).

169a
Under the constitutional-error standard, we will not
reverse a conviction if we determine that the error was
harmless beyond a reasonable doubt.297 If a reasonable
likelihood exists that the error materially affected the
jury’s deliberations, then the error was not harmless
beyond a reasonable doubt.298
Article 35.03 gives a trial judge broad discretion to
excuse prospective jurors for good reason.299 The
postponement or cancellation of jury service because of
a pre-existing scheduling conflict is a legitimate exercise
of this discretion.300 Further, the trial judge has the
discretion to excuse a prospective juror who has a
disability and has requested an excusal.301
Accordingly, even if Appellant had been present and
had objected to the judge’s excusing these four
prospective jurors, the trial judge would have been well
within his discretion in overruling his objections.302
Further, the judge’s explanations indicated that he
would have excused these prospective jurors even if

297

See Tex. R. App. P. 44.2(a); Jasper, 61 S.W.3d at 423.

298

Jasper, 61 S.W.3d at 423.

299

Crutsinger v. State, 206 S.W.3d 607, 608 (Tex. Crim. App. 2006).

300

Id. at 608-09.

301

See Black v. State, 26 S.W.3d 895, 899 (Tex. Crim. App. 2000).

302

See Jasper, 61 S.W.3d at 424 (finding it significant to the harm
analysis that, even if the appellant had been present and objected to
the excuses, the trial court would have been well within its discretion in overruling the objections).

170a
Appellant had objected.303 Thus, we conclude that
Appellant’s absence when the judge excused these
prospective jurors was harmless beyond a reasonable
doubt. Point of error twenty-nine is overruled.
We affirm the judgment of the trial court.
Delivered: October 9, 2019
Do Not Published

303

See id. (finding that a defendant’s absence, when a judge excused
one prospective juror because she was a “caretaker” and another
because she was pregnant and within six weeks of her due date, was
harmless beyond a reasonable doubt).

171a
Appendix B
Court of Criminal Appeals of Texas.
James CALVERT, Appellant
v.
The STATE of Texas
NO. AP-77,063
|
June 17, 2020
On this day, the Appellant’s motion for rehearing has
been denied.
Deana Williamson, Clerk

